<html>
<title> - TOO MUCH, TOO LONG? DOMESTIC VIOLENCE IN THE WORKPLACE</title>
<body><pre>[Senate Hearing 110-647]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-647
 
         TOO MUCH, TOO LONG? DOMESTIC VIOLENCE IN THE WORKPLACE

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON EMPLOYMENT AND WORKPLACE SAFETY

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

              EXAMINING DOMESTIC VIOLENCE IN THE WORKPLACE

                               __________

                             APRIL 17, 2007

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate


                     U.S. GOVERNMENT PRINTING OFFICE
34-939 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming,
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel

           Katherine Brunett McGuire, Minority Staff Director

                                 ______

            Subcommittee on Employment and Workplace Safety

                         PATTY MURRAY, Chairman

CHRISTOPHER J. DODD, Connecticut     JOHNNY ISAKSON, Georgia
TOM HARKIN, Iowa                     RICHARD BURR, North Carolina
BARBARA A. MIKULSKI, Maryland        LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     PAT ROBERTS, Kansas
BARACK OBAMA, Illinois               WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, Oklahoma
EDWARD M. KENNEDY, Massachusetts     MICHAEL B. ENZI, Wyoming (ex 
(ex officio)                         officio)

                   William C. Kamela, Staff Director

                  Glee Smith, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                        TUESDAY, APRIL 17, 2007

                                                                   Page
Murray, Hon. Patty, Chairman, Subcommittee on Employment and 
  Workplace Safety, opening statement............................     1
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia, 
  opening statement..............................................     3
Allard, Hon. Wayne, a U.S. Senator from the State of Colorado, 
  statement......................................................     5
Rodgers, Kathy, President, Legal Momentum, New York, New York....     6
    Prepared statement...........................................     8
Fortman, Laura A., Commissioner, State of Maine, Department of 
  Labor, Augusta, Maine..........................................    19
    Prepared statement...........................................    20
Cade, Yvette, Survivor of Domestic Violence in the Workplace, 
  Temple Hills, Maryland.........................................    38
    Prepared statement...........................................    39
Willman, Sue K., Attorney, Spencer Fane Britt and Browne, LLP, on 
  behalf of Society for Human Resource Management, Kansas City, 
  Missouri.......................................................    41
    Prepared statement...........................................    43
Clinton, Hon. Hillary Rodham, a U.S. Senator from the State of 
  New York, statement............................................    54

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Letter from Legal Momentum (follow-up).......................    16
    Letter from Laura Fortman (follow-up)........................    37
    Harkin, Hon. Tom, a U.S. Senator from the State of Iowa, 
      prepared statement.........................................    61
    Frederickson, Caroline, Director, Washington Legislative 
      Office; Lenora Lapidus, Director, Women's Rights Project; 
      and Vania Leveille, Legislative Counsel, Washington 
      Legislative Office, American Civil Liberties Union (ACLU), 
      prepared statement.........................................    61
    Letters of support...........................................    66

                                 (iii)

  


         TOO MUCH, TOO LONG? DOMESTIC VIOLENCE IN THE WORKPLACE

                              ----------                              


                        TUESDAY, APRIL 17, 2007

                                       U.S. Senate,
Subcommittee on Employment and Workplace Safety, Committee 
                 on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
Room 628, Dirksen Senate Office Building, Hon. Patty Murray, 
chairman of the subcommittee, presiding.
    Present: Senators Murray, Isakson, Allard, Clinton, and 
Brown.

                  Opening Statement of Senator Murray

    Senator Murray. This subcommittee will come to order. We 
are here this morning to focus on domestic violence in the 
workplace and before I begin, I just want to say that yesterday 
is a tragedy that is difficult to fathom for the many young 
lives at Virginia Tech that were touched by this. A lot of 
families will never be the same and as they mourn, we mourn 
with them. They are in our thoughts and in our prayers and 
their loss hangs over everything that we're doing in the Senate 
today and it will for some time.
    I would ask all of us to join in a moment of silence to 
remember the families, the victims, their friends and everyone 
who has been involved in this.
    [Moment of silence observed.]
    Senator Murray. Thank you. Clearly, we don't know all the 
facts and may not for some time but I think this tragedy 
reminds all of us that violence affects far too many in this 
country today. We need to do everything we can here in Congress 
to save lives and to prevent violence from reaching into our 
schools, our homes and our workplaces and that is why we're 
holding this hearing today.
    Two weeks ago, in my home State, a 26-year-old woman who 
worked at the University of Washington was killed at her 
workplace by an ex-boyfriend. She had filed a restraining order 
and warned her friends and co-workers to be on the lookout for 
him. The following day at the CNN Building in Atlanta, a hotel 
employee was killed by an ex-boyfriend. Many other cases of 
abuse, stalking, harassment and homicide don't make the nightly 
news but they do end lives, they hurt businesses and they alarm 
communities.
    Each day, we get terrible reminders that domestic violence 
does not stay at home. It follows people into their workplace, 
posing safety, financial and legal problems for the victims, 
employers and other workers. If we ignore it, the horrible toll 
of domestic violence in the workplace will continue unchecked. 
But if we confront it, we can make progress and I believe this 
is the time to have an informed discussion and in fact, next 
week will mark the National Crime Victims Rights Week and 
Lifetime Television will help us to focus attention on ending 
the violence.
    My goal today is to gather the facts about the size and 
scope of the problem and to discuss solutions, including a bill 
that I am introducing today called the Survivors Empowerment 
and Economic Security Act, which I first introduced with my 
very good friend, the late Senator Paul Wellstone along with 
his wife and these are people who we owe a great deal to for 
bringing the Nation's attention to the issue of domestic 
violence and how we can all work together to deal with it.
    Together, we crafted this bill with input from domestic 
violence survivors, advocates, workplace experts and our Senate 
colleagues and I want to thank all of our witnesses for coming 
today, for sharing their expertise and experiences with us.
    We will hear testimony this morning from Kathy Rodgers, who 
is President of Legal Momentum; Laura Fortman, who is 
Commissioner of the State of Maine Department of Labor--Maine 
is doing some remarkable things to address DV in the workplace; 
Yvette Cade, who is a survivor of domestic violence in her 
workplace--her horrific experience drew national attention in 
October 2005; Sue Willman is an attorney with Spencer Fane 
Britt and Brown in Missouri and has over 30 years of 
experience, both as an employment lawyer and human resources 
professional. She represents management exclusively.
    I've been working on domestic violence for a very long time 
and we have made progress. We've updated our Federal laws and 
invested in prevention, intervention and persecution. We've 
made domestic violence something that no one talked about to 
something that is everybody's business but I am frustrated that 
we have not made as much progress addressing the economic 
factors that allow abuse to continue.
    As I discuss domestic violence today, I am referring to 
domestic violence, dating violence, sexual assaults and 
stalking. Its victims can be men or women. When domestic 
violence follows victims into the workplace, it reveals a key 
connection between safety and economic independence. For many 
victims of domestic violence, a steady paycheck is the only 
thing that keeps them from relying on their abuser. We know, in 
fact, economic security and independence is the most accurate 
indicator of whether a victim will be able to stay away from an 
abuser.
    But too often, victims are entirely dependent on their 
abuser for food and shelter for themselves and their families. 
And too often, abusers try to undermine a victim's ability to 
work, harass their victims in the workplace or worse. If we 
want to end domestic violence in the workplace or anywhere 
else, we need to address the economic barriers that trap 
victims in abusive relationships.
    Let me share a few statistics that show the challenge that 
we face. Domestic violence impacts the productivity of 
employees and the success of businesses. Each year, domestic 
violence results in an estimated 8 million missed days of work 
nationwide and each year, domestic violence causes up to 50 
percent of victims to lose their jobs, making them more 
dependent on their abuser. Many times employers just don't know 
how to handle a situation where an abuser is coming to the 
workplace or causing an employee to miss their work.
    Unfortunately, more than 70 percent of U.S. workplaces have 
no formal program or policy that addresses workplace violence, 
let alone domestic violence. Only 4 percent of our employers 
provide training on domestic violence.
    Some companies make the wrong choice and fire the worker. 
But making the employee go away does not make the problem go 
away. In fact, it can make it much harder for that person to 
get help if they do not have the financial security that a job 
provides. So we need to help our employers understand the right 
things to do.
    If I look at these challenges, I see a series of locked 
doors. A victim wants to leave an abuser but she can't support 
herself so the economic door is locked. A survivor wants to go 
to court to get a protection order but she can't get time off 
work. Another door is locked. A survivor needs medical 
insurance or a job but she is discriminated against. More 
locked doors. My bill will unlock the doors that trap victims 
in abusive relationships and it will lift the economic barriers 
that allow abuse to continue.
    Let me share four ways the Survivors Empowerment and 
Economic Security will help. First, it allows victims to take 
time off from work without penalty from their employers to 
appear in court, seek legal assistance and get help with safety 
planning. Second, it ensures that if a victim must leave a job 
because of abuse, that person is then eligible for unemployment 
compensation. Third, it prohibits employers or insurance 
providers from basing hiring or coverage decisions on a 
victim's history of abuse. Too many victims today cannot get a 
job or the insurance they need because insurance companies 
reject abuse victims. Finally, the bill addresses the punitive 
elements of the welfare system that penalize victims who are 
fleeing dangerous situations, also called the Family Violence 
Option.
    Those are the main parts of the bill and I want 
stakeholders to know that if they have concerns or ideas for 
improving the bill, my door is open and I want to hear from 
you. We owe it to the millions of victims of domestic violence, 
sexual violence and stalking to address this problem head on. 
People should not be forced to choose between financial 
security and physical security. Together we can help to stop 
this cycle of violence and the toll it takes on families, on 
communities and our society but we have to change the law and 
that's what I hope we can do together, starting with this 
hearing this morning.
    Senator Isakson.

                  Opening Statement of Senator Isakson

    Senator Isakson. Well, thank you, Chairman Murray and first 
of all, I want to associate myself with your remarks regarding 
the tragedy yesterday in Virginia. We just learned this morning 
that a young Georgian, Ryan Clark, 22 years old, a 
distinguished student at Virginia Tech who was to graduate in 
May and then pursue his Ph.D., was one of the first students 
that was killed yesterday. He was a residential advisor who was 
in that dormitory, trying to help those students and it's a 
tragedy. This tragedy is going to touch many States and many 
communities and lives all across this country. I share your 
concern in the sense that you expressed and I appreciate very 
much your acknowledgement at this time.
    I also appreciate your leadership in bringing this issue 
forward to the committee and I particularly want to thank Ms. 
Cade and Ms. Willman for their testimony today. I thank all of 
our witnesses and Ms. Cade and Ms. Willman both understand 
domestic violence personally and have been victims themselves 
and I want to congratulate them on their fortitude, their 
resilience and their courage to come before this committee and 
testify today.
    Domestic violence is illegal and it's wrong. There is also 
no doubt that domestic violence can and often does affect the 
workplace. As Chairman Murray just mentioned, in my hometown of 
Atlanta, Georgia, just earlier this month, Ms. Clara Riddles 
was fatally wounded while working at the Omni Hotel in the CNN 
Center. According to police, her former boyfriend entered the 
lobby, grabbed her by the hair and then shot her three times.
    All of us seek to prevent it. Effective interventions 
require consistent and coordinated efforts by police and 
prosecutors, counselors and the courts. The Violence Against 
Women Act made great strides in this area, originally passed by 
the Congress in 1995 and reauthorized in 2005, the act 
authorizes the Department of Justice to coordinate with State 
governments as well as international governments on matters 
concerning violence against women.
    In 2003, President Bush launched the Family Justice Center 
Initiative. The Initiative attempts to address the problem of 
victims having to seek help in an often fragmented system by 
providing comprehensive services for victims at one single 
location, including medical care, counseling, legal enforcement 
assistance, social services, employment assistance and housing 
assistance.
    As an employer for 22 years of almost 1,000 women, 800 
independent contractors and 200 employees, I am not unfamiliar 
with the effect that domestic violence can have on those 
individuals or the workplace. And I am happy to cooperate in 
encouraging exactly what Chairman Murray stated in her remarks 
and that is to help employers to do the right thing.
    As an employer, I always tried to do the right thing and 
quite frankly, I find almost in all cases, employers always try 
to do the right thing because their assets are their employees.
    I look forward to working with the Chairman on this 
legislation when it is introduced. I haven't had the chance to 
read it yet. My only cautions that I would raise is first of 
all, the caution with regard to any provisions on unlimited 
jury awards or creating an environment where the legal action 
against the companies takes place because of allegations. 
Second, I worry about the unintended consequences of people who 
have been abused not being employed because of the fear that 
because they were abused, they might be a problem in the 
workplace.
    We don't want to pass a law that has the unintended 
consequence of causing that to happen by having employers judge 
people out of fear of either legal action of some consequence 
and therefore, they don't employ someone they might otherwise 
have employed.
    Together, government officials, employers and employees can 
work to address these very important issues. Employers can 
establish sound workplace policies that take all disclosures of 
abuse, whether in or out of the workplace, seriously. Employers 
can train management supervisors and all employees in how to 
respond when a co-worker is a victim or a perpetrator of 
domestic violence. Supervisors can work with domestic violence 
victims to develop personal safety plans for them while they 
are at their workplace.
    I know many employers of all sizes and all sectors in the 
American economy. I do not know of one, however, who would be 
unsupportive or hostile to any employee who was suffering from 
domestic abuse.
    I want to thank Chairman Murray for the introduction of 
this legislation and the calling of this hearing today and I 
look forward to working with her as the legislation develops.
    Senator Murray. Thank you very much, Senator Isakson.
    Senator Allard, do you have an opening statement?

                      Statement of Senator Allard

    Senator Allard. Just a brief comment, Madam Chairman, I 
just want to compliment you and Ranking Member Isakson for this 
opportunity to discuss employment and labor issues that will be 
debated in the 110th Congress. And I'd like to thank the 
witnesses who have come here to testify before us. It's not 
always easy to get away from your families or your place of 
work to be here, to share with us your experiences and your 
thoughts about this very important issue.
    No doubt, domestic violence is a very devastating crime and 
has an effect on obviously, the families but it can extend into 
the workplace and we need to make sure that the police and the 
prosecutors and the counselors and courts are all collaborating 
together on these types of issues and we need to make sure that 
the workplace, again, is sensitive to those conditions that 
would allow those prosecutors and collaborator and what not to 
do their job and allow the victim an opportunity to get the 
time off to move an action against whoever that spouse might be 
where you have domestic violence.
    I would side with--or just make a few comments about what 
Senator Isakson said. We have to be careful here. If you have a 
small business, all of a sudden, the small businessman, in a 
sense, becomes a victim, too. So I think we have to be very 
careful about how we draft this so that we don't create an 
environment for the real small employer, where they can help 
the victim if they so desire or in some cases, they find 
themselves in a position where they become pulled in as the 
victim because of what is happening in their workplace and how 
it affects their community and what they are trying to do. 
Because small business people, sometimes they are very 
specialized people in that small business and nobody else in 
that business can do that.
    So we need to reach a proper balance here so I'm anxious to 
hear what all your comments might be in regard to your 
experiences and your concerns. Thank you very much.
    Senator Murray. Thank you very much, Senator Allard. And I 
again want to thank all of our witnesses for being here today 
as we move forward on this critically important issue. I look 
forward to hearing from each of you and we will start with Ms. 
Rodgers on my left and then to Ms. Fortman, Ms. Cade and Ms. 
Willman.

  STATEMENT OF KATHY RODGERS, PRESIDENT, LEGAL MOMENTUM, NEW 
                         YORK, NEW YORK

    Ms. Rodgers. Good morning and thank you very much, Senator 
Murray and good morning to the other members of the 
subcommittee. I am Kathy Rodgers, President of Legal Momentum 
and that organization was founded in 1970, which makes us the 
oldest national legal organization fighting to advance the 
rights of women and girls. Certainly since 1990, we have been 
deeply involved in issues of violence against women.
    So I thank you very much for this opportunity to testify 
today and also to join you in our collective grief as to what 
happened at Virginia Tech. It's just unimaginable. Our hearts 
are with the folks in Virginia and the families of those 
students.
    Today also marks the beginning of a timeframe here in 
Washington of Lifetime Television's End Violence Against Women 
Week and Victims Rights Week so it's an appropriate time for 
this hearing and I look forward to a productive exchange on the 
best ways to support victims of domestic violence, dating 
violence, sexual assaults and stalking, especially as these 
issues carry over into the workplace.
    Now, today's headlines indicate that the event today may 
have been sparked by a dating violence incident. That certainly 
dramatically reminds us that this issue is not an abstract one. 
It matters to real people and real families, people like Yvette 
Cade and her family, whom we are privileged to have here today. 
And it mattered to three women whom you referred to, Senator 
Murray--one white, one Latino and one African-American, all who 
lost their lives in the workplace just in the last month, 
including in Washington and Georgia, your home States.
    It also matters to me and my colleagues at Legal Momentum 
in the context of our work, both to reauthorize and fund the 
Violence Against Women Act and in our program on employment and 
housing rights for victims of domestic violence, two of the key 
supports that any victim needs.
    The issues of the impact of domestic and sexual violence in 
the workplace becomes visible to all when lives are lost or 
victims are set on fire but most victims are hidden victims. 
One in four women will be a victim of domestic violence in her 
lifetime and you can be sure that many such victims are our 
fellow employees, whether or not we are aware of it. Many do 
not speak up and they do not seek employer assistance because 
they are embarrassed or worse, because they are afraid they'll 
be fired.
    Even more hidden is the issue of employees who are abusers 
not victims. A recent study found that 78 percent of abusers 
use their employer's property--a phone, computer, a company 
car, to keep track of the victim's whereabouts. This is an 
issue that has to be addressed as well.
    Now some employers and States have been working to help 
employees to maintain their safety and their job stability but 
far too few. We know from a Bureau of Labor Statistics Study 
released last year that only 4 percent of employers have 
policies that explicitly address domestic and sexual violence 
in the workplace and although many States have passed 
legislation to address parts of the solution, very few have all 
the pieces in place.
    Among the 13 States represented on this subcommittee, 8 
provide unemployment insurance to survivors who must leave 
their jobs because of the abuse. Five have domestic violence 
specific leaves. But only two have provisions preventing a 
victim of violence from being fired and just one, Illinois, has 
all three provisions.
    The good news is, such policies are not, in fact, onerous 
to employers. They are beneficial to them. They are of 
significant help to the employee involved, obviously. It also 
makes other fellow employees feel more secure and satisfied 
with their employer. But for the employer, it also helps to 
maintain and increase business productivity and we have worked 
with many employers on these issues and hope that others and 
I'm sure, Ms. Willman's organization, will join us.
    It is far better to support your valuable, productive 
employees than to have to recruit and retain new ones. 
Employers who don't recognize this simple fact are simply short 
changing themselves and I speak not only as an advocate but as 
an employer myself. We have two offices and 38 staff and 10 or 
more interns at any given time.
    Legal Momentum voluntarily affords our employees the 
protections of the FMLA and has a policy to support employees 
who are victims of violence. But employers are largely unaware 
of the benefits of violence against women policies and the 
simple and cost effective practices that can really help their 
employees who are victims of domestic violence or sexual 
assault.
    There is a need for Federal legislation to establish a 
floor of protections for all victims, regardless of where they 
live and work, which is often in two different States. Now the 
lynch pins of this protection are three. First, provisions that 
prevent victims of domestic or sexual violence from being fired 
because they are victims. This is all too common and we have 
represented such victims around the country. There are, I'm 
afraid, employers who do not have the best interests of their 
employees in mind and one example in our case is Angela, a 
bartender in Wisconsin and she became pregnant and her 
boyfriend began making death threats against her. In May 2005, 
she applied for a protective order and when she told her boss 
about it, her boss told her to drop the protective order or she 
would be fired because one of the ex-boyfriend's friends had 
threatened to stop coming to the bar, had threatened to stop 
bringing his business to the bar. Immediately after she 
obtained the protective order, she was fired.
    The second lynchpin is unpaid leave to allow victims the 
time to go to court for a protection order, to do safety 
planning or seek other assistance from a service provider, to 
have locks changed or to secure a safe home for themselves and 
their families.
    Senator Murray. Ms. Rodgers, one thing I didn't say before 
we all started but if everybody could keep their testimony to 
the 5-minute limit so we have an opportunity to ask questions 
and make sure we have an opportunity to do that. If you could 
sum up your remaining remarks, I'd appreciate it.
    Ms. Rodgers. Thank you. The third is unemployment 
insurance, if the violence forces them to leave their 
employment. With those three things, that ends my testimony 
here today and I look forward to discussing how we can move 
forward in what are clearly the common interests of employers 
and employees. Thank you very much and I'm sorry for running 
over.
    [The prepared statement of Ms. Rodgers follows:]

                  Prepared Statement of Kathy Rodgers

  I. LEGAL MOMENTUM IS A LEADER IN PROMOTING THE ECONOMIC SECURITY OF 
                VICTIMS OF DOMESTIC AND SEXUAL VIOLENCE

    For 37 years, Legal Momentum has advanced the rights of women and 
girls through the power of the law and effective public policy. As 
President of Legal Momentum, I am grateful for this opportunity to 
testify before the HELP Subcommittee on Employment and Workplace Safety 
and to submit this written testimony on the issue of domestic and 
sexual violence in the workplace. My colleagues and I, and the women we 
represent, are also indebted to Senator Murray, her staff and the staff 
of the subcommittee for their enduring commitment to this important 
issue.
    Legal Momentum's commitment to assisting victims of domestic 
violence and sexual assault secure economic independence stems from our 
longstanding dedication to two related goals--ending violence against 
women and eliminating barriers that deny women economic opportunities. 
We helped craft and generate support for the Violence Against Women Act 
of 1994 and its reauthorizations in 2000 and most recently in 2005. We 
created and currently chair the National Task Force to End Sexual and 
Domestic Violence Against Women, the umbrella entity under which 
national, State, and local organizations representing hundreds of 
thousands of survivors, advocates, and professionals join together to 
work for VAWA reauthorization. We also chair the workplace subcommittee 
of the Task Force, which specifically works to ensure that victims of 
domestic and sexual violence have the economic independence they need 
to separate effectively from an abuser or recover from a sexual 
assault. Through our ``Employment and Housing Rights for Victims of 
Domestic Violence'' program, we provide information to domestic and 
sexual violence survivors to help them understand their employment and 
housing rights and we represent individual women seeking to enforce 
those rights. Additionally, we work closely with employers to develop 
best practices for companies that seek to deal with the workplace 
effects of violence against women.
    Our advocacy in both the workplace and housing areas is a direct 
response to calls we receive every day from real people: women and men 
seeking guidance in how they can keep their jobs and their housing 
while they address the effects of domestic violence or a sexual 
assault, or, worse, women and men who have lost their jobs or their 
housing because of that violence. A few of their stories are included 
in the testimony below. More are attached as an appendix. A victim of 
violence should not need to choose between her physical safety and her 
economic independence, especially since that economic independence is a 
linchpin for ensuring that she is able to end an abusive situation.

                     II. DIMENSIONS OF THE PROBLEM

    Since its enactment in 1994, VAWA has dramatically improved the 
response of the police and the criminal and civil justice systems to 
victims of domestic and sexual violence and the availability of 
shelters, counseling, and other essential services for them. But far 
too many working women and men who are victims of domestic and sexual 
violence remain unable to access these services simply because they 
cannot take any time off from work. Many victims are too afraid of 
losing desperately needed jobs to take the time to pursue legal 
remedies, seek medical treatment, or to take other essential steps to 
secure their safety.
    I wish I could tell you that this fear is unfounded--but it is not. 
For example, we represented Sophia Apessos, a newspaper reporter in 
Plymouth, MA. On Saturday, July 29, 2000, her day off from work, 
Sophia's then-husband assaulted her in her home. Sophia fled to the 
local police department to report the incident and seek assistance. The 
police immediately arrested her husband, charged him with assault and 
battery, and helped Sophia obtain a temporary restraining order. 
Because the temporary restraining order could not be extended unless 
Sophia appeared in court during regular business hours, she called her 
work supervisor and left a message that she would be absent on Monday, 
July 31, to attend court proceedings relating to domestic violence. 
When she reported to work on Tuesday morning, the human resources 
director called Sophia into her office and fired her.\1\
    Sophia's story is typical. Forty percent of Americans working for 
private industries have no paid leave.\2\ Thus, taking a single day off 
from work to go to court to get a protective order can mean that a 
victim will lose her job--and with it the economic security she needs 
to separate from her abuser. Additionally, victims of domestic violence 
and sexual assault often face harassment at the workplace. As many as 
96 percent of employed domestic violence victims experience problems at 
work due to their abuse or abuser, and 70 percent report being harassed 
by telephone or in person by their abuser.\3\ The combination of 
necessary absences related to the violence and harassment or 
discrimination at work means many victims lose their jobs. According to 
a 1998 report of the U.S. General Accounting Office, between 25 percent 
and 50 percent of domestic violence victims in three studies reported 
that they lost a job due, at least in part, to domestic violence.\4\ 
Similarly, almost 50 percent of sexual assault survivors lose their 
jobs or are forced to quit in the aftermath of the assaults.\5\ The 
prevalence of sexual assault and other violence against women at work 
is also dramatic. About 36,500 individuals, 80 percent of whom are 
women, were raped or sexually assaulted in the workplace each year from 
1993 through 1999.\6\ Domestic violence also affects perpetrators' 
ability to work. A recent study found that 48 percent of abusers 
reported having difficulty concentrating at work and 42 percent 
reported being late to work.\7\ Seventy-eight percent reported using 
their own company's resources in connection with the abusive 
relationship.\8\
    Recognizing the need to support survivors of sexual and domestic 
violence that are seeking to establish or maintain their financial 
independence, State legislatures and advocates for survivors have 
worked to enact legislation to ensure that victims can have access to 
job-protected leave, or if they have to leave a job because of 
violence, unemployment insurance. Twenty-eight States and the District 
of Columbia have laws that explicitly provide unemployment insurance to 
domestic violence victims in certain circumstances; some of these laws 
also explicitly provide benefits to victims of sexual assault or 
stalking. Thirty-two States have enacted statutes that afford 
protection to victims of crime who need time off to attend court 
proceedings, while eight have statutes that specifically afford leave 
to survivors of intimate partner violence. Three States and New York 
City protect, at least in certain circumstances, employees who are 
victims of violence from being fired simply because they are victims or 
have obtained a protective order.
    Experience in States that have enacted these laws demonstrates that 
these provisions reasonably protect employers' interests and will help 
make workplaces safer. As Maine Labor Commissioner Fortman discusses in 
her testimony, implementation of its domestic violence workplace 
protections were not onerous for employers. Reports from States such as 
California and Illinois, which have enacted comparable legislation, 
likewise confirm that implementation has worked well for employers and 
employees.\9\ Federal legislation is necessary, however, to ensure that 
all workers have these essential protections.

   III. ADDRESSING DOMESTIC AND SEXUAL VIOLENCE IS GOOD FOR BUSINESS

    Forward-thinking companies, such as Harman International, Liz 
Claiborne, American Express, Verizon Wireless, Altria have realized 
that proactively addressing the effects of violence against women in 
their workplaces is simply good business practice. They understand that 
this issue affects their most important asset--their employees--and so 
undeniably affects their bottom line. Domestic violence costs employers 
at least $3 to $5 billion a year in missed days of work and reduced 
productivity.\10\ These figures do not begin to address the costs of 
additional security, liability, and employee assistance benefits, or 
the toll violence takes on women's personal economic security.\11\ In 
addition to costs associated with diminished productivity, businesses 
often lose valuable employees when those employees are victimized.\12\ 
Losing loyal and experienced employees generates substantial hiring and 
training costs, which would be largely avoided by addressing the impact 
of domestic and sexual violence in the workplace.\13\
    Recognition of the costs that domestic and sexual violence impose 
on businesses is growing. Sixty-six percent of corporate leaders 
identified domestic violence as a major social issue and one that 
affect business functioning and the ``bottom line.'' \14\ Seventy-eight 
percent of human resources professionals consider intimate partner 
violence a serious workplace issue.\15\ Ninety-four percent of 
corporate security and safety directors at companies nationwide rank 
domestic violence as a high security concern.\16\ And 44 percent of 
employed adults report personally experiencing the effects of domestic 
violence in their workplace.\17\ However, according to a 2006 study by 
the Bureau of Labor Statistics, more than 70 percent of U.S. workplaces 
have no formal program or policy that addresses workplace violence, 
including domestic violence that spills into the workplace.\18\ In 
fact, only 4 percent of employers provide training on domestic 
violence.\19\ Sue Willman, who will also be testifying this morning, 
has written about the importance of employer-employee training in other 
contexts. To the extent that employers are already providing training 
on a variety of other subjects, broadening their already-existing 
curriculum to include domestic and sexual violence would help support 
employees and would not be unduly burdensome to them.\20\
    Fortunately, we know that there are effective steps that businesses 
can take to help keep victims and their co-workers safe. Permitting 
individuals to take time off to take actions outside of work to address 
the violence--like going to court or moving to a safe location--is one 
important aspect of supporting employees. Other easy, low-cost or no-
cost steps that a company might be able to take include changing a 
phone extension so that an abuser can no longer harass a victim at 
work, or letting an employee modify her regular working hours so that 
her abuser will no longer know when she's likely to be commuting to or 
from work. If a batterer has threatened to come to the workplace, 
registering a copy of a protective order with building security or a 
receptionist, or transferring the employee to another work site, might 
be appropriate. Companies that make personal information available to 
other employees, through an internal intranet system or other 
directories, may need to take steps to protect the location of 
individuals who have successfully separated from a batterer. 
Importantly, addressing domestic or sexual violence does not mean that 
a company must (or should) counsel the individual involved about how to 
address the violence in her life; instead, generally an employer should 
simply help her access resources in her community and give her the 
support she needs at work to take the steps that she (after 
consultation with appropriate professionals) determines are 
appropriate.
    Many businesses are taking the lead in implementing such policies. 
Their experience shows that programs can be effective for both victims 
and their employers. Creating legal mandates that set a reasonable 
floor of protections to ensure that victims can take necessary time off 
from work and can safely tell their employers about their situation 
without jeopardizing their jobs will spur further business leadership 
in addressing domestic and sexual violence and their effects on the 
workplace.

                  IV. THE NEED FOR FEDERAL INVOLVEMENT

    As described above, States and some businesses are very actively 
trying to support survivors of intimate partner violence who are trying 
to achieve or maintain financial independence. Well over half of the 
States now have at least some explicit employment-related protections 
for victims of domestic or sexual violence. States have crafted 
legislation that appropriately balances employer and employee interests 
and, perhaps even more important, helps employers and employees work 
together effectively to keep workplaces safe. Congress can look to 
these proven models in crafting legislation addressing these issues. 
But the existing State laws have created an uneven patchwork of 
protection, where a victim's access to the economic security she needs 
to separate from an abuser depends on the State in which she happens to 
live. For the true potential of these statutes to be realized, Federal 
legislation is needed to ensure that all survivors of sexual and 
domestic violence receive at least basic economic protections.
    Congress began the process of addressing this vital issue as a 
Federal matter during reauthorization of VAWA. The 2005 VAWA 
reauthorization bill introduced in the Senate, S. 1197, made up to 10 
days job-protected leave available to all eligible employees. Another 
VAWA 2005 reauthorization bill, H.R. 3171, contained several strong 
provisions that would promote the economic security of victims, 
including a right for victims to take up to 30 days off to address the 
effects of the violence and anti-discrimination protections for 
victims. A third, H.R. 2876, would have permitted individuals who 
already had paid leave to use it for purposes related to domestic or 
sexual violence. Although the leave and anti-discrimination protections 
were not included in the final bill, Congress took an important step 
forward by authorizing appropriations to create a workplace resource 
center to assist employers in learning how to support their employees 
who are victims of intimate partner violence.
    Other Federal agencies, focusing on the domestic violence that 
spills over into violence in the workplace, have also made addressing 
the issue a priority. The Centers for Disease Control (CDC), 
particularly its National Institute on Occupational Safety and Health 
(NIOSH) unit which is charged with enforcement of workplace safety 
rules, and the Occupational Safety and Health Agency each recognize 
domestic violence and its workplace effects as a significant risk to 
workplace safety.\21\ In 2004, these agencies worked with leading 
employers to organize a national conference that brought together 
experts to develop proposed policies.\22\ NIOSH has also funded several 
grants to outside researchers to conduct systematic research into the 
prevalence of violence and effective prevention mechanisms. These are 
welcome steps forward, but they are not enough. Congress should 
continue its commitment to supporting the workplace needs of victims of 
sexual and domestic violence by building on the successful experience 
of States and businesses that have made protecting the economic 
security of victims and the safety of businesses a priority.

   V. ANTI-DISCRIMINATION PROTECTIONS ARE NECESSARY TO THE WORKPLACE

    Victims of domestic violence, dating violence, sexual assault, and 
stalking are often afraid that telling their employers what is going on 
outside work will jeopardize their employment. Again, unfortunately, 
this fear is quite reasonable. For example, we are currently 
representing Angela Thoma, a waitress in Wisconsin who was fired after 
she obtained a protective order because some of her ex-boyfriend's 
friends said they would stop coming to the tavern where she worked.\23\ 
We were also involved in a case brought by a male bus driver in North 
Carolina who was fired after he was shot (off work premises) by his ex-
wife because the incident ``injured'' the reputation of his 
employer.\24\ Although some such individuals are able to obtain relief 
under sex discrimination laws or tort-based claims that firing a victim 
violates public policy, most are left with no legal recourse. For 
example, in the North Carolina case, the North Carolina Supreme Court 
denied the bus driver's claim that the termination was a violation of 
public policy, affirming a lower court decision that held that absent 
specific legislation it was legal to fire victims simply because of the 
violence against them.\25\
    The experiences of our clients and of others who call us are 
typical. As noted above, between 25 and 50 percent of victims of 
domestic violence, and almost 50 percent of sexual assault survivors, 
lose their jobs as a result of the violence and almost 50 percent of 
sexual assault survivors.\26\ In some cases, this is because of 
absences or job performance problems. But victims also lose their jobs 
simply because they are victims or because an abusive partner disrupts 
the workplace. Supervisors or human resources personnel may subscribe 
to common stereotypes regarding domestic violence, which blame victims 
for the violence against them. Employers may not realize that there are 
other steps that they can take against the abuser--such as reporting 
harassment to the police or, in States that authorize it, seeking a 
workplace restraining order--to address harassing or disruptive 
conduct, rather than firing the victim of the violence. Likewise, 
employers may mistakenly believe that firing a victim is the only way 
to ensure that the violence does not spill over into the workplace. 
Again, the success of businesses that have proactively developed 
programs addressing domestic violence demonstrate that other 
mechanisms--such as changing an employee's work shift, registering a 
protective order, alerting security, or transferring an employee--are 
effective means of addressing any potential threat to the workplace. 
But employers cannot take safety precautions if they do not know what 
is going on.
    The best way to ensure that victims feel comfortable telling their 
employers about their situation is enacting legislation that makes 
clear that victims cannot be fired simply because of their status as 
victims. Illinois, New York City, and Westchester County have addressed 
this issue by enacting antidiscrimination protections that include 
domestic and sexual violence victims as protected classes under their 
human rights laws.\27\ Rhode Island and Connecticut specifically 
prohibit firing victims because they have obtained protective 
orders.\28\ Congress has also dealt effectively with a similar problem 
in the housing context by enacting provisions in the 2005 
reauthorization of VAWA that make clear that victims cannot be denied 
access to or evicted from public housing or terminated from housing 
assistance based on incidents of violence against them.\29\ Although 
privacy laws and good employment practices make clear that victims 
should never be required to disclose personal experiences such as 
domestic violence or sexual assault, victims who wish to disclose--or 
whose victimization is made obvious by physical markers such as bruises 
or harassment by the abuser at work--should know that the criminal acts 
against them will not cost them their employment. Anti-discrimination 
protections are necessary to ensure that victims can talk about their 
situation with employers without jeopardizing their jobs. Like other 
anti-discrimination protections, such provisions would not limit the 
ability of employers to terminate victims for legitimate performance 
problems. What they would do is ensure that employers and victims can 
work together to jointly assess any security risk and take appropriate 
precautions. These protections also ensure that victims feel 
comfortable asking for time off or other modifications they may need at 
work to remain productive while addressing the violence.

  VI. VICTIMS CANNOT OBTAIN ESSENTIAL SERVICES WHEN THEY FEAR LOSING 
                               THEIR JOBS

    The Violence Against Women Act and other legislation that Congress 
has passed have made an enormous difference for victims by creating 
emergency shelter services and improving the response of the criminal 
and civil justice systems to domestic and sexual violence. However, too 
many victims are afraid to access those services because they are 
worried that if they miss work, they will lose their jobs. For example, 
``Penny,'' in St. Claire, MO, called us to ask for advice. She had been 
fired after 18 years working as a shipping clerk because she had missed 
work to go to court for a restraining order and get treatment for 
injuries; although she had provided her employer paperwork from the 
doctor and the court, she hadn't been able to provide her employer with 
the 24-hours advance notice required under her employment policy to use 
vacation days. She was fired for excessive absences--and unfortunately, 
there was no law to protect her.
    Forty percent of the American workforce has no paid sick leave.\30\ 
Low-wage workers, who tend to be at greater risk for domestic and 
sexual violence, are even less likely to have paid time off--one study 
found that 76 percent of low-wage workers have no paid sick leave.\31\ 
Additionally, as Penny's experience makes clear, even employees who do 
have sick days or vacation days may not be able to use them to cover 
the range of needs associated with addressing domestic or sexual 
violence. Thus, without legislative protection, a victim of domestic 
violence who misses work to testify at a criminal prosecution, to 
obtain a civil protective order or to take other steps to address the 
violence typically knows that her absence could cause her to lose her 
job. And therefore many victims, knowing their safety depends on an 
independent income stream even more than other safety-enhancing 
measures such as a protective order, forego services rather than risk 
their employment.
    Responding to this reality, more than half of the States have 
passed laws that permit crime victims time off to attend court 
proceedings and laws specifically addressing the needs of domestic and 
sexual violence victims. Thirty-two States (AL, AK, AZ, AR, CO, CT, DE, 
FL, GA, HI, IN, IA, MD, MA, MI, MN, MS, MO, MT, NY, NV, ND, OH, PA, RI, 
SC, TN, UT, VT, VI, VA, WI, WY) and the Virgin Islands have laws 
specifically permitting an employee who is a victim of a crime to take 
time off from work to attend court, at least under certain 
circumstances.\32\ These laws obviously can be a great help to some 
victims of domestic or sexual violence--but they are not sufficient. 
Many of the laws only apply if the victim is subpoenaed to appear. They 
do not address the specific needs of victims of these particular crimes 
to take a range of other steps, such as finding safe housing, in 
addition to attending court proceedings related to the crime. In fact, 
since generally a victim can seek a protective order only in civil 
court (a criminal protective order may sometimes be issued in 
conjunction with a criminal prosecution, but a victim does not 
determine whether a given case is prosecuted), crime victim leave laws 
do not even ensure that a victim may take time off from work to get a 
protective order. And of course, they offer no protection at all to 
individuals who live in the 28 States that do not have any kind of 
crime victim leave law.
    As of April 2007, California, Colorado, Hawaii, Illinois, Kansas, 
and Maine provide an affirmative right to victims of domestic violence 
(and in some of these States, sexual assault) to take unpaid leave to 
go to court, seek medical treatment, obtain counseling, or take other 
steps to address the effects of such violence.\33\ New York and North 
Carolina provide victims time off to seek civil protective orders but 
do not address the need of victims to take other steps related to the 
violence.\34\
    These State laws can provide workable models for Federal 
legislation providing victims time off from work. The State laws have 
ensured that victims can take necessary steps to address the violence, 
while appropriately protecting business interests by specifying 
appropriate forms of certification that victims can use to demonstrate 
their eligibility for these protections. In most State laws, the leave 
is unpaid, although victims may use available paid leave in its place. 
This likewise helps ensure that the provisions are not abused. 
Survivors who have only unpaid leave need the income to maintain their 
independence and those who have paid leave tend to safeguard it for 
crisis situations.
    Importantly, the protections provided under the Federal Family and 
Medical Leave Act (FMLA) are not adequate to meet many of the needs of 
survivors of domestic or sexual violence. Of course, victims of 
domestic or sexual violence will in certain circumstances be able to 
take time off to address medical conditions under the FMLA. However, 
many of the typical injuries caused by domestic or sexual violence--
such as a badly-swollen eye from a punch in the face or a sprained 
ankle from a push down the stairs--may not qualify as ``serious health 
conditions'' under the FMLA but could nevertheless require that an 
individual miss a day of work. Additionally, many victims work for 
employers who are too small to be required to provide FMLA leave.
    Federal legislation that simply permitted individuals who have 
otherwise available leave to use it for purposes related to domestic or 
sexual violence would also be grossly inadequate. A provision that only 
permits individuals to use existing leave does nothing for the victims 
who are most vulnerable--low-wage workers who lack any paid time off at 
all. It is these workers for whom the loss of employment is most likely 
to result in the unconscionable choice of returning to an abuser or 
becoming homeless. To make a real difference for victims of domestic 
and sexual violence whose jobs are in jeopardy, any contemplated 
Federal legislation must include provisions that guarantee that all 
eligible employees have the time off they need to take essential steps 
to secure their safety, not only those employees who are lucky enough 
to have otherwise available time off.

   VII. UNEMPLOYMENT INSURANCE BENEFITS CAN HELP TRANSITION VICTIMS 
                  WITHOUT RAISING COSTS TO BUSINESSES

    Sometimes employees choose to leave their jobs to protect 
themselves, family members that are being victimized, their coworkers, 
or to take other essential steps to ensure their safety. In most 
States, the general rule is that individuals are ineligible for 
unemployment benefits if they leave work voluntarily without ``good 
cause'' or if they are discharged for ``misconduct'' such as 
absenteeism.\35\ Such provisions can bar victims who left or lost their 
jobs because of the violence from receiving benefits. (In fact, in some 
States, individuals who voluntarily quit a job to relocate with a 
spouse can receive benefits--but those who are forced to flee an 
abusive spouse cannot.) In recent years, however, there has been a 
dramatic growth in State laws explicitly making victims eligible for 
benefits if they left or were fired from their jobs for reasons 
relating to domestic violence.\36\
    In 1996, Maine was the first State to amend its unemployment 
insurance law to acknowledge the effects that domestic violence may 
have on employment.\37\ Now 11 years later, 28 States, and the District 
of Columbia, have amended their unemployment insurance laws to address 
domestic violence.\38\ Most of these laws define ``good cause'' to 
include leaving a job for reasons related to domestic violence. A few 
States have laws excluding situations related to domestic violence 
(e.g., absences or tardiness) from ``misconduct.'' Experience in States 
shows that the number of claims made under existing laws is generally 
very low (typically well under .1 percent of all claims made).\39\ In 
most States, claims are not charged to the employers' accounts, and the 
number of claims, relative to all claims made in the unemployment 
insurance system, is quite small. Thus, allowing victims of domestic 
and sexual violence to receive unemployment benefits generally does not 
affect employer tax rates.
    We urge you to adopt legislation that would make such benefits 
available to victims regardless of where they live. Provisions such as 
those that were included in the last Congress in Title VII of the VAWA 
2005 bill sponsored by Representative Lofgren (H.R. 3171) and Title II 
of the Security and Financial Empowerment Act sponsored by 
Representative Roybal-Allard (H.R. 3185) are good models for Federal 
legislation in this area. They are drafted to ensure that victims who 
must leave a job because of domestic or sexual violence can get 
benefits while permitting States flexibility in how they address the 
issue. A victim who must leave her job to protect herself, her family, 
or her coworkers must be able to maintain financial independence at 
this critical time and to return to the workforce as soon as possible.

                            VIII. CONCLUSION

    In the decade since it was first passed, VAWA has made a world of 
difference for victims of domestic and sexual violence by opening up 
the court system and helping ensure that shelters, counseling, and 
other support services are available. But too many working women and 
men continue to fear--rightly--that accessing such services could cost 
them their jobs, and thus the financial independence they need to 
separate effectively from an abuser. There is a desperate need for 
economic security provisions that would make unemployment insurance 
benefits available to victims who must leave their jobs because of the 
violence. Victims cannot be forced to choose between their economic 
independence and their physical safety--both are essential if they, and 
we as a society, are to move forward in our efforts to end domestic and 
sexual violence.

                            REFERENCES CITED

    1. Apessos v. Memorial Press Gp., No. 15 Mass. L. Rep. 322, 2002 
Mass. Super. LEXIS 404, at *10 (Super. Ct. Mass. Sept. 30, 2002).
    2. Bureau of Labor Statistics, Employee Benefits Survey: Most 
Requested Statistics, Benefits (2004), available at http://
data.bls.gov/cgi-bin/surveymost?eb. (Showing 41 percent of workers in 
private industry in 2004 had no available paid sick leave).
    3. Connie Stanley, Domestic Violence: An Occupational Impact Study 
3 (1992).
    4. U.S. Gen. Acct. Office, Domestic Violence Prevalence and 
Implications for Employment Among Welfare Recipients 19 (Nov. 1998).
    5. S. Rep. No. 138, 103rd Cong., 2d Sess. 54, n. 69 (citing E. 
Ellis, B. Atkeson and K. Calhoun, An Assessment of the Long Term 
Reaction to Rape, 50 J. Abnormal Psychology 264 (1981)).
    6. United States Cong. Senate. 107th Congress, 1st Session. S. 
1249, Victim's Economic Security and Safety Act of 2001, at 8 citing 
Greg Warchol, U.S. Dep't of Justice, Workplace Violence, 1992-96 (July 
1998).
    7. Ellen Ridley, Maine Dep't of Labor & Family Crisis Services, 
Impact of Domestic Offenders on Occupational Safety & Health: A Pilot 
Study (2004).
    8. Id.
    9. Letter from Elizabeth Kristen, Legal Aid Society-Employment Law 
Center to Senators Arlen Specter, Joseph Biden, and Orrin Hatch (June 
21, 2005) (on file with Legal Momentum); Letter from Wendy Pollock, 
Sargent Shriver National Center on Poverty Law to Senators Arlen 
Specter, Joseph Biden, and Orrin Hatch (June 21, 2005) (on file with 
Legal Momentum).
    10. U.S. Cong. Senate. 107th Congress, 1st Session. S. 1249, 
Victim's Economic Security and Safety Act of 2001, at 19 citing Joan 
Zorza, Women Battering: High Costs and the State of the Law, 
Clearinghouse Rev., Vol. 28, No. 4, 383, 385 (1994); National Center 
for Injury Prevention and Control, Costs of Intimate Partner Violence 
Against Women in the United States, Atlanta: Centers for Disease 
Control and Prevention, 2003; ``Intimate Violence Costs Billions,'' ABC 
News, 4/29/2003.
    11. See Bureau Of Nat'l Aff., Special Rep. No. 32, Violence And 
Stress: The Work/Family Connection 2 (1990); Jody Raphael, Taylor 
Inst., Prisoners Of Abuse: Domestic Violence And Welfare Receipt 8-9 
(1996).
    12. Legal Momentum, The Impact Of Violence In The Lives Of Working 
Women: Creating Solutions--Creating Change 5 (2002), available at: 
http://www.legal 
momentum.org/pub/pubs/CreatingSolutions.pdf.
    13. See generally New York State Office for The Prevention of 
Domestic Violence, Domestic Violence--It Is Your Business: Employer 
Handbook & Resource Guide 2 (2001), available at: http://
www.opdv.state.ny.us/workplace/privatepolicy/q&a.html.
    14. See Patrice Tanaka & Company, Inc., Corporate Leaders See 
Domestic Violence As A Major Problem That Affect Their Employees 
According To Benchmark Survey By Liz Claiborne, Inc. (October 2002)
    15. National Institute for School and Workplace Safety (under the 
name of National Safe Workplace Institute), Talking Frankly About 
Domestic Violence, (1995).
    16. Joseph A. Kinney, Nat'l Safe Workplace Inst., Domestic Violence 
Moves into Workplace (1994).
    17. Corporate Alliance to End Partner Violence, National Benchmark 
Telephone Survey, available at: http://www.caepv.org/about/
program_detail.php?refID=5.
    18. Bureau of Labor Statistics, The Survey of Workplace Violence 
Prevention (2006).
    19. Id.
    20. Sue K. Willman, ``The New Law of Training: Training on 
Harassment and Discrimination Is Not a Luxury Anymore,'' H.R. Magazine 
115 (May 2004).
    21. Centers for Disease Control and Prevention, National Institute 
for Occupational Safety and Health, Workplace Violence Prevent 
Strategies and Research Needs: Report from the Conference Partnering in 
Workplace Violence Prevention Nov. 2004, 4-5 (2006). The vast majority 
(85 percent) of workplace homicides result from criminal activity such 
as robberies where the perpetrator has no legitimate relationship with 
the business or its employees. Domestic violence is estimated to cause 
about 5 percent of all workplace homicides. Id.
    22. ``Partnering in Workplace Violence Prevention: Translating 
Research into Practice.'' Conference held Nov. 15-17, 2004 (Baltimore, 
MD).
    23. Thoma v. L.J.'s Bad Penny Bar and Grill, No. CR200600641 (Wisc. 
Dep't of Workforce Development) (filed February 21, 2006).
    24. Imes v. City of Asheville, 606 S.E.2d 117 (N.C. 2004).
    25. Id.
    26. U.S. Gen. Acct. Office, Domestic Violence Prevalence and 
Implications for Employment Among Welfare Recipients 19 (Nov. 1998); S. 
Rep. No. 138, 103rd Cong., 2d Sess. 54, n. 69 (citing E. Ellis, B. 
Atkeson and K. Calhoun, An Assessment of the Long Term Reaction to 
Rape, 50 J. Abnormal Psychology 264 (1981)).
    27. 820 Ill. Comp. Stat. 180/1-180/45; N.Y.C. Admin. Code Sec. 8-
107.1; Westchester City Code Sec. Sec. 700.02, 700.03.
    28. Conn. Gen. Stat. Sec. 54-85b; R.I. Gen. Laws Sec. 12-28-10.
    29. 42 U.S.C. Sec. Sec. 1437d(c)(3); 1437f (c)(9); 1437f 
(d)(1);1437f (o); 1437d(l)(5).
    30. Bureau of Labor Statistics, Employee Benefits Survey: Most 
Requested Statistics, Benefits (2004), available at http://
data.bls.gov/cgi-bin/surveymost?eb. (Showing 41 percent of workers in 
private industry in 2004 had no available paid sick leave).
    31. Institute for Women's Policy Research, Pub. No. C349, The 
Widening Gap: A New Book on the Struggle to Balance Work and Caregiving 
3, Figure 4 (2001) (citing Jody Heymann, The Widening Gap: Why 
America's Working Families Are in Jeopardy and What Can Be Done About 
It (2000)).
    32. Ala. Code Sec. 15-23-81; Alaska Stat. Sec. 12.61-017; Ariz. 
Rev. Stat. Ann. Sec. 13-4439 and Ariz. Rev. Stat. Sec. 8-420 (2004); 
Ark. Code Ann. Sec. 16-90-1105; Colo. Rev. Stat. Sec. 24-4.1-303(8); 
Conn. Gen. Stat. Sec. 54-85b; Del. Code. Ann. Tit. 11 Sec. 9409; Fla. 
Stat. Sec. 92.57; Ga. Code Ann. Sec. 34-1-3; Haw. Rev. Stat. 
Sec. 621.10.5; Ind. Code Sec. 35-44-3-11.1; Iowa Code Sec. 915.23; Md. 
Code. Ann. Crim. Proc. Sec. 11-102; Mass Gen. Laws ch. 258B, 
Sec. Sec. 3(l), 268-14(b); Mich. Comp. Laws Ann. Sec. 780.790; Minn. 
Stat. Ann Sec. 611A.036; Miss. Code. Ann. Sec. 99-43-45; Mo. Rev. Stat. 
Sec. 595.209(1)(14); Mont. Code Ann. Sec. 46-24-205(3); Nev. Rev. Stat. 
Sec. 50.070; N.D. Cent. Code Sec. 27-09.1-17; N.Y. Penal Law 
Sec. 215.14; Ohio Rev. Code Ann. Sec. 2930.18; 18 Pa. Code. Sec. 4957; 
R.I. Gen. Laws Sec. 12-28-10; S.C. Code Ann. Sec. 16-3-1550; Tenn. Code 
Ann. Sec. 4-4-122; Utah Code Sec. 78-11-26; Va. Code Ann. Sec. 18.2-
465.1; Vt. Stat. Ann. tit 13, Sec. 5313; 34 V.I. Code Ann. Sec. 203 
(e); Wis. Stat. Sec. 103.87; Wyo. Stat. Ann. Sec. 1-40-209(a).
    33. Cal. Lab. Code Sec. Sec. 230 & 230.1; Colo. Rev. Stat. Sec. 24-
34-402.7; Haw. Rev. Stat. Sec. 378-72; 820 Ill. Comp. Stat. 180/1-180/
45; Kan. Stat. Ann. Sec. Sec. 44-1131, -1132; Me. Rev. Stat. Ann. tit. 
26, Sec. 850.
    34. N.Y. Penal L. Sec. 215.14; N.C. Gen. Stat. Sec. Sec. 50-B-5.5, 
95-270a.
    35. For a good overview of the history of legislation in this area, 
see Rebecca Smith, Richard W. McHugh, and Robin R. Runge, Unemployment 
Insurance and Domestic Violence: Learning from Our Experiences, 1 
Seattle J. Soc. Just. 503 (2002).
    36. Id.
    37. Me. Rev. Stat. Ann. tit. 26, Sec. 1043(23)(B)(3) (providing 
``misconduct'' may not solely be founded on actions taken by an 
employee that were necessary to protect the employee or an immediate 
family member from domestic violence if the employee made all 
reasonable efforts to preserve the employment).
    38. Ariz. Rev. Stat. Sec. 23-771; Cal. Unemp. Ins. Code 
Sec. Sec. 1030, 1032 & Sec. 1256; Colo. Rev. Stat. Ann. Sec. 8-73-
108(4)(r); Conn. Gen. Stat. Sec. 31-236(a)(2)(A); Del. Code Ann. tit. 
19, Sec. 3314(1); D.C. Code Sec. 51-131; 820 Ill. Comp. Stat. 405/601; 
Ind. Code Sec. 22-4-15-1(1)(C)(8); Kan. Stat. Ann. Sec. 44-706(a)(12); 
Me. Rev. Stat. Ann. tit. 26, Sec. Sec. 1043(23)(B)(3), 1193(A)(4); 
Mass. Gen. Laws. Ann. ch. 151A, Sec. Sec. 1, 14, 25, 30; Minn. Stat. 
Sec. Sec. 268.095(1)(8), 268.095(6)(a)(c); Mont. Code Ann. Sec. 39-51-
2111; Neb. Rev. Stat. Ann. Sec. 48-628(1)(a); N.H. Rev. Stat. Ann. tit. 
23, Sec. 282-A:32(I)(a)(3); N.J. Rev. Stat. Sec. 43:21-5(j); N.M. Stat. 
Ann. Sec. 51-1-7 (A); N.Y. Lab. Law Sec. 593(1)(a); N.C. Gen. Stat. 
Sec. 96-14(1f); Okla. Stat. tit. 40, Sec. Sec. 40-2-405(5), 40-3-
106(G)(8); Or. Rev. Stat. Sec. 657.176(12); R.I. Gen. Laws Sec. 28-44-
17.1; 2005 S.C. Acts 50, to be codified at S.C. Code Ann. Sec. 41-35-
125; S.D. Codified Laws Sec. 61-6- 13.1; Texas Lab. Law. 
Sec. Sec. 207.045, 207.046; 2005 Vt. ALS Sec. 49; Wash. Rev. Code 
Sec. Sec. 50.20.050, 50.20.100, 50.20.240, & 50.29.020; Wis. Stat. 
Sec. 108.04(7)(s); Wyo. Stat. Sec. 27-3-311.
    39. National Employment Law Project, ``Unemployment Benefits for 
Domestic Violence Survivors: What Are Its Costs? '' (March 2005) (on 
file with Legal Momentum).
                                    Legal Momentum,
                                                    April 25, 2007.
Senator Patty Murray, Chair,
Subcommittee on Employment on Workplace Safety,
Washington, DC. 20510.
Senator Johnny Isakson, Ranking Member,
Subcommittee on Employment on Workplace Safety,
Washington, DC. 20510.

Re: Record of ``Too Much, Too Long? Domestic Violence in the 
        Workplace''

    Dear Senators Murray and Isakson: Thank you for your continued 
leadership on the issue of domestic violence in the workplace. Legal 
Momentum was grateful for the opportunity to work closely with your 
staff, particularly Paula Burg in helping to put together this hearing.
    I write to clarify some issues and to submit additional information 
for the record. During the April 17, 2007 subcommittee hearing, witness 
Sue Willman testified that mandatory leave policies are unnecessary and 
suggested that voluntary leave policies are adequate. The statistics do 
not support her assertion but instead point toward inadequate leave 
policies.

    <bullet> 40 percent of working mothers lack both sick and vacation 
leave.
    <bullet> Fewer than half of the nation's private-sector employees 
are covered by FMLA unpaid leave.
    <bullet> Nearly two-thirds of employees who need--but do not take--
family or medical leave say they cannot afford to use it.
    <bullet> Nearly 1 in 10 workers who took advantage of FMLA was 
forced into public assistance while on leave.
    <bullet> For FMLA users with incomes under $20,000, that rate 
doubled to 1 in 5.

    I also wanted to notify you of provisions in SEES (S. 1136) similar 
to Maine's that prohibit insurers from discriminating against victims 
of domestic violence. Under Sec. 2159-B of the Maine Insurance Code, 
neither insurers nor HMOs may restrict coverage or refuse to renew 
coverage for victims of domestic or sexual violence. An insurer may 
deny coverage to the abuser.\1\ In situations where an insurer declines 
new or continued coverage for an individual who is a victim of domestic 
violence, they must show in writing that their denial did not arise 
from the applicant/insured being an actual or perceived victim of 
domestic violence and that it is permissible, under other law, to deny 
people with similar medical conditions or disabilities, regardless if 
the condition or disability is related to domestic or sexual violence.
---------------------------------------------------------------------------
    \1\ See Maine Sec. 2159 (B) (2001).
---------------------------------------------------------------------------
    I am also attaching for the record, copies of letters from the 
Governors of Arizona and Wisconsin. The references to Title VII of the 
Violence Against Women Act reauthorization bill endorse provisions that 
are nearly identical to those contained in SEES.
    Finally, I have appended a copy of our ``State Law Guide: 50-State 
Overview--Employment Protections for Victims of Domestic and Sexual 
Violence'' that describes the employment protections available to 
victims of intimate partner violence. I hope you find these statistics 
helpful in your deliberations. Again, thank you for your dedication to 
eradicating domestic and sexual violence. Please feel free to contact 
me if you need additional assistance or have any further questions.
            Sincerely,
                                         Lisalyn R. Jacobs,
                           Vice President for Government Relations.

    [Editor's Note: Due to the high cost of printing, the ``State Law 
Guide: 50-State Overview: Employment Protections for Victims of 
Domestic and Sexual Violence'' was not reprinted. It can be found at 
www.legalmomentum.org.]
                                 ______
                                 
                                State of Wisconsin,
                                                    August 9, 2005.
Hon. Arlen Specter, Chairman,
Committee on the Judiciary,
U.S. Senate,
Washington, DC. 20510.

Hon. Joseph Biden,
Committee on the Judiciary,
U.S. Senate.

Hon. Orrin Hatch,
Committee on the Judiciary,
U.S. Senate.

Hon. James Sensenbrenner, Chairman,
Committee on the Judiciary,
U.S. House of Representatives.

    Dear Chairman Specter, Senator Biden, Senator Hatch, and Chairman 
Sensenbrenner: I am writing in support of the reauthorization of the 
Violence Against Women Act (VAWA), S. 1197. VAWA has achieved 
tremendous success in bringing crimes such as domestic violence, sexual 
assault and stalking to the forefront of the national consciousness. 
VAWA has also created opportunities that have improved coordination and 
service provision among and between larger systems, such as justice and 
health care, and the grassroots advocacy communities. These 
achievements, among many others, have led to greatly enhanced responses 
to violence against women. As the Governor of the State of Wisconsin, 
former Attorney General for the State of Wisconsin, and former District 
Attorney for Dane County, Wisconsin, I have long been a champion for 
the rights of all crime victims. I believe that S. 1197, the VAWA 
reauthorization bill, is a critical component of each State's response 
to victims of violent crimes.
    While I support VAWA as a whole, I would like to draw attention to 
and urge your support of several key titles of S. 1197. The law 
enforcement and justice-related programs under VAWA have long been the 
cornerstone of a strong response to violence against women crimes. I 
also believe that several additional titles will build upon these well-
developed responses to provide needed support to victims and their 
children as they recover from the trauma of violence and seek to 
establish themselves independent of violence and abuse: Title III: 
Children and Youth; Title IV: Prevention; Title VI: Housing; Title VII: 
Economic Security, Title VIII: Immigrant Issues, and the Sexual Assault 
Services Act.
    As Governor of Wisconsin, I have crafted an agenda to invest in a 
strong and secure future for children in Wisconsin. Entitled KidsFirst, 
the initiative stresses the importance of education, safety, economic 
security and health of children in order to promote the healthiest of 
futures for them. Many of the issues identified and addressed in S. 
1197 are consistent with my KidsFirst agenda, particularly Titles III 
and IV but also the titles addressing economic security and housing 
will greatly contribute to the safety and security of families. It is 
common sense that by increasing the safety and stability of parents, we 
will do the same for children. We can stop the inter-generational cycle 
of violence by crafting interventions that help young people better 
cope with violence and move beyond traumatic experiences into lives 
that are healthy, safe and fulfilling. With S. 1197, we can also 
envision a world in which we can actually prevent violence from 
happening in the first place.
    Making certain that victims of violence and their children are 
economically secure and living in safe, stable housing should also be a 
cornerstone of and intervention or responses to violence. S. 1197 
addresses both economic security issues and housing for victims of 
domestic and sexual violence and stalking. Protection from insurance 
discrimination and access to unemployment compensation should a person 
have to leave employment due to safety concerns related to domestic 
violence are already law in Wisconsin. Victims of domestic violence 
need to gain economic independence from their abusers in order to 
achieve safety and liberty from violence. The provisions offered in S. 
1197 will make it easier for victims to stay employed or to return to 
work should they be required to temporarily take a leave for safety 
reasons.
    Victims of domestic and sexual violence should also be free from 
worries of eviction should their abuser commit crimes in or around 
their housing. Domestic violence is the single largest cause of 
homelessness among women with children in the United States. The lack 
of safe, affordable housing, including transitional housing, greatly 
prohibits victims from establishing economic security and stability for 
themselves and their children. S. 1197 provides for increased funding 
for transitional housing and prohibits discrimination against victims 
merely because they were victimized.
    Some of our State's most vulnerable populations are those who are 
immigrants and/or refugees. The immigration provisions of S. 1197 are 
designed to remove barriers to safety that keep many immigrant victims 
from reporting the abuse or leaving the abusive situation. Abusers of 
immigrant women, either in legitimate relationships or via human 
trafficking, prey on the vulnerability and fear of deportation of their 
victims. The immigrant provisions of VAWA help to strip those abusers 
of their power by providing victims with the opportunity to obtain 
immigration relief without the knowledge or permission of their 
abusers. These provisions are critical if we, as a Nation, are to 
fulfill our promise of liberty and justice for all.
    Finally, I urge you to support the Sexual Assault Services Act. 
There are few funding streams available to meet the needs of sexual 
assault victims. The proposed remedies included in S. 1197 will not 
only provide for increased services to victims via the first ever 
Federal funding directed specifically for sexual assault services, they 
will also support and enhance law enforcement and justice system 
responses to sexual assault through training and technical assistance.
    Support for S. 1197 is critical. On behalf of victims of domestic 
violence, dating violence, sexual assault and stalking, I urge you to 
commit your support to the reauthorization of VAWA so that victims can 
heal from their trauma while our society takes a stand against 
perpetrators of violence. Law enforcement and justice systems' 
responses are just one element of a coordinated response to violence 
against women. Preventing and actually ending violence against women 
will require us to eliminate as many barriers to their safety as 
possible.
    Thank you for your consideration.
            Sincerely,
                                                 Jim Doyle,
                                                          Governor.
                                 ______
                                 
                                  State of Arizona,
                            Office of the Governor,
                                         Phoenix, AZ 85007,
                                                     June 27, 2005.
Hon. Arlen Specter, Chairman,
Committee on the Judiciary,
U.S. Senate,
Washington, DC. 20510.

Hon. Joseph R. Biden,
Committee on the Judiciary,
U.S. Senate.

Hon. Orrin G. Hatch,
Committee on the Judiciary,
U.S. Senate.

    Dear Mr. Chairman, Senator Biden, and Senator Hatch: I am writing 
in support of the reauthorization of the Violence Against Women Act (S. 
1197) and particularly to urge your support for four sections that 
propose critical improvements to existing law: Title VII Economic 
Security, Title III Children and Youth, Title IV Strengthening 
America's Families by Preventing Violence, and Section 202 of Title II 
the Sexual Assault Services Program. As Governor of the State of 
Arizona, former U.S. Attorney for the District of Arizona, and 
Arizona's former Attorney General, I have always been a champion for 
the rights of crime victims of all ages and view S. 1197 as critically 
important because it enhances the states' response to victims of 
violence.
    I strongly support the leave measure, along with the other economic 
security measures in Title VII of VAWA. As Arizona Attorney General, I 
crafted successful crime victim leave legislation to respond to 
hardships faced by crime victims in the workplace. In 2001, Arizona 
became one of the first states in the nation to provide workplace 
protections for crime victims, requiring employers with 50 or more 
employees to allow employees who are crime victims to attend court-
related proceedings. A.R.S. 13	4439. It is vital that employers support 
employees who need time to attend court or undertake safety planning, 
and I applaud your inclusion of these provisions in the bill.
    I also urge you to support measures to improve services to victims 
of sexual assault. As Arizona Attorney General I oversaw the creation 
of statewide Guidelines for a Coordinated Community Response to Sexual 
Assault to improve the investigation of sexual assault crimes, as well 
as how crime victims are treated. The need for a dedicated funding 
stream for sexual assault services is great in Arizona. Not only will 
the Sexual Assault Services Program increase victims' opportunity for 
justice and recovery, it will improve reporting of sexual assault to 
law enforcement, thereby holding offenders accountable and lowering the 
incidence of repeat crimes.
    Finally, I encourage you to support Title III and IV, which titles 
focus on children, youth, and prevention. By addressing the needs of 
younger victims we can halt the cycle of violence at its origin, 
whether it be domestic violence, dating violence, sexual violence, or 
stalking. When we help young people to cope with and prevent violence 
in their lives, we put them on track to be healthy, educated and 
productive adults.
    Your support for S. 1197, particularly for the aforementioned 
provisions, is vitally important. Women, men, children and youth who 
are victims of domestic violence, dating violence, sexual violence and 
stalking must be given support to recover from the crimes perpetrated 
against them. Assisting victims where they are--in the home, workplace, 
schools and other institutions--is one way we can assure their 
opportunity for healing and survival.
    If you have any questions about Arizona's efforts to support crime 
victims, please do not hesitate to contact my advisor for crime victims 
Dan Levey at (602) 364	2235. Thank you for your consideration.
            Yours very truly,
                                          Janet Napolitano,
                                                          Governor.

    Senator Murray. Thank you very much.
    Ms. Fortman.

 STATEMENT OF LAURA A. FORTMAN, COMMISSIONER, STATE OF MAINE, 
              DEPARTMENT OF LABOR, AUGUSTA, MAINE

    Ms. Fortman. Thank you. Good morning, Senator Murray, 
Senator Isakson, members of the committee. My name is Laura 
Fortman. I am the Commissioner of the Maine Department of 
Labor. Prior to being appointed by Governor Baldacci, I was the 
Executive Director of the Maine Lobbying, Women's Policy Center 
for 10 years and in that capacity, I worked with the Maine 
Coalition to End Domestic Violence and the Maine Coalition 
Against Sexual Assault to pass the first in the Nation Victim 
Leave legislation and the reason I'm so happy to be here today 
is to talk to you a little bit about what we have seen on the 
ground in Maine with our experience with the legislation, both 
victim leave legislation and unemployment insurance 
compensation legislation. In my capacity as Commissioner of 
Labor, my agency is responsible for the enforcement of those 
laws.
    It may seem odd to you that a State like Maine, which is 
always one of the safest States in the country, has placed so 
much focus on domestic abuse and sexual assault and in fact, 
our former governor, Angus King, declared domestic violence as 
public enemy No. 1 in his State of the State address in 2000. 
He said that for victims, day to day life is a living hell of 
fear and intimidation, fear of the monstrous violence that 
takes place behind closed doors and is no respecter of 
geography or social position. Our present governor, in 2004, 
passed an Executive order requiring all State agencies to put 
in place policies addressing domestic and sexual violence in 
the workplace.
    You may be surprised by all of the focus we've put on this 
but the reality is that in our State, 50 percent of all 
homicides are related to domestic violence. However it is not 
just the pain that is caused, the suffering to the victims, the 
families, the surviving children that has made an important 
issue for us. It's also a workplace issue and that's where I'd 
like to spend a little bit of time.
    We are a State made up of small businesses. Only 8 percent 
of our employers employ over 25 or more employees. So we are 
very much a small business State. And as we were looking at 
this issue of domestic violence, much work has been done 
focused on the victims of sexual assault but we also wanted to 
look at the impact that perpetrators had in the workplace. Most 
of the perpetrators are employed and as many other people have 
already stated, this is an issue that comes into the workplace.
    One of the things that we saw was that 78 percent of those 
perpetrators were using employer resources such as a company 
car to follow or harass their partners. Eighty-five percent 
were contacting their partner at the workplace, 75 percent of 
them were using a company phone. Forty-eight percent reported 
difficulty concentrating on their jobs due to thinking about 
how to continue the perpetration. Nineteen percent of the 
offenders had a workplace accident or near miss and from our 
small sample of 124 perpetrators who were involved in a 
batterer's intervention program. From that small sample--they 
were all volunteers--we found that 15,221 hours of work time 
were lost to employers due to the arrests of 70 of those men in 
the study, equaling $200,000.
    I'll skip over to talk a little bit about the legislation. 
We do not have all of the pieces of legislation that are 
proposed in your bill, Senator. However, we do have the 
employment leave, which allows for victims of domestic 
violence, sexual assault and stalking to take unpaid leave to 
attend court, receive medical treatment or any other services 
that are necessary to recover from the crime. This legislation 
is not limited based on business size and we have had very few 
complaints from employers about enforcing this. In fact, the 
Maine State Chamber of Commerce, who initially opposed this 
victim leave legislation, 2 years later, after the legislation 
had been in place for 2 years, there was an expansion to cover 
other family members, for example, if a child of yours had been 
a victim of sexual assault, this leave would also apply to 
that. At that time, Peter Core from the Maine Chamber, said 
despite our original reservations, the bill became law and has 
been in place for the last 2 years. During this time, this 
organization has heard no complaints or concerns with its 
implementation. While we hope that someday we will be in the 
position that individuals and families do not need to access 
leave for these very troublesome situations, we recognize that 
should they need to do so, such leave is appropriate and 
relatively unburdensome to the workplace. And I have attached 
additional information from several other employers in my 
testimony.
    Overall, there is strong support among the business 
community in our State and they have not experienced a negative 
impact. Thank you.
    [The prepared statement of Ms. Fortman follows:]

                 Prepared Statement of Laura A. Fortman

    Good morning, Senator Murray and members of the committee. My name 
is Laura Fortman and I am the Commissioner of the Maine Department of 
Labor. Prior to being appointed by Governor Baldacci, I was the 
Executive Director of Maine Women's Lobby a statewide nonprofit, 
nonpartisan membership organization advocating for women and girls. 
During my tenure I, along with Maine's Coalitions against domestic and 
sexual violence and the leadership of Representative Mike Saxl, worked 
to pass the country's first victim leave law. In my current position, 
my agency is responsible for the enforcement of that law.
    Therefore, I am especially grateful to you for inviting me to share 
the experience we have had in Maine in addressing domestic violence. As 
you know, domestic violence is a multifaceted problem that requires 
multi-pronged strategies to be addressed. Some of the strategies that I 
will discuss today include research, employer initiatives as well as 
State policy and law.
    First a quick snapshot of Maine. We are a small State with 1.3 
million people spread over roughly 35,000 square miles. Our largest 
city is Portland with a population of 64,000 people. Maine is 
consistently rated as one of the safest places to live in the country.
    Yet, Maine also has a serious problem with domestic violence.
    Former Governor Angus King focused on the issue in his 2000 State 
of the State address. In his remarks he named domestic violence as 
Maine's Public Enemy Number One. I stated that for victims ``day-to-day 
life is a living hell of fear and intimidation, fear of the monstrous 
violence that takes place behind closed doors and is no respecter of 
geography or social position.''
    Our present Governor, John Baldacci, has continued the State's 
commitment to take every step to prevent domestic violence and to 
provide support for victim survivors. Governor Baldacci issued an 
Executive order requiring all State agencies to develop a policy to 
address domestic violence. (See Attachment I)
    You may be puzzled by the level of attention domestic abuse has 
received in Maine. I am sorry to say that it is not just because we are 
a caring, compassionate State. Unfortunately, our concern is prompted 
by the harsh reality that domestic abuse homicides account for over 
half of all homicides in Maine. This statistic has been true for the 
past 15 years. The victims are overwhelmingly adult women. However, 23 
percent of victims are children. Of course, this homicide data does not 
account for the trauma experienced by the surviving children who are 
left to cope with this pain for the rest of their lives.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As in other States, Maine has a wonderful network of domestic abuse 
projects. In 2006 over 13,000 people received services from the Maine 
Coalition to End Domestic Violence. Nearly 97 percent of the people 
served were women and children.
    However, it is not only because of the tragic loss of life and 
emotional distress experienced by families that domestic abuse is an 
important public policy issue. It is also important to grapple with 
domestic abuse because of the impact it has on the workplace.
    Many Americans are developing their strongest friendships and 
support systems at the workplace. For these workers, their place of 
employment has become, ``the new American neighborhood.''
    Numerous studies have shown that although domestic abuse may occur 
behind closed doors--it does not stay there. When either the victim or 
the perpetrator walks out their front door domestic abuse follows them 
into their neighborhood--the workplace. And it impacts the employer and 
other employees. This impact is felt even though domestic abuse is 
often invisible. It is hidden for a number of reasons, including shame 
on the part of the victim, and fear that disclosure will result in her 
being fired.
    You may believe that it is sufficient to have a supportive 
employer. Unfortunately, even when an employer is supportive a victim 
may still not feel supported.
    This ``victim perspective'' became painfully clear to me in my own 
workplace. One of my employees came to the office very upset. She had 
ended an abusive relationship with her husband. She was worried that 
her abuser was going to follow her to work and was terrified because he 
had access to a weapon. A co-worker brought the situation to the 
attention of a supervisor. The woman's supervisor invited her in to his 
office. His intent was to express his personal support for her, do 
safety planning and provide contact information for the local domestic 
violence project. The woman burst into tears--she thought her 
supervisor was planning to fire her.
    This situation had a ``happy'' ending. The woman was kept safe and 
is still with the Maine Department of Labor today. Also, staff has 
received additional training in both domestic violence and workplace 
violence and we now have a workplace violence policy.
    We believe that employers with policies that support victims and 
encourage disclosure of domestic violence have safer worksites as a 
result of those practices. The guiding principle of all (OSHSA) 
workplace safety training programs is to recognize hazards in the 
workplace and develop strategies for prevention. It is impossible to 
effectively respond to unknown dangers, and we know that domestic 
violence is an under-reported problem in workplaces. Workplaces that 
don't actively support and engage employees in disclosing incidences of 
domestic violence are suppressing reporting of potential workplace 
hazards and are missing important opportunities to prevent the real 
hazard of domestic violence spill over in the workplace.

                                RESEARCH

    Two recent studies by the Maine Department of Labor and the Maine 
Coalition to End Domestic Violence shed more light on the impact of 
domestic violence in the workplace of both the victim and the 
perpetrator. The first study interviewed offenders and the second study 
focused on victim/survivors.
    The offender study was one of the first in the Nation where 
workplace impact of domestic abuse was examined through the lens of the 
offender's behavior. (See Attachment II)
    The offender study included 124 domestic abuse offenders attending 
a court mandated Batterer Intervention Program. All of the participants 
were volunteers. One of the most revealing findings of this study was 
the impact that offender's actions had on their employers. Behaviors 
that negatively impacted employers included workplace accidents, lost 
work time, and inappropriate use of business resources.
    Some findings from the report are:

    <bullet> 78 percent were using workplace resources including 
company car to check up, harass, and threaten their partner;
    <bullet> 85 percent contacted their victim from the workplace. 75 
percent used the company phone;
    <bullet> 48 percent reported difficulty concentrating due to 
thinking about how to continue their perpetration;
    <bullet> 19 percent of offenders had a workplace accident or near 
miss; and
    <bullet> 15,221 hours of work time were lost to Maine employers due 
to arrests of 70 men in the study, equaling over $200,000.

                             SURVIVOR STUDY

    The survivor study also demonstrated the significant impact of 
domestic violence in the workplace. Participants in the study were a 
self selected group of 120 women who were recruited through outreach to 
employers, press releases, posters, visits to shelters, etc. They were 
employed by a diverse group of employers and industries in Maine. (See 
Attachment III)
    Highlights from the report include:

    <bullet> 60 percent of domestic violence victims/survivors lost 
their job (43 percent fired, 57 percent quit);
    <bullet> 13 percent reported the abuser assaulted them at work;
    <bullet> 83 percent were harassed at work by the abuser who 
repeatedly called their workplace;
    <bullet> 78 percent reported being late to work as a result of the 
abuse;
    <bullet> 47 percent were assaulted before going to work;
    <bullet> 46 percent reported abuser stalked them at workplace; and
    <bullet> 23 percent of abusers violated a court order by contacting 
the victim at work.

                          MAINE'S ACTION PLAN

    Based on the data that we have collected and our experience, Maine 
has focused efforts in the following areas:

    1. Employer Initiative--Developing safety plans at work and an 
environment that encourages victim/survivors ask for help.
    2. Providing a safety net, unemployment insurance, for victims who 
need to leave their jobs.
    3. Providing leave to victim/survivors to receive treatment, attend 
court or access other necessary services.

                          MAINE'S LEGISLATION

    Maine has some important laws in place to provide employment 
protections to victims of domestic violence, and a safety net for those 
who lose their jobs because of abuse.

                EMPLOYMENT LEAVE FOR VICTIMS OF VIOLENCE

26 MRSA Sec. 850
    Requires employers to grant reasonable and necessary leave from 
work if an employee or employee's daughter, son, parent, or spouse is a 
victim of domestic abuse, sexual assault, or stalking.
           unemployment compensation disqualification clause
26 MRSA Sec. 1193(1)(A)(4)
    States that an individual who voluntary leaves work may not be 
disqualified from receiving benefits if the leaving was necessary to 
protect the claimant from domestic abuse and the claimant made all 
reasonable efforts to preserve the employment.
              unemployment compensation misconduct clause
26 MRSA Sec. 1043(23)(B)(3)
    States that misconduct may not be found solely on actions taken by 
the employee that were necessary to protect the claimant or an 
immediate family member from domestic violence if the employee made all 
reasonable attempts to preserve the employment.
    Unemployment claims resulting from domestic violence are charged to 
the general unemployment fund, not to the individual business in which 
the worker was employed.

                         MAINE BUSINESS SUPPORT

    Employers in Maine have been supportive of these measures. One of 
our large employers, Wright Express, asked me to share the following 
comments with you:

          Wright Express Corporation employs over 700 employees with 
        more than 600 employees located in Maine. We have supported 
        Maine legislation to protect the victims of domestic violence 
        and have taken steps to collaborate with local family crisis 
        agencies and law enforcement officials to protect our employees 
        in the workplace who are victims of domestic violence. We 
        understand the devastating impacts of domestic violence and the 
        importance for victims to feel that their workplace can provide 
        safety and support at a time when their lives outside of work 
        may be turned upside down. We have flexible paid time off 
        benefits and employee assistance programs that can be helpful 
        to employees who are dealing with this issue. We support 
        Maine's Victims Leave law that provides for reasonable leave 
        needed to address issues of family domestic violence. We feel 
        this makes good business sense since it helps keep employees 
        productive during times of personal crisis and it is the right 
        thing to do.--Robert Cornett, Senior Vice President, Human 
        Resources, Wright Express Corporation.

    Human Resource professionals are also supportive. I recently spoke 
before a group of 40 HR professionals at a breakfast meeting of the 
Kennebec Valley Human Resources Association. I had been asked to attend 
and update the group on pending legislation in front of the Maine 
legislature. Since Senator Murray had just invited me to testify, I 
used my time with the Kennebec Valley HR group to ask them how our 
current victim leave law and unemployment insurance program was working 
from their perspective. In general, they were not experiencing problems 
administering the leave. However, they felt that there were several 
things we could do to strengthen the programs. They told me that there 
was a lack of awareness of both the leave and the possibility of 
unemployment insurance. In the course of our conversation,

    <bullet> They strongly recommended an awareness campaign either 
about the availability of the Maine Department of Labor voluntary 
domestic violence poster or that the poster becomes a mandatory poster.
    <bullet> They also recommended that every workplace develop a 
workplace violence policy and that all supervisors receive training.
    <bullet> Finally, many raised a concern about a victim's ability to 
take unpaid leave.

    Maine's State Chamber of Commerce has been helpful as well. I have 
attached a copy of the testimony of Peter Gore, Senior Governmental 
Affairs Specialist, from the Maine State Chamber of Commerce. This 
testimony was given in 2002 in support of expanding the 1999 Victim 
Leave Law to cover family members. I will read a short excerpt from Mr. 
Gore's testimony. (See Attachment IV)

          ``Despite our original reservations the bill became law and 
        has been in place for the last 2 years. During this time this 
        organization has heard no complaints or concerns with its 
        implementation. . . . While we hope that someday we will be in 
        the position that individuals and families do not need to 
        access leave for these very troublesome situations, we 
        recognize that should they need to do so, such leave is 
        appropriate and relatively unburdensome to the workplace.''

    Other Employer Initiatives:

    Maine Employers Against Domestic Violence is an effort to educate 
employers about domestic violence in the workplace. The effort is 
spearheaded by the Maine Coalition Against Domestic Violence and Maine 
State Government. This initiative encourages major employers to take a 
leadership role on the issue. It also encourages all employers to 
develop a plan for their workplace that establishes internal policies, 
security, safety protocols and employee outreach. CEOs of businesses 
that join the Leadership Team commit to establish internal policies for 
their own workplace, sponsor an informational event for businesses, 
such as a Chamber ``Eggs `N Issues'' breakfast, and encourage other 
employers to attend educational sessions that are held in the State 
about the problem. Major Maine businesses have joined the leadership 
team, including our major shipbuilder, Bath Iron Works, our largest 
utility, Central Maine Power, and our largest health insurer, Anthem 
Blue Cross Blue Shield. (See Attachment V)
    State Government, which employs thousands of workers, is also 
working to make our own workplaces safe. As I mentioned earlier in my 
testimony, in October 2004, Governor Baldacci issued an Executive order 
requiring each State agency to partner with the Maine Coalition to End 
Domestic Violence to develop workplace policies for their agency. 
Workplace plans must be detailed, including training for staff on 
assisting co-workers who are victims of domestic abuse, training for 
supervisors on being supportive and understanding even if the situation 
is affecting the victim's work performance, providing referrals to 
local domestic violence projects and employee assistance programs, 
developing workplace safety plans, offering necessary leave, taking 
corrective action regarding State employees who perpetrate domestic 
violence, including disciplinary action if perpetrating domestic abuse 
while they are working, as well as referring abusers to batterer 
intervention programs or employee assistance programs.
    So far, 9,000 State employees have been trained. Workplace policies 
have been created across State Government. In addition to making Maine 
government workplaces safer, an unplanned side effect was the creation 
of an optional domestic abuse poster by the Maine Department of Labor. 
This poster is available on-line and may be downloaded by any employer. 
Online training has been developed and made available and, in general, 
awareness of the issues surrounding domestic violence in the workplace 
has been increased.
    Yet, more must be done. We know that employees who are victims of 
domestic violence still feel unsafe, stigmatized and afraid to come 
forward to ask for help in their workplace. We think that Maine's 
efforts would be more effective if there was a coordinated national 
response to domestic violence.
    Your committee has an opportunity to raise awareness of the impact 
of domestic violence in the workplace and to firmly stand with victims 
and survivors who need your help. I hope that you can move forward to 
develop consistent national policies that create workplaces safe from 
domestic violence and that help businesses develop internal policies, 
including appropriate safety plans, that keep violence out of the 
workplace. Business policies must both protect the employee who is a 
victim and adopt a ``zero tolerance'' policy with respect to employees 
who are perpetrators. We would also welcome a consistent, national 
victim leave policy and encouragement for States to provide a safety 
net through their unemployment compensation systems.
    I have attached copies of all of the key documents that I 
referenced in my comments to my testimony and want to thank you for 
your attention to this critical issue.

                              ATTACHMENT I
                                                    October 7, 2004
   An Order Regarding the Establishment Of Domestic Violence In the 
     Workplace Policies Within the Departments Of State Government
    WHEREAS, domestic violence is a serious public policy concern of 
the State of Maine requiring its participation in the coordinated 
community response to support victims and hold abusers accountable; and
    WHEREAS, employees and citizens of the State of Maine have a right 
to be safe from harm; and
    WHEREAS, the Maine Legislature has recognized an employer's 
obligation to provide special assistance to victims of domestic 
violence, sexual assault, and stalking; and
    WHEREAS, domestic violence is a pattern of coercive behavior that 
is used by a person against a current or former partner, or other 
family or household member, to establish and maintain power or control 
in the relationship; and
    WHEREAS, for more than a decade fifty percent of the homicides in 
Maine involved domestic violence; and
    WHEREAS, domestic violence is a widespread community problem 
affecting thousands of Maine families that extends beyond the family 
and into all areas of society including the workplace; and
    WHEREAS, abusers will often target victims at their workplaces, 
endangering the safety and affecting the productivity of victims and 
co-workers; and
    WHEREAS, the State of Maine, as an employer, is additionally 
affected by domestic violence in the loss of productivity, and 
increased health care costs, absenteeism, and employee turnover; and
    WHEREAS, the State of Maine, as an employer, should provide support 
and assistance to employees who are victims of domestic violence and 
should hold abusers accountable; and
    WHEREAS, the State of Maine has a responsibility to model a 
proactive response to domestic violence for other employers in the 
State; and
    WHEREAS, agencies of the State of Maine have partnered with the 
Maine Coalition to End Domestic Violence and the Maine Coalition 
Against Sexual Assault to develop and promote workplace policies and 
training for State employees; and
    WHEREAS, the Maine Commission on Domestic and Sexual Abuse has 
urged all employers in the State of Maine to develop and implement 
workplace policies on domestic violence; and
    WHEREAS, the State of Maine recognizes that employers can be 
powerful allies to victims by creating a workplace that offers support, 
information, and resources;
    NOW, THEREFORE, I, John E. Baldacci, Governor of the State of 
Maine, by the authority vested in me, do hereby order that:
    1. For the purpose of this executive order, the following terms 
shall have the following meanings:
    Domestic violence: A pattern of coercive behavior that is used by a 
person against family or household members to establish and maintain 
power or control over the other party in the relationship. This 
behavior may include physical violence, sexual abuse, emotional and 
psychological intimidation, verbal abuse and threats, stalking, 
isolation from friends and family, economic control and destruction of 
personal property. Domestic violence occurs between people of all 
racial, economic, educational, and religious backgrounds. It occurs in 
heterosexual and same sex relationships, between married and unmarried 
partners, between current and former partners, and between other family 
and household members.
    Sexual assault: An act of sexual violence whereby a party forces, 
coerces, or manipulates another to participate in unwanted sexual 
activity. This behavior may include stranger rape, date and 
acquaintance rape, marital or partner rape, incest, child sexual abuse, 
sexual contact, sexual harassment, ritual abuse, exposure and 
voyeurism.
    Stalking: Any conduct as defined in 17-A M.R.S.A. Sec. 210-A. 
Abuser: An individual who commits an act of domestic violence. Victim: 
An individual subjected to an act of domestic violence.
    Workplace: An employee is considered to be in the workplace when 
the employee is on duty, is traveling on behalf of the State, is in 
State-owned or leased workspace, is using the facilities or services of 
the State, is wearing a uniform, or is using a vehicle that is owned or 
leased by the State or its agencies.
    2. Each State agency convenes a diverse team of employees who will, 
within the next year, develop a workplace domestic violence policy. The 
team shall partner with the Maine Coalition to End Domestic Violence to 
provide initial domestic violence training for the team and additional 
guidance in the development of the policy.
    3. Each State agency's domestic violence workplace policy:
    a) Incorporates the above definitions of domestic violence, sexual 
assault, stalking, abuser, victim, and workplace; b) Clearly directs 
that the agency will not tolerate acts of domestic violence, sexual 
assault, or stalking in the workplace, including harassment or violent 
or threatening behavior that may result in physical or emotional injury 
to any state employee while in state offices, facilities, work sites, 
vehicles, or while conducting state business; c) Instructs employees on 
how to offer assistance to co-workers who are domestic violence victims 
in an expedient and confidential manner; d) Recognizes that victims of 
domestic violence may have performance or conduct problems related to 
their victimization and offers support and an opportunity to correct 
the problems; e) Provides for assistance to victims to include at a 
minimum: referrals to local domestic violence projects and the State's 
Employee Assistance Program, and development of workplace safety plans 
that seek to minimize the risks to the victims and other employees; f) 
Recognizes the employer's obligation to grant reasonable and necessary 
leave pursuant to 26 M.R.S.A. Sec. 850; g) Provides assistance to 
abusers to include at a minimum: referrals to the State's Employee 
Assistance Program, and information about local state certified 
batterer intervention programs; h) Provides that corrective or 
disciplinary action may be taken against state employees who: misuse 
state resources to perpetrate domestic violence, sexual assault, or 
stalking; harass, threaten, or commit an act of domestic violence, 
sexual assault, or stalking in the workplace or while conducting state 
business; or are arrested, convicted, or issued a civil order as a 
result of domestic violence when such action has a nexus to their 
employment with the State; i) Requires that all agency employees with 
supervisory responsibility and any other designated individuals who 
will respond to victims and abusers receive specialized training on 
best practices for identifying and responding to domestic violence; j) 
Includes a separate procedure which requires referral to the sexual 
assault crisis and support centers for employees who have experienced 
sexual assault or stalking; k) Directs that, to the extent that sexual 
abuse or stalking is perpetrated as part of domestic violence, 
employers should be prepared to respond to it utilizing the domestic 
violence policy; and l) Requires that the policy be distributed to all 
current employees and to every new hire.
    4. To the extent that an agency employs individuals who are 
authorized to carry firearms as part of their job duties, the policy 
shall include provisions addressing firearms.
    5. Each State agency implements the workplace policy via employee 
training on the policy delivered in partnership with the Maine 
Coalition to End Domestic Violence. The training shall include, at a 
minimum, information as to: the dynamics and effects of domestic 
violence; available resources for victims and perpetrators; and how an 
employee can assist a co-worker who is experiencing or perpetrating 
domestic violence. The Bureau of Human Resources will provide training 
support and coordinate with the Maine Coalition to End Domestic 
Violence to make sample policies available for all agencies.
    6. Each State agency provides for the conspicuous posting of 
information about domestic violence and sexual assault and available 
community resources.
    7. Each State agency incorporates reference to the State of Maine 
Equal Employment Opportunity/Affirmative Action Policy, the State of 
Maine Harassment Policy and the State of Maine E-Mail Usage and 
Management Policy in its domestic violence in the workplace policy. 
Each State agency is also directed to review existing personnel 
policies and procedures to ensure they do not discriminate against 
victims of domestic violence and are responsive to the needs of victims 
of domestic violence.
    The cost to State agencies for implementing the tasks included in 
this Executive Order will be used from existing resources.
    The provisions of this executive order are not intended to alter 
any existing collective bargaining agreements or to supersede 
applicable Federal or State law.

Effective Date

    The effective date of this Executive Order is October 7, 2004.

                             ATTACHMENT II

 Impact of Domestic Violence Offenders on Workplace Safety & Health: A 
                              Pilot Study
    Executive summary. In spring of 2003, the Maine Department of Labor 
and Family Crisis Services conducted an occupational safety and health 
research project with four certified Batterer Intervention Projects 
(BIPs) in Maine. The study was part of the Maine Occupational Research 
Agenda (MORA) focusing on the safety and health of priority 
populations. The subjects of the study were 152 male domestic abuse 
offenders attending classes at the BIPs. The purpose of the study was 
to measure how domestic abuse offenders affect workplace safety and 
health, productivity, and lost work time. In addition, the study 
investigated inappropriate use of company resources to harass the 
intimate partner, as well as how the intimate partner was affected at 
her place of employment. Finally, the study measured current supervisor 
responses to knowledge of offenders' arrest and protection from abuse 
orders, and also queried the study participants on their opinions 
regarding effective workplace interventions.
    Among the significant findings reported by offenders:

    <bullet> 78 percent of offenders used workplace resources at least 
once to express remorse or anger, check up on, pressure, or threaten 
the victim.
    <bullet> 73 percent of supervisors were aware of the domestic abuse 
offender's arrest, but only 15 percent reminded the employee that 
domestic abuse is a crime.
    <bullet> 74 percent had easy access to their intimate partner's 
workplace, with 21 percent of offenders reporting that they contacted 
her at the workplace in violation of a no contact order.
    <bullet> 70 percent of domestic abuse offenders lost 15,221 hours 
of work time due to their domestic abuse arrests. At Maine's average 
hourly wage, this equals approximately $200,000.
    68 percent of offenders said that domestic abuse posters and 
brochures in the workplace would help prevent domestic abuse from 
impacting the business.
    48 percent of offenders had difficulty concentrating at work, with 
19 percent of offenders reporting a workplace accident or near miss 
from inattentiveness clue to pre-occupation with their relationship.
    42 percent of offenders were late to work.

    The Maine study is a pilot study with a self-selected population. 
If the same survey design were used and we were assured that the sample 
represents the population (i.e. subjects were chosen randomly and/or we 
had demographic data to compare/adjust the sample to the population), 
then the margin of error for the questions we asked would range from 
3.62 percent to 6.12 percent.
    While this data cannot be extrapolated to the general population of 
domestic abuse offenders, it identifies the broad impact the men in 
this sample had on Maine businesses. More research is needed to further 
understand how employers can effectively and accountably respond to 
abusers in the workplace and to create safer working conditions for 
employed victims and survivors.
                             ATTACHMENT III
Domestic Violence Survivors at Work: How Perpetrators Impact Employment

Executive Summary

    During the summer and early fall of 2004, The Maine Department of 
Labor and Family Crisis Services conducted a joint research study on 
domestic violence and the occupational impact to victims/survivors. 
Subjects of the study were 120 women who met the following criteria: 
experienced domestic abuse within the last three years, were employed 
in Maine (not self-employed), and were affected at work by the abuse.
    The purpose of the study was to identify ways in which perpetrators 
of domestic abuse impact victims/survivors at their employment; 
determine the frequency and methods abusers used to contact the victim/
survivor at the workplace; identify and quantify performance and 
productivity issues, lost work time, absenteeism, workplace delays, and 
workplace accidents as a result of these events; measure employer 
responses, including frequency of policies as a prevention tool; and 
examine survivors' views on how employers can create safer workplaces.
    Survivors were invited to participate through a press release, Web 
site postings, and participation in local domestic violence projects. 
Information was collected in a survey format during one-on-one, thirty-
minute interviews in person or over the telephone. The following 
findings represent the data from interviews with 120 domestic violence 
survivors:

    <bullet> 98 percent reported that domestic abuse caused them to 
have difficulty concentrating on work tasks.
    <bullet> 96 percent reported that domestic abuse affected their 
ability to perform their job duties.
    <bullet> 94 percent were unaware of statutes that provide 
unemployment compensation to victims of domestic abuse, and 93 percent 
were unaware of Maine law that requires employers to provide time off 
to victims of domestic violence, sexual assault, and stalking.
    <bullet> 87 percent reported the abuser made harassing phone calls 
at work, with some survivors receiving between 50-100 phone calls per 
week.
    <bullet> 83 percent reported the employer became aware of domestic 
abuse in employee's life.
    <bullet> 78 percent reported the abuser showed up at the workplace; 
13 percent reported being assaulted at work.
    <bullet> 78 percent reported being late to work as a result of 
domestic abuse.
    <bullet> 77 percent reported they were prevented from getting to 
work on time because the abuser kept them up late or all night; 47 
percent reported being assaulted before work.
    <bullet> 60 percent reported losing their job due to domestic abuse 
(fired or quit).
    <bullet> 56 percent reported the workplace contact changed 
(increased in frequency or became more threatening) when the victim/
survivor attempted to leave.
    <bullet> 45 percent reported they were concerned they would get 
fired if they discussed domestic abuse situation with employer.
    <bullet> 23 percent reported the abuser violated a protection from 
abuse order or other condition by contacting the victim/survivor at 
work.
    <bullet> 5 percent reported their employer had a domestic violence 
policy in place.

                             ATTACHMENT IV
                   Maine State Chamber of Commerce,
                                 Augusta, Maine 04330-9412,
                                                  January 10, 2002.
Senator Beth Edmonds, Senate Chair,
Augusta, Maine 04333	001.

Representative George Bunker, House Chair,
Joint Standing Committee on Labor,
Augusta, Maine 04333	0115.

    Senator Edmonds, Representative Bunker and Members of the Joint 
Standing Committee on Labor: I apologize for not being present to 
deliver this testimony personally, however, business has me out of town 
for the next few days. On behalf of the Maine State Chamber of 
Commerce, we would like to voice our support for LA 1960, An act to 
Promote Safety of Families through the Workplace, sponsored by Speaker 
Saxl.
    As members of this committee may remember that this legislation 
first appeared before the 119th Legislature in the form of LD 944, and 
extended unpaid leave from the workplace for employees in the event 
they are a victim of violence, assault, sex assaults, stalking or any 
other act that would support an order of protection.
    At that time the Maine State Chamber expressed concerns about the 
bill even though it was greatly altered from its original form and 
falls under the auspices and rulemaking authority of the Department of 
Labor.
    Despite our original reservations the bill became law and has been 
in place for the last 2 years. During this time this organization has 
heard no complaints or concerns with its implementation. It appears 
that the bill supporters were correct regarding its application and its 
impact on the workplace.
    It is for this reason we believe it is appropriate to extend the 
same leave opportunities for parents of children who are unfortunate 
enough to be victims of violence.
    We believe this bill, like the current law, is appropriate given 
the difficult times we now live in. While we hope that someday we will 
be in the position that individuals and families do not need to access 
leave for these very troublesome situations, we recognize that should 
they need to do so, such leave is appropriate and relatively 
unburdensome to the workplace. It is for these reasons we would again 
reiterate our support for LD 1960. I will do my best to be present at 
the work session on this bill and appreciate the opportunity to provide 
you with our comments. Thank you very much.

                                             Peter M. Gore,
                            Senior Governmental Affairs Specialist.

                              ATTACHMENT V
  Domestic Violence and the Workplace: The State of Maine Initiative 

                             September 2006

                              INTRODUCTION

    The Maine Coalition to End Domestic Violence and its member 
projects seek to end domestic violence by creating a culture in which 
abuse and violence have no place. All community sectors have a role in 
providing support to people who experience abuse and creating a 
structure of accountability for people who choose to abuse and use 
power over other people in their lives. Maine State Government has 
taken a dramatic step forward in moving us all toward such a culture.

                            PROJECT SUMMARY

    In October of 2004, the Maine Department of Public Safety hosted 
two day-long conferences in Maine that focused on domestic violence and 
the workplace. Hundreds of Maine employers attended and received 
information about the impact of domestic violence on the workplace and 
the power of developing a comprehensive workplace response. At the 
start of the session held in Portland on October 7th, Governor John 
Baldacci signed an Executive Order that required all State agencies to 
develop and implement a domestic violence and the workplace policy, 
through collaborative consultation and training with the Maine 
Coalition to End Domestic Violence, also known as MCEDV. (See Appendix 
A.)
    In the following many months, MCEDV partnered with the many 
agencies in Maine State Government and collaborated with them through 
the process of developing policies and training employees on the 
components of the policies. (See Appendix B.) At the time of this 
report, nearly all the agencies had a final policy in place and had 
trained supervisors, voluntary responders, and general employees.
    The State of Maine employs approximately 14,000 individuals. To 
date, MCEDV estimates that 2,800 supervisors and 5,875 general 
employees have received live training about domestic violence and their 
specific agencies' policies through this initiative. In addition, The 
Maine Department of Public Safety and Maine Department of Corrections 
employees received required training through an on-line, e-learning 
training tool developed by DPS in collaboration with the Maine 
Coalition to End Domestic Violence (available at 
www.myworkplacehelp.org).

                       POLICY DEVELOPMENT PROCESS

    The process that each agency underwent to comply with the Executive 
Order involved five steps: 1) Create an internal policy development 
team made up of diverse members of the agency; 2) train that team in 
collaboration with MCEDV; 3) draft a policy; 4) train all supervisory 
employees and others who volunteered to be specially-trained 
``responders'' about the draft policy and protocol for response to 
employees; and 5) implement the final policy via training of all 
general employees.
    During the policy development stage of the process, State agencies 
did a stellar job of developing new best practices with care and 
creativity. New best practices generated through policy development 
included response to employees who are abusers, confidentiality, 
protocol for abusers carrying state-issued firearms, and several 
others.

                     TRAINING CURRICULA COMPONENTS

    Through its member domestic violence projects, the Maine Coalition 
to End Domestic Violence provided all trainings for State supervisors, 
responders, and general employees. The goal of the training was to 
prepare State employees to recognize abuse, to reach out to co-workers 
experiencing abuse, and to refer them to help sources. The training 
emphasized the particular role that employers and co-workers play in 
being a bridge to community services.
    The curricula initially provided information about why domestic 
violence is a workplace issue and relied heavily on the findings of two 
recent research studies completed by Family Crisis Services in 
collaboration with the Maine Department of Labor. These studies 
involved interviews with domestic violence offenders and survivors, and 
revealed how specifically and pervasively abusive behavior undermines a 
safe and productive workplace. Visit http://www.maine.gov/labor/bls/ 
and click on Safety research to download the reports from these two 
studies.
    The trainings then focused on the dynamics and effects of domestic 
violence, to give employees an understanding of the impact of abuse on 
an employee. This section included discussion about the challenges 
people face in creating lives free from abuse. Every employee was also 
given information about community domestic violence and sexual assault 
services available to assist employees, concerned co-workers, or 
supervisors.
    Finally, the trainings outlined the components of the policies, 
relative to appropriate responses to people affected by abuse and 
perpetrators. This included supervisory responsibility, as well as 
peer-to-peer or co-worker response. The policies and trainings also 
addressed the important issues of confidentiality, the process of 
workplace safety planning, and collaborating with community resources 
such as the local domestic violence projects.

                        IMPACT OF THE INITIATIVE

    It is clear from the initiative that domestic violence has affected 
many current and former State employees. In a review of 1000 
evaluations gathered from the State training effort, 10 percent of 
employees revealed that they were survivors of domestic abuse when 
asked in Question Two to ``describe previous knowledge or experience of 
domestic violence, if any.'' An additional 3.8 percent of respondents 
indicated they had family members who were currently or had previously 
been impacted by intimate partner abuse. Despite this, the problem has 
been largely invisible in that agencies' responses were not guided by 
formal policy or protocol, response and documentation was inconsistent, 
and there was an overall lack of workplace safety planning and referral 
to helpful community agencies and the Employee Assistance Program when 
an employee presented domestic violence issues. Both within agencies 
and between agencies, domestic violence has been an invisible but 
dangerous and very real presence.
    Training evaluations indicated that supervisors and general State 
employees overwhelmingly embraced the new policies and training. The 
initiative was very well received in that employees showed an eagerness 
for the information. They continuously expressed in evaluations and in 
comments made to trainers that they wished they had the information 
earlier in their work or personal lives, as well as gratefulness that 
there are protocols and resources to guide them in the future.
    Some of the comments that trainers heard from training participants 
and read repeatedly in the evaluation forms included:

    <bullet> An appreciation for knowledge about the broad services of 
MCEDV's member domestic violence projects.
    <bullet> Gratefulness for information about current Maine laws--
specifically the Victim's Leave Act and Maine unemployment provisions--
that provide specific protections to victims of domestic violence. 
Employees often indicated in evaluations that these laws are vital 
resources for themselves, their co-workers, and also for their clients/
consumers. (See Appendix C.)
    <bullet> A gratefulness to have the information to respond 
helpfully to a co-worker, family member, or friend who may be a victim 
or offender. Many people disclosed in the trainings or immediately 
after the trainings with stories of dangerous domestic violence 
situations they were currently aware of.
    <bullet> A shift in thinking that this was a ``politically 
correct'' initiative to appreciating the important practical outcomes 
to a domestic violence policy that increases safety in the workplace 
for all employees.
    <bullet> Gratitude that the State of Maine is taking a lead on 
keeping employees safe at work when domestic violence is present in 
their personal relationships.
    <bullet> Overwhelming, Maine State employees reported that this 
training made them more aware of the issue of domestic violence and 
provided them with the necessary resources to recognize it in their co-
workers and respond to it with sensitivity and effectiveness. In 
addition, many State workers reported that their attitudes had been 
altered by the training.

    <bullet> ``I will try not to say things like ``I wouldn't let 
someone treat me like that' around other people.''
    <bullet> ``I will watch/be more aware of what I say just in case 
one of my coworkers is a survivor of DV.''
    <bullet> ``More folks will have empathy and knowledge that should 
lead to better support systems for victims and abusers and more 
appropriate responses to the victim.''
    <bullet> ``I will be more careful about what I say at work, and 
will be more sensitive and aware.''
    <bullet> ``[I will] More easily recognize the signs of abuse/
abuser. Know not to give advice--before training I might have said `why 
don't you leave.' ''

    Several State workers commented on the need to continue this 
education throughout the State:

    <bullet> ``Throughout the presentation I kept thinking about the 
societal influences that permit and encourage this problem and others 
like it. I'm so happy to hear the presenter say ``It's about a sense of 
entitlement.'' I think that hits the nail on the head, and I'm so 
grateful to hear this message and work is going out to schools and to 
children.''
    <bullet> ``Make it mandatory to all State employees and encourage 
to all business and workplaces in the State.''
    <bullet> ``Mak[e] a training like this to everyone an annual, 
mandatory training.''
    <bullet> ``Start educating at High School level to get awareness at 
earliest level. This should begin as age relationships begin.''

    A number of employees made a specific note of the professional 
nature of the instruction offered by Maine Coalition to End Domestic 
Violence trainers:

    <bullet> ``Good mix of training styles utilized. Great, 
knowledgeable, articulate presenters!''
    <bullet> ``Great presentation with very professional instruction.''
    <bullet> ``Excellent training.''
    <bullet> ``Excellent job! Skit was extremely powerful and moving!''
    <bullet> ``This training was really fantastic! The skit was a 
particularly good visual and thought provoking.''
    <bullet> ``This is the best presentation I have seen in 22 years of 
State employment. Superb!''

    Some employees commented on their personal experience with abuse:

    <bullet> I thought the training was very effective. It brought up 
many bad personal memories and made me more aware of the numerous 
characteristics my ex-husband has/had that makes him an abuser. On a 
happier note, it makes me realize how much more I appreciate my new 
husband!

    Finally, both State agency coordinators and employees who took the 
training remarked that the training would help to promote change:

    <bullet> ``Have already seen new policy making a difference in my 
office for the good.''
    <bullet> ``After the training, several employees approached me to 
say they thought this would be valuable. Two people indicated that they 
knew of people who were in a violent relationship and would be passing 
the resources on to them. They also found it helpful to understand that 
their friends may be feeling embarrassed and alone . . .''
    <bullet> ``A large number of staff commented that they were glad 
this had been undertaken, and that their own awareness had been 
increased; and to a certain extent, previous responses to domestic 
violence situations were validated.''
    <bullet> ``. . . [W]e did have several employees who were very 
resistant and negative to the effort; commenting that it was a waste of 
time, there wasn't any domestic violence at the [workplace], didn't 
believe domestic violence was really much of a problem, etc. After the 
training, these same people came to us, commenting they were astounded 
and amazed--they had no idea and thanked us for our work . . . several 
people revealed that domestic violence has touched their lives, either 
personally or with someone close to them.''
         unanticipated positive outcomes within state agencies
    This initiative created a momentum that led many agencies to 
develop additional resources for their employees and employees of other 
agencies that were not mandated by the Executive Order. These things 
included:

    <bullet> The Department of Transportation (DOT) created many 
printed materials featuring a State logo and informational materials 
including small laminated resource cards with telephone numbers, an 
employee brochure, notepads, tent cards for use at trainings, and 
posters with community domestic violence and sexual assault resources 
listed. DOT has generously made these materials available to other 
State agencies at cost. (See attached workplace brochure.)
    <bullet> The Department of Health and Human Services (as well as 
the Office of the Attorney General, which created its policy prior to 
the Executive Order) created a process by which employees can donate 
comp time to support a victim of domestic violence. The Maine State 
Housing Authority also created a special pool of time to which 
employees could donate.
    <bullet> The Department of Labor created a new optional employment 
law poster highlighting current Maine laws relating to domestic 
violence in the workplace and community domestic violence resource 
providers. This poster can be downloaded free at http://www.maine.gov/
labor/posters/.
    <bullet> The State of Maine revised its Employee Assistance Program 
request for proposals and contract and as of October 1, 2005, has 
contracted with a new organization that has a domestic violence 
specialist on staff and offers domestic violence training to its member 
providers.
    <bullet> The Department of Public Safety (DPS) utilized grant 
funding to create a web- based domestic violence and the workplace 
training for all general employees of the Department. DPS also funded 
several television public service announcements to promote this 
initiative and offer the web-based training to any employer in the 
State. The training can be accessed free at www.mvworkplacehelp.com by 
signing in as an anonymous guest.
    The Department of Conservation has created an internal 
corresponding policy to protect employees and visitors via a domestic 
violence and visitors to the park policy.

    It is clear that agencies did more than merely respond to a 
mandate, and an unfunded mandate at that. They took ownership of the 
policies, went above and beyond in crafting solutions and new best 
practices, and showed their pride in providing leadership and models to 
guide other employers in Maine.

                               NEXT STEPS

    While the original work envisioned in the Governor's Executive 
order is nearly complete, many potential next steps have emerged from 
the initiative. These include:

    <bullet> The creation of a schedule of ongoing trainings for new 
State employees, new State supervisors, or those seeking a refresher 
course, through the Maine State Training Unit. These trainings will 
likely begin in the fall of 2006 and will be provided by staff of the 
member projects of MCEDV.
    <bullet> Determining outcomes from the initiative. Current ideas 
for measuring the impact of this initiative include tracking the use of 
the State policies utilizing both qualitative and quantitative data, 
providing detail on workplace safety plans, and determining whether 
there has been an increased use of our domestic violence related 
unemployment statutes and the Victim's Leave Act. In addition, future 
focus groups or policy revisions may provide opportunities to capture 
new best practices emerging from experience.
    <bullet> Additional topics for future policy revisions include 
adding critical incident protocol as well as how State agencies can 
keep and provide documentation for prosecution purposes or to support 
the enforcement of protection from abuse orders.
    <bullet> By mandate of the Executive Order, all agencies are 
required to conspicuously post information about domestic violence 
resources, and MCEDV would like to provide additional literature and 
posters to assistance agencies in complying with this provision of the 
Order.
    <bullet> The laws currently in place to support employed victims of 
domestic violence may be ready for review and enhancement. 
Specifically, the Victim's Leave Act currently does not include 
domestic partners. In addition, the unemployment statutes may currently 
have unintended consequence of creating safety issues for claimants 
when employers are contacted regarding the claim.

                   CONCLUSION AND CONTACT INFORMATION

    For more information about the State of Maine Workplace Initiative 
or to find out more about how any employer can create a comprehensive 
workplace response to domestic violence, contact your local domestic 
violence project which you can locate online at www.mcedv.org. You are 
also encouraged to contact any of the following people who worked 
extensively on this initiative:
    Kate Faragher Houghton, Family Violence Project, P.O. Box 304, 
Augusta, Maine 04332	0304, (207) 623	8637 x304, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bcd7ddc8d9dafcdaddd1d5d0cacad5d3d0d9d2dfd9d2ced3d6d9dfc8d3cedb">[email&#160;protected]</a>; Ellen Ridley, Family Crisis Services, 
P.O. Box 704, Portland, ME 04104, (207) 767	4952 x105, ellen--
refamilycrisis.org; Nicky Blanchard, Maine Coalition to End Domestic 
Violence, 170 Park Street, Bangor, Maine 04401, (207) 941	1194, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2846414b435168454b4d4c5e06475a4f">[email&#160;protected]</a>; Francine Stark, Spruce Run, P.O. Box 653, Bangor, ME 
04402, (207) 945	5102, fstarkesprucerun.net.

                            ACKNOWLEDGMENTS

    MCEDV has found it a pleasure to work with the State of Maine on 
the largest outreach effort the Coalition has ever undertaken. The 
successes within the initiative are many, and on behalf of domestic 
violence service providers in the State of Maine, we thank the State 
for its fine work.
    This project would not have happened without the exceptional work 
undertaken by Maine's Attorney General Steven Rowe and his Special 
Assistant Jessica Maurer, who have continuously placed domestic 
violence policy and education at the top of their priorities. Prior to 
this initiative, the Maine Office of the Attorney General underwent a 
14-month initiative to develop and implement a domestic violence and 
the workplace policy and train all of its 200 plus staff across the 
State. This work created the momentum for doing this policy work 
throughout all of State Government.
    We thank Governor John Baldacci for his leadership in signing the 
Executive Order requiring all State agencies to develop and implement 
domestic violence and the workplace policies. We also offer thanks to 
Daryl Fort, the Governor's Director of Community Development, who has 
focused persistent attention on issues affecting marginalized and 
vulnerable Mainers. His particular efforts regarding domestic violence 
and sexual assault have positively impacted Governor Baldacci's 
Administration as well as all Mainers impacted by these crimes.
    Within State Government many champions moved this initiative 
forward--one deserves special recognition for her role as coordinator 
and point person for this project within the State of Maine. This 
person is the State Equal Employment Opportunity Coordinator Laurel 
Shippee. Her tireless support of the initiative is greatly appreciated.
    Many people within MCEDV participated in this project and special 
thanks and recognition are offered to Kate Faragher Houghton of the 
Family Violence Project who coordinated the initiative for the 
Coalition, Ellen Ridley of Family Crisis Services who developed much of 
the curricula and delivered countless trainings, Francine Stark of 
Spruce Run who partnered with the largest State agency as well as many 
others, and Nicky Blanchard of the Maine Coalition to End Domestic 
Violence who provided ongoing coordination of training logistics and 
countless other types of ongoing support for the initiative. Additional 
thanks and recognition go to other domestic violence project staff 
around the State who participated in agency policy development and 
training of State employees.
    Finally, a huge thank you is offered to those agencies and 
organizations that provided training space, audio-visual equipment, and 
technical assistance at no cost for the slate of general State employee 
trainings that occurred in the spring of 2006. These trainings were 
largely held at sites within the University of Maine system, at Anthem 
Blue Cross in South Portland, and at the Maine Department of Public 
Safety in Augusta. We offer our gratitude for those organizations' 
generous support of this initiative.

                 Appendix A: Governor's Executive Order
                                       25 FY 04/05,
                                           October 7, 2004.
   an order regarding the establishment of domestic violence in the 
     workplace policies within the departments of state government
    WHEREAS, domestic violence is a serious public policy concern of 
the State of Maine requiring its participation in the coordinated 
community response to support victims and hold abusers accountable; and
    WHEREAS, employees and citizens of the State of Maine have a right 
to be safe from harm; and
    WHEREAS, the Maine Legislature has recognized an employer's 
obligation to provide special assistance to victims of domestic 
violence, sexual assault, and stalking; and
    WHEREAS, domestic violence is a pattern of coercive behavior that 
is used by a person against a current or former partner, or other 
family or household member, to establish and maintain power or control 
in the relationship; and
    WHEREAS, for more than a decade fifty percent of the homicides in 
Maine involved domestic violence; and
    WHEREAS, domestic violence is a widespread community problem 
affecting thousands of Maine families that extends beyond the family 
and into all areas of society including the workplace; and
    WHEREAS, abusers will often target victims at their workplaces, 
endangering the safety and affecting the productivity of victims and 
co-workers; and
    WHEREAS, the State of Maine, as an employer, is additionally 
affected by domestic violence in the loss of productivity, and 
increased health care costs, absenteeism, and employee turnover; and
    WHEREAS, the State of Maine, as an employer, should provide support 
and assistance to employees who are victims of domestic violence and 
should hold abusers accountable; and
    WHEREAS, the State of Maine has a responsibility to model a 
proactive response to domestic violence for other employers in the 
State; and
    WHEREAS, agencies of the State of Maine have partnered with the 
Maine Coalition to End Domestic Violence and the Maine Coalition 
Against Sexual Assault to develop and promote workplace policies and 
training for State employees; and
    WHEREAS, the Maine Commission on Domestic and Sexual Abuse has 
urged all employers in the State of Maine to develop and implement 
workplace policies on domestic violence; and
    WHEREAS, the State of Maine recognizes that employers can be 
powerful allies to victims by creating a workplace that offers support, 
information, and resources;
    NOW, THEREFORE, I, John E. Baldacci, Governor of the State of 
Maine, by the authority vested in me, do hereby order that:
    1. For the purpose of this executive order, the following terms 
shall have the following meanings:
    Domestic violence: A pattern of coercive behavior that is used by a 
person against family or household members to establish and maintain 
power or control over the other party in the relationship. This 
behavior may include physical violence, sexual abuse, emotional and 
psychological intimidation, verbal abuse and threats, stalking, 
isolation from friends and family, economic control and destruction of 
personal property. Domestic violence occurs between people of all 
racial, economic, educational, and religious backgrounds. It occurs in 
heterosexual and same sex relationships, between married and unmarried 
partners, between current and former partners, and between other family 
and household members.
    Sexual assault: An act of sexual violence whereby a party forces, 
coerces, or manipulates another to participate in unwanted sexual 
activity. This behavior may include stranger rape, date and 
acquaintance rape, marital or partner rape, incest, child sexual abuse, 
sexual contact, sexual harassment, ritual abuse, exposure and 
voyeurism.
    Stalking: Any conduct as defined in 17-A M.R.S.A. Sec. 210-A.
    Abuser: An individual who commits an act of domestic violence.
    Victim: An individual subjected to an act of domestic violence.
    Workplace: An employee is considered to be in the workplace when 
the employee is on duty, is traveling on behalf of the State, is in 
state-owned or leased workspace, is using the facilities or services of 
the State, is wearing a uniform, or is using a vehicle that is owned or 
leased by the State or its agencies.
    2. Each State agency convenes a diverse team of employees who will, 
within the next year, develop a workplace domestic violence policy. The 
team shall partner with the Maine Coalition to End Domestic Violence to 
provide initial domestic violence training for the team and additional 
guidance in the development of the policy.
    3. Each State agency's domestic violence workplace policy:

    a) Incorporates the above definitions of domestic violence, sexual 
assault, stalking, abuser, victim, and workplace;
    b) Clearly directs that the agency will not tolerate acts of 
domestic violence, sexual assault, or stalking in the workplace, 
including harassment or violent or threatening behavior that may result 
in physical or emotional injury to any State employee while in State 
offices, facilities, work sites, vehicles, or while conducting State 
business;
    c) Instructs employees on how to offer assistance to co-workers who 
are domestic violence victims in an expedient and confidential manner;
    d) Recognizes that victims of domestic violence may have 
performance or conduct problems related to their victimization and 
offers support and an opportunity to correct the problems;
    e) Provides for assistance to victims to include at a minimum: 
referrals to local domestic violence projects and the State's Employee 
Assistance Program, and development of workplace safety plans that seek 
to minimize the risks to the victims and other employees;
    f) Recognizes the employer's obligation to grant reasonable and 
necessary leave pursuant to 26 M.R.S.A. Sec. 850;
    g) Provides assistance to abusers to include at a minimum: 
referrals to the State's Employee Assistance Program, and information 
about local State certified batterer intervention programs;
    h) Provides that corrective or disciplinary action may be taken 
against State employees who: misuse State resources to perpetrate 
domestic violence, sexual assault, or stalking; harass, threaten, or 
commit an act of domestic violence, sexual assault, or stalking in the 
workplace or while conducting State business; or are arrested, 
convicted, or issued a civil order as a result of domestic violence 
when such action has a nexus to their employment with the State;
    i) Requires that all agency employees with supervisory 
responsibility and any other designated individuals who will respond to 
victims and abusers receive specialized training on best practices for 
identifying and responding to domestic violence;
    j) Includes a separate procedure which requires referral to the 
sexual assault crisis and support centers for employees who have 
experienced sexual assault or stalking;
    k) Directs that, to the extent that sexual abuse or stalking is 
perpetrated as part of domestic violence, employers should be prepared 
to respond to it utilizing the domestic violence policy; and
    l) Requires that the policy be distributed to all current employees 
and to every new hire.

    4. To the extent that an agency employs individuals who are 
authorized to carry firearms as part of their job duties, the policy 
shall include provisions addressing firearms.
    5. Each State agency implements the workplace policy via employee 
training on the policy delivered in partnership with the Maine 
Coalition to End Domestic Violence. The training shall include, at a 
minimum, information as to: the dynamics and effects of domestic 
violence; available resources for victims and perpetrators; and how an 
employee can assist a co-worker who is experiencing or perpetrating 
domestic violence. The Bureau of Human Resources will provide training 
support and coordinate with the Maine Coalition to End Domestic 
Violence to make sample policies available for all agencies.
    6. Each State agency provides for the conspicuous posting of 
information about domestic violence and sexual assault and available 
community resources.
    7. Each State agency incorporates reference to the State of Maine 
Equal Employment Opportunity/Affirmative Action Policy, the State of 
Maine Harassment Policy and the State of Maine E-Mail Usage and 
Management Policy in its domestic violence in the workplace policy. 
Each State agency is also directed to review existing personnel 
policies and procedures to ensure they do not discriminate against 
victims of domestic violence and are responsive to the needs of victims 
of domestic violence.
    The cost to State agencies for implementing the tasks included in 
this Executive Order will be used from existing resources.
    The provisions of this executive order are not intended to alter 
any existing collective bargaining agreements or to supersede 
applicable Federal or State law.

Effective Date

    The effective date of this Executive Order is October 7, 2004.

                                 John E. Baldacci, Governor
                                 ______
                                 
  appendix b: departments, quasi-agencies, and organizations of state 
             government that participated in the initiative
    Atlantic Salmon Commission
    Department of Administrative and Financial Services
    Department of Agriculture
    Department of Conservation
    Department of Corrections
    Department of Defense, Veterans and Emergency Management
    Department of Economic and Community Development
    Department of Education
    Department of Environmental Protection
    Department of Health and Human Services
    Department of Inland Fisheries and Wildlife
    Department of Labor
    Department of Marine Resources
    Department of Public Safety
    Department of Transportation
    Department of Professional and Financial Regulation
    Finance Authority of Maine
    Maine Arts Commission
    Maine Historic Preservation
    Maine State Housing Authority
    Maine State Library
    Maine State Museum
    Maine Warden Service
    Office of Health, Policy and Finance
    Office of the Attorney General
    Office of the Governor
    Public Utilities Commission
    State Planning Office
    State Treasurer's Office
    Worker's Compensation Board

               APPENDIX C: IMPORTANT POINTS ON MAINE LAW
DID YOU KNOW? MAINE LAW CAN HELP EMPLOYERS ASSIST VICTIMS WHEN DOMESTIC 
                         VIOLENCE COMES TO WORK

    Maine law protects employed victims of domestic violence through 
Bureau of Labor Standards and Bureau of Unemployment Compensation 
statutes. These laws are useful tools for employers when victims need 
special assistance in the workplace.
    Employers should ensure that their workplaces are in compliance 
with these laws, and that victims of domestic violence are made aware 
of the protections available to them.
Employment Leave for Victims of Violence
    Title 26, Chapter 7, Subchapter 6-B, Sec. 850.

    Employers must grant reasonable and necessary leave from work if an 
employee or employee's daughter, son, parent, or spouse is a victim of 
domestic violence, sexual assault, or stalking.
    The employee can use this leave to prepare for and attend court 
proceedings; receive medical treatment; or obtain necessary services to 
remedy a crisis caused by domestic violence, sexual assault, or 
stalking.
    Exceptions to this would include the following: if the leave would 
cause the employer to sustain undue hardship from the employee's 
absence; if the request for leave is not communicated to the employer 
within a reasonable time under the circumstances; or If the requested 
leave is impractical, unreasonable, or unnecessary based on the facts 
then known to the employer.

    For more information go to ftp://ftp.state.me.us/pub/sos/cec/rcn/
apa/12/170/170c010.doc.
Unemployment Compensation
    Title 26, Chapter 13, Sec. 1193, #1(A)(4).

    Disqualification: An individual who voluntarily leaves work may not 
be disqualified from receiving benefits if the leaving was necessary to 
protect the claimant from domestic abuse and the claimant made all 
reasonable efforts to preserve the employment.

    For more information go to http://janus.state.me.us//legis/
statutes/26/title26sec1193.html.

    Title 26, Chapter 13, Sec. 1043, #23(B)(3).

    Misconduct: Misconduct may not be found solely on actions taken by 
the employee that were necessary to protect the claimant or an 
immediate family member from domestic violence if the employee made all 
reasonable efforts to preserve the employment.

    For more information go to http://janus.state.me.us//legis/
statufes/26/title26sec1043.html.

    Please note: Unemployment claims resulting from domestic violence 
are charged to the general unemployment fund, not to the individual 
business from which the worker was employed. For more information 
contact the Maine Unemployment Benefits Division at (207) 287	3805. To 
reach an Unemployment Call Center call 1	800	593	7660 or TTY, 1	888	
457	8884.
                                 ______
                                 
                               Department of Labor,
                                         Augusta, ME 04330,
                                                    April 19, 2007.
Hon. Johnny Isakson,
120 Russell Senate Building,
Washington, DC. 20510.

Re:  Maine's Penalty for Violating the Victim Leave Law

    Dear Senator Isakson: I enjoyed testifying on Tuesday before the 
HELP Subcommittee on Employment and Workplace Safety at the hearing 
``Too Much, Too Long?: Domestic Violence in the Workplace.'' Thank you 
very much for your work and attention to this important topic.
    You had asked me during the hearing what the penalties in Maine are 
for violating our law providing unpaid leave for victims of domestic 
violence. I believe I misspoke when I responded and want to be sure 
that I give you the correct information. In Maine we have a modest 
penalty for violating this law of $200 per violation.
    Thank you, again, for your concern about domestic violence in the 
workplace. If you have any further questions, please do not hesitate to 
contact me.
            Sincerely,
                                          Laura A. Fortman,
                                                      Commissioner.

    Senator Murray. Thank you very much. All of your testimony 
will be part of the record. Thank you very much.
    Ms. Cade.

STATEMENT OF YVETTE CADE, SURVIVOR OF DOMESTIC VIOLENCE IN THE 
               WORKPLACE, TEMPLE HILLS, MARYLAND

    Ms. Cade. Thank you. I'd like to begin by thanking my 
family for all the support they have given me throughout my 
life and during this recovery period since October 10, 2005.
    I'm very honored to appear here today and I'm grateful to 
Senator Murray and the members and staff of this Senate HELP 
Subcommittee on Employment and Workplace Safety for inviting me 
to testify. I want to begin by pointing out the obvious. What 
happened to me is extreme but as these events of recent weeks 
suggest, it is by no means isolated.
    In the last month, three women from different parts of the 
country--one was a State employee, one was a national hotel 
chain employee and one was a local business, were murdered in 
their workplaces by abusive former partners. Although what 
happened to me is extreme, I am fortunate that I survived to 
tell the story of what happened to me in the hope that things 
could be different for other victims.
    I hope that you will join me in working to ensure that no 
more women have to die needless and senseless deaths in their 
workplaces or go to work in fear that something may happen to 
them at work, as they are struggling to be a good and 
productive employee and to support themselves and their 
families.
    Those of you who are familiar with my story know that when 
the newspaper began covering it, it was not a case of workplace 
violence. At that stage in September 2005, I was seeking to 
have Judge Richard Palumbo of Prince George's County, Maryland 
District Court, keep in place the protective order that I had 
obtained against my estranged husband in July of the same year.
    After treating me shamefully and suggesting that I should 
obtain marriage counseling, I had made it clear to the judge 
that my husband was violating the protective order, that I had 
no interest in reconciling with him and wanted an absolute 
divorce. Judge Palumbo rescinded my protective order.
    What happened less than a month later is the reason I am 
appearing before you today. In the fall of 2005, I was employed 
by T-Mobile and was working at a store in Clinton, Maryland. I 
had notified my employers during the summer of my concerns 
about my husband and informed them I had a protective order. 
They were not supportive. My concerns were not taken seriously.
    When my then-husband walked in, I was agitated because I 
had told him to stay away from me. I was actually a short 
distance from him. I was picking up paper off the printer. I 
went and sat down. He approached me and began pouring some sort 
of liquid from a Sprite bottle on me. Initially, I thought that 
he was just trying to humiliate me. I threw my hands in the 
air, trying to protect my face and got up and ran out the back 
of the store.
    He chased me and I ran out the back door. He caught me and 
stomped on my foot, crushing every bone in it. I fell to my 
knees and that's when I felt intense heat on my back. I was on 
fire.
    I knew at that point I was on fire. I got up, ran back in 
the store as fast as I could. I got to the sink and stood and 
took the sprayer off the sink and began spraying my face. I 
felt my skin slipping, dripping. The flames covered my entire 
face so I was just like a great ball of fire. From a little 
below my waist, part of my right leg on up was completely 
engulfed in flames. I had burns on my right leg, my behind, 
stomach, chest, my back--both arms and my face. I've lost parts 
of my ears and my chin was actually melted. My lip was melted 
to my chin. So there was a lot of damage.
    I suffered third degree burns over 60 percent of my body 
and my initial hospital stay lasted 92 days. But I am a 
survivor. Since October 2005, I survived numerous surgeries.
    Moving on, I think employers have a significant role to 
play in helping victims of domestic violence obtain and 
maintain their independence from their abusive partners. I will 
admit that I have found the response of my employer, T-Mobile, 
to be sometimes frustrating and other times, depressing. 
Employers stand to benefit greatly from supporting many of 
their victims. In my 3 years at 
T-Mobile, I was top sales representative for 2 years. In many 
cases, there is a great value to supporting a good employee. 
Not only are they productive and good for the bottom line, 
employers avoid recruiting and retaining costs when they 
support the employees they already have.
    The Congress took an important first step in acknowledging 
this when they reauthorized the Violence Against Women Act in 
December 2005. One of the new programs that was created is this 
resource engine to help learn how to support their employees.
    Let me close repeating that as I said earlier, my story is 
extreme but I was fortunate enough to survive. Not every one is 
as fortunate as I have been, as we have been reminded recently 
but regardless of how severe the issue is--it could be someone 
who repeatedly calls the victim on the job and often checking 
their whereabouts.
    I hope that you will do all in your power to make sure that 
others don't have to continue to confront the same obstacles 
that I have.
    [The prepared statement of Ms. Cade follows:]

                   Prepared Statement of Yvette Cade

    I'd like to begin by thanking my family for all the support they've 
given me throughout my life and during this recovery period since 
October 2005. I am very honored to appear here today, and am grateful 
to Senator Murray and the members and staff of the Senate HELP 
Subcommittee on Employment and Workplace Safety for inviting me to 
testify and to submit this written testimony.
    I want to begin by pointing out the obvious: what happened to me is 
extreme, but as the events of recent weeks suggest, it is by no means 
isolated. In the last month, three women from different parts of the 
country, one with a State employer, one with a national hotel chain 
employer, and one with a local business, were murdered in their 
workplaces by abusive former partners. So although what happened to me 
is extreme, I am fortunate. I survived to tell the story of what 
happened to me in hopes that things could be different for other 
victims. I hope that you will join me in working to ensure that no more 
women have to die needless and senseless deaths in their workplaces.
    Those of you who are familiar with my story know that when the 
newspapers began covering it, it was not a case of workplace violence. 
At that stage, in September 2005, I was seeking to have Judge Richard 
Palumbo of the Prince Georges County, Maryland District Court keep in 
place the protection order that I had obtained against my estranged 
husband in July of the same year. After treating me shamefully, and 
suggesting that I should obtain marriage counseling (I had made it 
clear to the judge that my husband was violating the protection order, 
that I had no interest in reconciling with him, and that I wanted a 
divorce), Judge Palumbo rescinded my protection order. What happened 
less than a month later is the reason I am appearing before you today.
    In the fall of 2005, I was employed by T-Mobile and was working in 
a store in Clinton, Maryland. I had notified my employers during that 
summer of my concerns about my husband and informed them that I had a 
protective order. They were not supportive; my concerns were not taken 
seriously. When my then-husband walked in, I was agitated because I had 
told him to stay away from me. I was actually a short distance from 
him, and was picking up paper off the printer. I went and sat down, and 
he approached me and began pouring some sort of liquid from a Sprite 
bottle on me. Initially, I thought that he was just trying to humiliate 
me. I threw my hands in the air, trying to protect my face. And I got 
up and ran to the back of the store. He chased me, and I ran out the 
back door. He caught me, and stomped on my foot, crushing all the bones 
in it. I fell to my knees, and that's when I felt this intense heat on 
my back, and I knew at that point, that I was on fire.
    I got up, ran back into the store as fast as I could. I got to the 
sink. And I took the sprayer off the sink and began spraying my face. I 
felt my skin, dripping. The flames covered my face entirely so I was 
just like a great, big ball of fire. From a little below my waist, part 
on my right leg on up was completely engulfed in flames. So I have 
burns on my right leg, my behind, stomach, chest area, my back, both 
arms and my face. I've lost parts of my ears, and my chin was actually 
melted. My lip was actually melted to my chin. So there was a lot of 
damage. I suffered third degree burns over 60 percent of my body, and 
my initial hospital stay lasted 92 days, but I am a survivor.
    Since October 2005, I have survived numerous surgeries, and though 
I still have many more on the horizon, I am recuperating well at home. 
I am slowly making progress. My main concern is for my family and 
making sure that I stay strong and focused on moving forward. I am very 
thankful and appreciative of all the support I have received from 
everyone. The thoughts, prayers, and donations I have received were and 
are deeply appreciated by me and my entire family.
    I think that employers have a significant role to play in helping 
victims of domestic and sexual violence obtain and maintain their 
independence from abusive partners. I will admit that I have found the 
response of my employer, T-Mobile to be at some times frustrating, and 
at others, depressing. Employers stand to benefit greatly from 
supporting many of their employee victims. In my 3 years at T-Mobile I 
was top sales representative for 2 years. In many cases there is great 
value to supporting a good employee. Not only are they productive, and 
good for the bottom line, employers avoid recruiting and retraining 
costs when they support the employees they already have.
    The Congress took an important first step in acknowledging this 
when they reauthorized the Violence Against Women Act in December 2005. 
One of the new programs that was created is a resource center to help 
employers learn how to support their employees, and provide them with 
model policies and other materials. Hopefully, these materials will 
help employers understand how to respond and support their employees 
who have protection orders, although that did not happen for me. This 
resource center is a terrific first step, and I hope that it will 
receive funding. But more remains to be done, and I hope this Congress 
will continue to lead the way to ensuring that victims of domestic and 
sexual violence, regardless of where they live, will enjoy the same 
level of security with regard to domestic and sexual violence in the 
workplace.
    First of all, no one should be fired from their job just because 
they are a victim of domestic or sexual violence. This will only cause 
them to remain dependent on the abuser and mired in a situation that, 
as far as the victim is concerned, is very likely to deteriorate and to 
be dangerous for herself and her children.
    Second, to the extent that victims need a small amount of time off 
to work with an advocate to ensure their safety, to change their locks, 
and/or get a protection order, they should be able to take that needed 
time, and to know that their jobs are secure and will be waiting for 
them. Third, if someone has to leave a job because of domestic or 
sexual violence suffered by themselves or a family member, they should 
be able to receive unemployment insurance. Each of these three 
protections is available in some States, but rarely are they all 
available. I worked for a national company, T-Mobile. If I had worked 
in Washington, DC., unemployment insurance would have been available to 
me, but because I work in Maryland, it is not. It is not fair that 
access to such basic protections should depend on where a victim lives. 
Every victim deserves a high level of protection. Congress should make 
sure that every victim of domestic or sexual violence, no matter where 
she lives, can have the support of her employer for addressing her 
situation and access to unemployment benefits if she needs to leave a 
job.
    Finally, although I know that this committee is focused on 
employment issues, I would like to say a word in support of anti-
bullying programs. I am particularly supportive of them and feel that 
making them widely available in school settings will go far in teaching 
young men and women how to behave appropriately in intimate 
relationships. If you teach young people about appropriate behavior 
early, before they begin to engage in destructive patterns that 
ultimately lead to violence and abusive behavior, everyone will benefit 
in the long run. At this point, my medical bills are in excess of $1 
million. Surely an investment in prevention is much better than paying 
a heavier price later with the involvement of the health care, criminal 
justice and other systems.
    For obvious reasons, I also hope the Congress will also fund and 
support training for judges so that no one else has to endure the type 
of treatment that I did at the hands of someone who could have done so 
much to help me escape the abusive situation in which I found myself. 
When your colleague in the House, Judge Ted Poe was interviewed about 
my case he said, ``in these types of cases, we know that abusers do not 
change--and [that Judge Palumbo] ought to have granted [my request to 
have the protection order stay in place].'' Judge Palumbo's actions 
were unconscionable. By improperly rescinding the protective order, 
Judge Palumbo gave my abuser the courage and confidence to approach 
me--a decision that, as you know, had disastrous results. But the 
justice system failed to ensure that similar misconduct does not happen 
in the future. After public outcry over his actions, Judge Palumbo 
retired. The Maryland Judicial Disabilities Commission then decided 
that charges concerning his misconduct should be dropped. Judge Palumbo 
was permitted to retire with his pension and full State benefits. 
Judges need to be held responsible for their actions. When justice is 
not served, all citizens suffer.
    Let me close by repeating something that I said earlier: my story 
is extreme, but I was fortunate enough to survive. Not everyone is so 
fortunate as we have been reminded recently. But regardless of how 
severe the issue is--and it could be someone who repeatedly calls the 
victim on the job, stops by often to check on their whereabouts, or who 
is constantly e-mailing from their job--workplace violence, and the 
potential for it is a serious matter. I hope that you will do all in 
your power to make sure that others do not continue to confront the 
same obstacles that I did.

    Senator Murray. Ms. Cade, thank you very, very much for 
your very compelling story and I know you have a number of 
suggestions in your written testimony that we will keep as part 
of the record and I really appreciate your thoughts and all of 
what you've given us to ponder. Thank you very much.
    Ms. Cade. Thank you, Senator Murray.
    Senator Murray. Ms. Willman.

 STATEMENT OF SUE K. WILLMAN, ATTORNEY, SPENCER FANE BRITT AND 
     BROWNE, LLP, ON BEHALF OF SOCIETY FOR HUMAN RESOURCE 
               MANAGEMENT, KANSAS CITY, MISSOURI

    Ms. Willman. Chairwoman Murray, Ranking Member Isakson and 
other distinguished Members of Congress who are present, my 
name is Sue Willman. I am an employment attorney with the Law 
Firm of Spencer Fane Britt and Browne in Kansas City. I commend 
the subcommittee for holding this hearing on domestic violence 
in the workplace and I appreciate the opportunity to testify.
    I have over 30 years of experience, both as an employment 
lawyer and as a human resource professional. I have spent a 
good part of my career advising employers on issues relating to 
leave in the workplace and on domestic violence situations.
    I am also a certified human resource professional and I 
appear today on behalf of the Society for Human Resource 
Management, also known as SHRM. SHRM is the world's largest 
organization devoted to human resource management with over 
217,000 members in the world. It is well positioned to provide 
insight on the impact of domestic violence in the workplace as 
well as the role of employers in responding to this issue.
    I also approach this issue from a personal perspective. I 
am a survivor of domestic violence, having divorced my first 
husband in 1978, after 3 years of physical abuse, followed by 
stalking, death threats and an attempt on my life. During the 
last 15 years, I have been a strong supporter of domestic 
violence prevention and intervention. I have served on the 
Board of Directors for Safe Home, Inc., which is a shelter for 
battered women in the Kansas City area. I have also served on 
the Board of Directors for the Domestic Violence Network, which 
is a coalition of shelters and other organizations in Kansas 
City, devoted to addressing domestic violence issues.
    With nearly one in three women reporting abuse at some time 
in their lives, domestic violence is likely to affect most 
workplaces. As a result, employers have begun to recognize its 
impact. Many employers have been leaders in the fight against 
domestic violence and have long provided support and resources 
to victims.
    At the same time, employers understand there is no one-
size-fits-all approach when domestic violence finds its way 
into the workplace. Each situation has to be evaluated on a 
case-by-case basis and numerous factors have to be taken into 
account.
    All of us here recognize the importance of assisting 
victims of domestic violence as they find the path to survivor 
status. But none of us should be advocating Federal employment 
legislation without first examining the issue from all 
perspectives, including the perspectives of the victim and the 
employer.
    With regard to prior legislation introduced by Senator 
Murray as well as perhaps the most recent bill that will be 
introduced, which I have not yet had the pleasure of reading, 
there are four key issues that must be taken into account.
    First, any such legislation in the past that has been 
proposed has been based on the assumption that employers are 
not adequately addressing domestic violence in the workplace. 
In my experience, that is not the case. Overall, I find 
employers to be extremely compassionate about these situations 
and very willing to voluntarily provide reasonable assistance, 
including time off from work.
    I have also not seen any statistics indicating that 
employers are refusing to assist victims. In the absence of any 
reliable data demonstrating that employers are regularly 
interfering or discriminating against a victim and their 
efforts to leave an abusive situation, a legislative mandate is 
simply not warranted.
    Second, any such legislation has primarily focused on 
protecting individual victims of domestic violence and have 
overlooked the inevitable workplace safety issues that will 
arise and affect other employees. The victim's welfare is 
required to be protected even at the risk of the safety of 
other employees. Unlike the Americans with Disabilities Act, 
prior legislation in this area includes no direct threat 
defense when the domestic violence poses a significant risk of 
substantial harm to the safety or health of the victim or other 
employees.
    A third area of concern is the questionable necessity of 
the leave benefit provided in such legislation. There is no 
data to suggest that current leave programs provided by 
employers fail to provide adequate time off for victims of 
domestic violence. Employers nationwide are already committed 
to and actually providing on a voluntary basis, paid leave for 
their employees, such as sick days, vacation, personal days and 
short-term disability. In addition, employers also provide 
additional unpaid leave under their FMLA, medical and personal 
leave policies. Therefore, a Federal mandate requiring leave 
for domestic violence is not necessary.
    The fourth major concern I have had in the past with this 
type of legislation has involved numerous implementation and 
interpretation challenges. Many of these challenges are listed 
in my written comments. A significant issue in the past has 
been lack of coordination and confusion between the Safe Act, 
the Family and Medical Leave Act and the Americans with 
Disabilities Act, all of which could arguably apply.
    While the purpose of the Safe Act is a laudable one but its 
unintended consequences suggest that it is not the best 
approach for helping victims of domestic violence. There are 
too far better approaches.
    First, encourage employers to develop best practices and 
become trailblazers on this issue by providing incentives in 
the form of Federal grants, tax credits, training programs, 
initiatives where they are encouraged to partner with shelters 
for battered women to get these women into the workplace.
    Second, encourage collaborative efforts and joint programs 
between employer organizations such as SHRM and advocacy groups 
such as Legal Momentum so that all perspectives are taken into 
account.
    Again, thank you for the opportunity to provide my 
perspective on an issue that is important to SHRM and to me 
both personally and professionally. I look forward to answering 
any questions you have. Thank you.
    [The prepared statement of Ms. Willman follows:]

                  Prepared Statement of Sue K. Willman

                              INTRODUCTION

    Chairwoman Murray, Ranking Member Isakson, distinguished members of 
the committee, my name is Sue Willman, and I am an employment attorney 
with the law firm of Spencer Fane Britt & Browne LLP. I commend the 
subcommittee for holding this hearing on domestic violence in the 
workplace, and appreciate the opportunity to testify. My comments will 
focus on my experience with workplace violence and legislation that 
Chairwoman Murray has introduced in previous congresses, known as the 
Security and Financial Empowerment (SAFE) Act.
    By way of introduction, I am a member of my law firm's labor and 
employment practice group. I have over 30 years of experience both as 
an employment lawyer and as a human resource (HR) professional, and 
have spent a good part of my career advising employers on issues 
relating to leave in the workplace, including the Family and Medical 
Leave Act (FMLA).
    I am also a certified human resource professional, and appear today 
on behalf of the Society for Human Resource Management (SHRM). SHRM is 
the world's largest association devoted to human resource management. 
Representing more than 210,000 individual members, the Society's 
mission is to serve the needs of HR professionals by providing the most 
essential and comprehensive resources available. As an influential 
voice, the Society's mission is also to advance the human resource 
profession to ensure that HR is recognized as an essential partner in 
developing and executing organizational strategy. Founded in 1948, SHRM 
currently has more than 550 affiliated chapters within the United 
States and members in more than 100 countries.
    SHRM is well positioned to provide insight on the impact of 
domestic violence in the workplace as well as the role of employers in 
responding to this issue. HR professionals are responsible for 
designing and implementing employee benefit programs that meet the 
needs of workers and contribute to organizational success. HR 
professionals strive to offer the right mix of benefits to attract and 
retain top performers while balancing the increasing costs of offering 
these benefits. Organizations also depend on their respective HR 
departments to craft policies that help to ensure a safe workplace.
    I also approach this issue from a unique perspective, from that of 
a survivor of domestic violence. I am one of the nearly one-third of 
American women who report being physically or sexually abused by a 
husband or boyfriend at some time in their lives.\1\ I divorced my 
first husband in 1978, after 3 years of physical abuse. Wanting to help 
other women make the journey from victim to survivor, I have served the 
last 15 years on the Board of Directors for both Safehome, Inc., a 
shelter for battered women in Kansas City, and the Domestic Violence 
Network, a coalition of shelters and organizations devoted to 
preventing domestic violence. These organizations provide invaluable 
support and education to countless women nationwide.
---------------------------------------------------------------------------
    \1\ U.S. Department of Justice, Bureau of Justice Statistics, 
(2000). Intimate Partner Violence. NCJ 178247.
---------------------------------------------------------------------------
    As employment counsel to hundreds of employers, I have provided 
legal advice on domestic violence situations for over 10 years. Such 
counsel has included drafting workplace domestic violence policies and 
conducting training on best practices for dealing with domestic 
violence situations at work, including stalking of employees, threats 
by abusers against employees, and frequent requests for time off. I 
have also developed a web-based training program on workplace violence 
for my clients.

                   DOMESTIC VIOLENCE IN THE WORKPLACE

    As a result of my background and experiences, I am extremely 
sensitive to the perspective of domestic violence victims. With nearly 
one in three women reporting abuse at some time in their lives, 
domestic violence is likely to affect most workplaces. Indeed, I 
believe employers are legitimately concerned about harmful domestic 
relationships spilling over into the workplace as the number of these 
incidents continues to grow.
    Domestic violence can affect an organization in numerous ways. 
Certainly, violence in the workplace exposes employees to physical 
harm, but even the threat of violence can be detrimental to employee 
output, attendance, morale, well-being, and retention. In a survey of 
Fortune 1000 companies, 49 percent of corporate leaders said domestic 
violence had a harmful effect on their company's productivity; 47 
percent said it had a harmful effect on attendance; and 44 percent said 
it had a harmful effect on health care costs. For all these reasons, 
workplace violence can negatively affect employers' bottom lines. In 
2003, the Centers for Disease Control and Prevention estimated 
domestic/intimate partner violence cost employers $727.8 million in 
lost productivity.
    Not only does domestic violence affect a victim at work, domestic 
violence often infiltrates a workplace to the point of placing the 
safety of other employees in jeopardy. Studies of survivors (cited by 
the ABA Commission on Domestic Violence) indicate that 67 percent of 
their abusers came to the victims' workplaces. A recent study in Maine 
found that 78 percent of surveyed perpetrators used the workplace to 
check up on, pressure, threaten, or express anger or remorse to their 
victims. In addition, the SAFE Act states that 94 percent of corporate 
security and safety directors at companies nationwide rank domestic 
violence as a ``high security'' concern, and for good reason, as 
explained in the following paragraph.
    It is not unusual for abusers to threaten the safety of other 
employees in an effort to control, gain access to, and/or determine the 
whereabouts of the victim. It is also not unusual for the employer and 
other employees to become targets of the abuser's violence if the 
abuser perceives them as providing assistance or protection to the 
victim. Any measures to address domestic violence in the workplace must 
appropriately balance the victim's individual interests with the rights 
of all employees to work in a safe environment.
    One of the many situations in which I participated as a domestic 
violence prevention team member involved a female abuser who threatened 
the life of a male employee (her significant other) and other employees 
who refused to disclose his whereabouts or permit her to speak with him 
by phone at work. This went on for several weeks, during which time the 
employer adjusted his work schedule, placed him on paid leave, required 
that he obtain a restraining order, and imposed other conditions to 
protect him and the workforce. Notwithstanding these efforts, she 
persisted in stalking him at work. In the meantime, and while the 
employer was assisting the victim, he, unbeknownst to the employer, 
disclosed to her where he was staying while on leave and advised her of 
all efforts the employer made to help him. She then became extremely 
angry at the employer for interfering and began making threats, 
including death threats, against other employees (the receptionist, his 
supervisor and others), which led the employer to place the 
receptionist on paid leave in order to protect her. The abuser then 
showed up on the premises with a loaded gun and threatened to kill 
employees if her significant other did not come out to see her, while 
her four small children were in her car observing. Although the 
employee had obtained a restraining order against her, and although the 
police were called to subdue the situation and arrest her, she posted 
bail and later was involved in a drive-by shooting at the victim's 
resident. She ultimately spent time in jail, but was later released and 
resumed her relationship with this gentleman, in spite of all the 
efforts the employer had made to protect him and other employees. 
Thereafter, the relationship would become volatile (violence and 
threats) again. The employer finally determined that the only way to 
protect the safety of the entire workforce was to terminate his 
employment.

                           EMPLOYER RESPONSE

    Over the last decade, employers have begun to recognize the impact 
domestic violence has on the workplace and have actively sought to 
mitigate its potential effect on their organization. Certainly, 
progress varies across the professional landscape; while some employers 
are just starting to develop and implement workplace violence programs, 
other organizations have been leaders in the fight against domestic 
violence and have long provided support and resources to victims. The 
SHRM Knowledge Center is frequently contacted in regards to issues 
relating to domestic violence in the workplace. Specifically, HR 
professionals are interested in learning how to implement successful 
workplace policies, make available victim referral services, and 
establish workplace security measures around workplace violence events.
    SHRM strongly believes that every employee is entitled to a safe 
work environment, and HR professionals play a critical role in ensuring 
their organizations provide necessary support. HR professionals can 
help their organizations create and foster a culture that promotes 
diversity, effective communication and the dignity and respect of all 
employees.
    To reinforce this culture, it is SHRM's view that organizations 
need domestic violence policies that ensure a consistent and uniform 
organizational response to domestic violence and limit the occurrence 
of violent incidents. Employers need policies that outline ways the 
organization can support victims and the safety of all employees. Once 
a policy is in place, an employer must make sure all employees are 
aware of it through communication, training and enforcement. To reduce 
violence at the workplace, it is critical that employers create 
workplaces where employees will feel free to come forward by ensuring 
their situation is handled in a sensitive and confidential manner.
    Progressive employers who have addressed this issue realize the 
complexities of dealing with domestic violence in the workplace. They 
understand there is no ``one-size-fits-all'' approach to providing 
assistance when domestic violence finds its way into the workplace. 
Each situation must be evaluated on a case-by-case basis. Employers 
have established multi-disciplinary teams that are charged with 
evaluating workplace violence issues as they arise. These teams are 
normally comprised of human resource, security, safety, legal, and 
operations personnel who have been trained in evaluating and handling 
workplace violence situations. These teams often have outside 
consultants on call, such as psychologists and law enforcement 
personnel who have expertise in domestic violence evaluation and 
intervention.
    When these teams evaluate domestic violence situations, the first 
issue is to assess whether the domestic violence has infiltrated the 
workplace, and if not, the likelihood that it might. The next step is 
to assess the risk to the workplace as a whole. Numerous factors must 
be taken into account. These factors include: (1) whether the abuser 
has visited the employer's premises; (2) the abuser's behavior while on 
any of the employer's property (including parking lots, etc.); (3) 
whether the abuser has been contacting the victim at work; (4) the 
nature of any communications the abuser has had with the victim at 
work; (5) whether the abuser has threatened or attempted to penetrate 
the employer's security measures; (6) whether the abuser has threatened 
other employees or the employer's property; (7) whether the victim has 
obtained a restraining order; (8) whether the victim is seeking 
assistance from a lawyer, the courts, domestic violence advocates, a 
therapist, and other resources; (9) whether the abuser has previously 
caused physical harm to the victim; (10) whether any efforts by the 
employer to assist the victim will increase the likelihood, nature, or 
extent of violence in the workplace; (11) whether the victim has 
children who are also at risk; and (12) whether the victim will fully 
cooperate and not undermine any assistance the employer provides.
    Psychological experts on domestic violence have advised employers 
that they must be careful about the steps they take to assist victims 
when domestic violence finds its way into the workplace. Even seemingly 
helpful measures such as providing time off to the victim, changing the 
victim's telephone extension, refusing to allow the abuser to speak 
with the victim by telephone, requiring the victim to obtain a 
restraining order, and refusing to tell the abuser whether the victim 
is or is not at work can jeopardize the safety of the entire workforce. 
Abusers, who have anger and control problems, often perceive such 
efforts as a conspiracy between the employer and the victim. They 
become frustrated, angry, and feel out of control when employers make 
it difficult for them to access their victims. Unfortunately, and in 
too many cases, the employer and other employees unwittingly become 
additional targets of violence because of their good faith efforts to 
help or protect the victim.
    As I mentioned earlier, I have advised numerous employers on 
workplace violence and workplace domestic violence situations. I have 
found employers to be extremely compassionate about the challenges 
facing victims. I have also found them to be more than willing to 
provide reasonable assistance to victims (including reasonable time off 
from work), without a government mandate, as long as the assistance did 
not jeopardize the safety of the rest of the workforce. In fact, a new 
Federal mandate, as proposed in the SAFE Act, could prevent an employer 
from properly assessing and reacting to the unique situation they are 
facing.
    I encourage employers and my clients to adopt voluntary policies to 
address domestic violence in the workplace, as employers need 
flexibility when providing any particular measures or benefits when 
domestic violence becomes a workplace issue. Every situation has to be 
evaluated on a case-by-case basis, with safety of the entire workforce 
being the top priority.
    I am not familiar with any data that demonstrates that employees 
have been discriminated against by their employers because of their 
domestic violence situations or that employers are regularly 
terminating their employment because of the domestic violence. Many of 
the statistics surrounding the issue of domestic violence come from 
victim studies. To serve as a useful guide for employers and public 
policy makers, this information must be combined with the experience of 
employers and experts on the psychological and safety aspects of 
domestic violence. Because of the many factors that must be considered 
when domestic violence enters the workplace, Congress would be remiss 
in mandating any measures unless adequate research examining the total 
picture has been done.
    The Occupational Safety and Health Administration (OSHA) has 
studied the issue of workplace violence for many years. However, to 
date, OSHA has only issued guidelines and elected not to issue 
regulations because of the difficulty in mandating specific standards 
when there are no easy answers, many factors are involved, and there is 
no perfect solution.
    Before any Federal employment legislation is considered, the 
government should thoroughly research best practices already utilized 
by employers to address domestic violence situations, provide 
guidelines to employers on how to assess workplace risks of domestic 
violence, encourage employers to provide victims with referrals and 
resource materials, encourage employers to take steps to increase 
workforce awareness of domestic violence issues, and consult with 
psychological and law enforcement experts on the risks of well-
intentioned intervention by employers.

                  GENERAL COMMENTS ABOUT THE SAFE ACT

    The SAFE Act incorporates concepts from the Family and Medical 
Leave Act (FMLA), the Americans with Disabilities Act (ADA), the Fair 
Labor Standards Act, and various Federal laws on domestic violence 
(such as the Higher Education Amendments of 1998 and the Violence 
Against Women Act). It gives enforcement power to the Department of 
Labor (DOL), rather than the Equal Employment Opportunity Commission 
(EEOC) or OSHA, who have far more familiarity and expertise in dealing 
with employment discrimination and safety issues.
    SHRM is concerned that the legislation primarily focuses on 
protecting individual victims of domestic violence and ignores the 
inevitable workplace safety issues that will arise and affect other 
employees and entire workforces. SHRM believes that there needs to be a 
balance between the interests of a victim and the welfare of all other 
employees who, due to no fault of their own, often become 
unintentional, additional victims of the domestic violence.
    The other major challenge with the SAFE Act involves numerous 
implementation and interpretation challenges. In an effort to protect 
victims, it overlooks the realities of the workplace and the 
difficulties that employers will have in administering its provisions. 
SHRM also has concerns with the leave benefit provisions of the 
legislation. Both of these issues are addressed later in these comments

                             LEAVE BENEFITS

    The SAFE Act would provide a Federal entitlement to workers to 
emergency leave in the event of domestic or sexual violence. As I 
understand it, one of the purposes of the SAFE Act is to allow victims 
of domestic violence to take time off from work to make court 
appearances, seek legal assistance, and get help with safety planning. 
However, I question the necessity of a Federal requirement that 
employers provide an entirely new category of leave when employees 
virtually always have available other types of leave.
    There are no data to suggest that current leave programs fail to 
provide adequate time off for victims of domestic violence. Employers 
nationwide are committed to providing voluntary paid leave to their 
employees because offering competitive workplace benefits allows 
employers to increase employee morale, retention, and productivity, all 
of which are crucial elements to organizational success.
    In fact, a majority of employees view paid time off as one of the 
more important benefits an employer can offer. For example, employee 
benefits were cited as the second-most important recruitment and 
retention factor behind only compensation in the 2005/2006 SHRM Job 
Satisfaction Survey Report. To compete for talent, most employers 
currently provide voluntary paid vacation, paid sick days, paid 
personal days, paid time-off (PTO) plans and liberal attendance 
policies. These benefits come at a significant cost to employers, as 
roughly 31 percent of payroll is spent on benefits (both voluntary and 
involuntary benefits). Moreover, the cost of these voluntary benefits 
increased by 29 percent in 2006 over the previous year.\2\ Even with 
these benefit cost increases, employers continue to offer these 
benefits because they are committed to helping their employees balance 
the demands of both their work and personal lives.
---------------------------------------------------------------------------
    \2\ 2006 SHRM Benefits Survey Report.
---------------------------------------------------------------------------
    Many employers also offer nontraditional scheduling options to help 
accommodate employees' work/life balance. According to the 2006 SHRM 
Benefits Survey Report, 35 percent of organizations allow for 
compressed workweeks, where full-time employees are allowed to work 
longer days for part of a week or pay period in exchange for shorter 
days or a day off during the same period. Such scheduling benefits give 
another dimension of flexibility to employees who are dealing with 
domestic violence issues.
    Since many employers already offer paid leave voluntarily to their 
employees, a Federal mandate requiring leave for domestic violence 
could have the opposite effect of its intention. It is likely that some 
employers would be forced to reduce existing employee benefits in order 
to comply with a new Federal standard for domestic violence-related 
leave. In this way, any Federal initiative that limits employer 
flexibility tends to work against employees. This reality has been 
well-documented in several congressional hearings since enactment of 
the Family and Medical Leave Act. Employers that provided generous paid 
leave benefits prior to the FMLA's enactment have been impacted the 
most by the act's provisions. The end result has been more 
organizations rethinking their existing sick leave programs and the 
voluntary expansion of paid leave policies. Adding a new type of leave 
system will only heighten this concern, and will discourage employers 
from implementing additional improvements in their paid leave programs.
    Moreover, under current law, employees already have access to job-
protected leave under the FMLA, which was established to assist 
employees in balancing their work and family life. The law guarantees 
eligible employees 12 workweeks of unpaid leave during any 12-month 
period for the birth or adoption of a child or for an employee's 
serious medical condition or to care for a parent or child. Some States 
have additional family and medical leave requirements as well. Federal 
law does not require FMLA leave to be paid, but 32 percent of HR 
professionals responding to the 2006 SHRM Benefits Survey Report 
indicated that their organizations did offer some paid family leave. 
Twenty-seven percent of HR professionals reported that their 
organizations offered family leave above required Federal FMLA leave, 
and 25 percent offered family leave above required State FMLA leave.
    The leave benefits proposed in the SAFE Act provide for six (6) 
weeks of time off. This time off is in addition to any FMLA leave 
benefits to which the employee is entitled. There is no requirement 
that these 6 weeks run concurrently with FMLA leave. Being the victim 
of domestic violence is emotionally and psychologically traumatic, and 
as a practical matter, it is highly likely that the situation would 
qualify as a serious health condition under the FMLA, allowing the 
victim to take up to 12 weeks of leave.

                         UNEMPLOYMENT BENEFITS

    The legislation not only proposes that employers provide 6 weeks of 
time off, it also requires unemployment benefits for victims of 
domestic violence who are separated from employment ``due to 
circumstances resulting from the individual's experience of domestic 
violence.'' There is no requirement that the victim must actually 
remove himself/herself from the abuser's household. SHRM is concerned 
that language in the SAFE Act would allow an abuser to manipulate the 
victim by forcing a victim to quit his/her job and stay home (in the 
abuser's household) while collecting unemployment compensation at the 
same time. Employers should not be required to fund unemployment 
benefits when the victim has not taken steps to actually remove 
himself/herself from the abusive situation.

               DISCRIMINATION AND ACCOMMODATION BENEFITS

    The discrimination provisions in the legislation prohibit 
discrimination because an applicant or employee: (1) is or is perceived 
to be a victim of domestic violence; (2) participates in legal 
proceedings related to the domestic violence; or (3) requests an 
accommodation to increase his/her personal safety in the workplace. As 
a result, an employer would also have a ``duty to reasonably 
accommodate'' the employee. However, unlike the ADA, the legislation 
does not provide a process to engage the employee to determine what 
type of accommodation is necessary. If the employer requires the 
employee to take a leave of absence because the abuser is harassing or 
stalking the employee at work, and if the employee refuses to do so, it 
could be considered a discriminatory practice. If the employer requires 
the employee to adjust his/her work schedule and the employee refuses, 
it could be considered discrimination if the employer insists upon it. 
If the employer refuses to install additional locks or other security 
measures, it could be considered discrimination. Unlike the ADA, the 
SAFE Act does not require an interactive process for evaluating 
accommodations.
    More significantly, the SAFE Act specifically states that:

        ``an employer shall not . . . discharge . . . or otherwise 
        discriminate against any individual . . . because the workplace 
        is disrupted or threatened by the action of a person whom the 
        individual states has committed or threatened to commit 
        domestic violence, dating violence, sexual assault, or stalking 
        against the individual, or the individual's family or household 
        member.''

    This language raises serious concerns about an employer's ability 
to ensure a safe workplace. For example, consider the situation in 
which an abuser has threatened to kill other employees because they 
will not disclose the whereabouts of the victim or will not provide 
telephonic or in person access to the victim. In this situation, the 
welfare of other employees is certainly being threatened, but under the 
SAFE Act, employers would be prohibited from terminating or placing on 
administrative leave the employment of the victim, even when such 
termination might be the only way to remove the safety risk from the 
workplace.

                        IMPLEMENTATION CONCERNS

    I understand the desire of members of the subcommittee to help 
victims of domestic violence. Although well-intentioned, the SAFE Act 
includes a host of broadly based employment-related provisions that 
would negatively impact employers. Moreover, these provisions conflict 
with other Federal and State employment laws, which will cause 
confusion for both employers and employees. In particular, the bill 
would invite confusion with the FMLA and State FMLA laws.
    The SAFE Act would apply to employers with as few as 15 employees. 
The bill would be a monumental new requirement on small employers that 
are not currently covered under the FMLA. Also, unlike the FMLA, there 
is no service eligibility requirement under the SAFE Act, so an 
employee who has been with an organization even 1 day would be eligible 
for the 30 days of leave, and all part-time employees are presumably 
covered under the proposed legislation as well.
    Employers would face many implementation and interpretation 
problems if the SAFE Act were enacted. I have outlined a number of 
these issues below.
    New Federal Leave Statute.--The SAFE Act proposes an entirely new 
Federal leave statute for addressing employees, or employees' family 
members, who are victims of domestic violence. The leave provisions 
entitle employed victims of domestic or sexual violence to take 30 days 
(6 workweeks) of leave in any 12-month period to seek medical help, 
legal assistance, counseling, safety planning, and other assistance. A 
victim of the kind of domestic violence contemplated by the proposal is 
under substantial personal stress that normally results in one or more 
psychological conditions (such as post-traumatic stress syndrome, 
battered woman syndrome, startle response syndrome, and a host of other 
related conditions). These conditions would, in all likelihood, qualify 
as a psychological serious health condition under the FMLA. Therefore, 
the FMLA already provides adequate leave.
    Impact on Small Employers.--The SAFE Act would apply to employers 
with 15 or more employees, placing significant new requirements on 
small employers that are not currently covered under the FMLA. Instead 
of burdening small employers, Congress might consider incentives for 
employers to provide additional resources or benefits to employees who 
may be victims of domestic violence.
    Coordination with Other Laws.--Many of the SAFE Act provisions are 
not coordinated with other Federal and State employment laws, which 
will cause confusion for both employers and employees. Most notably, 
they are not coordinated with the FMLA or the ADA, or OSHA. They will 
be administered by the DOL, rather than EEOC or OSHA who have far more 
experience with discrimination and accommodation issues.
    Interaction with Other Laws.--The psychological condition of the 
victim could potentially qualify as a ``serious health condition'' 
under the FMLA and a ``disability'' under the ADA. This invites 
confusion as to which law will apply and how they will relate to each 
other. For example, there is no requirement that domestic violence 
leave run concurrently with FMLA, when the leave would in all 
likelihood qualify as FMLA leave. The bottom line is that the SAFE Act 
expands the FMLA entitlement from 12 weeks to 18 weeks when the 
additional 30 days of domestic violence leave is added to it. 
Furthermore, an employee may elect to use paid time off while on 
domestic violence leave, whereas under the FMLA, an employer can 
require that paid time off be used. If the victim's psychological 
condition qualifies for leave under the SAFE Act, FMLA, and ADA, which 
law will take precedent? Can an individual circumvent each law by 
stacking leave under each one of them?
    Ambiguous Definitions.--Many of the definitions in the SAFE Act are 
overly broad and could result in interpretation disputes.

    1. ``Domestic Violence.''--The definition of ``domestic violence'' 
is not clear. The proposal adopts the definition in the Higher 
Education Act amendments. However, that definition states that domestic 
violence ``includes felony and misdemeanor crimes of violence.'' What 
else does it include? Are employers supposed to become experts on what 
constitutes ``crimes of violence?'' Must there actually be a conviction 
for a crime of violence for the abuser's conduct to constitute 
``domestic violence?''
    2. ``Family Member.''--The definition of ``family member'' includes 
the abuser and perhaps others not intended by the proposal. The abuser 
could purportedly take leave to appear in court where he/she is being 
prosecuted for a crime of domestic violence. The abuser could also take 
leave for his/her own psychological condition to purportedly attend 
counseling, but without any required proof that he/she used the time 
off for that purpose, the abuser could just as likely use the leave to 
harass, stalk, and threaten the victim.
    3. ``Perceive Victims.''--The civil rights protections apply not 
only to victims, their family and household members, but also to those 
``perceived'' by the employer to be victims even though they had never 
suffered any actual threats or violence. It is unclear what is meant by 
``perceived'' or how it would have any relevance if the individual is 
not actually a victim of domestic violence.
    4. ``Victim.''--If co-workers become an unintended target of the 
domestic violence, there is an argument that they may be covered by the 
proposal as a ``victim.''

    Accommodation Process.--Unlike the ADA, there is no requirement 
that the victim engage in an interactive dialog with the employer to 
identify and evaluate the effectiveness of possible accommodations. 
There is no protection for employers should a victim refuse to 
cooperate with any protective measures that the employer might feel 
would be appropriate. For example, if the employer complies with a 
request by a victim for a different telephone number at work so that 
the abuser cannot reach him/her directly, and if the employee then 
turns around and gives the new number to the abuser, should the 
employer have any further duty to accommodate? Unfortunately, there is 
no provision in the SAFE Act that would require the victim to have a 
genuine and demonstrated commitment to improve his/her situation or to 
refrain from contributing to workplace safety risks.
    ``Direct Threat''.--As mentioned earlier, an employer is basically 
prohibited from protecting other employees who may be threatened by the 
abuser. The victim's welfare is required to be protected even at the 
risk of the safety of other employees. SHRM is concerned that the 
legislation overlooks the effects that the domestic violence may have 
on other employees, including their overall safety. Unlike the ADA, the 
SAFE Act includes no ``direct threat'' defense when the domestic 
violence poses a significant risk of substantial harm to the safety or 
health of the victim or other employees. If the victim's safety or 
other employees' safety is at risk, employers should be able to apply 
the direct threat concept and defense. If the employee does not request 
an accommodation or believes one is not necessary, and if the employer 
disagrees because the victim's or other employees' safety is in 
jeopardy, there is no mechanism that would allow an employer to force a 
needed accommodation without potentially violating the proposal's anti-
discrimination provisions that protect ``perceived'' or actual victims.
    Victim Commitment.--Another concern with the SAFE Act is that it 
does not require that the victim have actually left the abusive 
situation and does not require that the victim refrain from conduct 
that would undermine any assistance provided by the employer. For 
example, it will apply to victims who stay with their abusers. It is 
not unusual for victims to pursue avenues for leaving the abusive 
situation, but then return to the abuser. The bill would allow a victim 
to prepare to leave over and over again without really doing so, year 
after year. At some point, an employer should not be required to 
provide further assistance if the victim is not genuinely committed to 
permanently removing himself/herself from the abuse.
    Certification Requirement.--Another practical concern with the 
proposal is the certification requirement. The bill allows an employee 
to simply provide a sworn statement of the employee that he/she is the 
victim of domestic violence without any corroborating proof. The entire 
leave entitlement rests solely on an employee's word or attestation 
with no verification required from a third party. This raises concerns 
about fraudulent uses of the leave, as there is nothing preventing 
anyone from merely claiming he/she is a victim of abuse and receiving 
the benefit.
    Verification Requirement.--The proposed bill does not permit 
employers to obtain verification that the employee actually spent his/
her time off for one of the stated purposes.
    Timeframe.--There is no provision requiring that the domestic 
violence be recent enough to justify any time off. An employee could 
produce a police report of domestic violence that is 3 years old and 
still be entitled to take the leave.
    Confidentiality Requirement.--Information in connection with 
domestic violence leave or reasonable accommodation of an employee's 
circumstances must be maintained in the ``strictest'' confidence. Such 
strict confidentiality is not necessarily in the victim's best 
interests or the workforce's best interests. For example, if the 
receptionist who answers all calls knows the victim is absent, but does 
not know the victim has gone to court to get a restraining order or is 
making arrangements to move to a shelter, the receptionist might 
inadvertently take a call from the abuser and tell him/her that the 
victim is not at work that day. The abuser would not have known it in 
the absence of that disclosure, could get very angry, and could then 
physically abuse the victim later for not being at work. Also for 
example, an abuser may have told the victim that he/she would harm or 
kill any co-worker who interferes with his/her attempts to reach the 
victim at work. The victim passes along this threat to the HR manager 
when the victim requests time off. Under the confidentiality provisions 
of the bill, the HR manager would be prohibited from warning other 
employees that their safety or lives might be in jeopardy. A better 
approach would be to require a good faith effort by the employer to 
maintain confidentiality to the extent reasonably possible under the 
circumstances, but an employer should not be restricted from disclosing 
information that it reasonably believes would be beneficial in 
protecting the victim or other employees.
    Purpose of Leave.--Under the proposal, there is a very real 
possibility that an abuser could take advantage of the situation by 
requiring his/her victim to take ``domestic violence leave'' to stay 
home, go on vacation, or engage in other activities under a threat of 
violence. Rather than risk physical abuse to self or perhaps his/her 
children, the victim will be inclined to go along with the abuser's 
wishes, knowing that the leave is job-protected. This will only 
perpetuate the abusive situation, not end it as presumably intended by 
the bill.
    Service Eligibility Requirement.--Unlike the FMLA, there is no 
service eligibility requirement under the SAFE Act, so an employee who 
has been with an organization even 1 day would be eligible for the 30 
days of leave.
    ``Hours Worked'' Eligibility Requirement.--Unlike the FMLA, there 
is no ``hours worked'' prerequisite under the SAFE Act. All employees 
would be covered, including temporary, seasonal, contract labor, and 
part-time employees. An employer's efforts to adequately staff to meet 
business needs can be easily undermined by an employee who simply hires 
on, even as a temporary employee, knowing that he/she can immediately 
request time off with guaranteed reinstatement rights.
    Duration of Leave.--There is no basis or justification for 
mandating six (6) weeks of leave, as opposed to a shorter amount of 
leave, especially given that other leave programs are usually 
available. Six weeks seems to be an excessive amount of leave and could 
invite misuse of the leave provisions.
    Intermittent Leave.--SHRM is also concerned that the proposal 
stipulates that the 30 days of leave do not need to be taken 
continuously, but can be taken on an intermittent basis and advance 
notice is not required. Leave taken on an intermittent basis under the 
FMLA has resulted in a host of challenges for HR professionals. It is 
often difficult to track an employee's intermittent leave usage, 
particularly when the employee takes leave in small increments. In 
addition, unscheduled, intermittent leave poses staffing problems for 
employers. When an employee takes unscheduled, intermittent leave with 
little or no advance notice, organizations must cover the absent 
employee's workload by reallocating the work to other employees. For 
example, 88 percent of HR professionals responding to the 2007 SHRM 
FMLA Survey Report indicated that during an employee's FMLA leave, 
their location attends to the employee's workload by assigning work 
temporarily to other employees.
    Statute of Limitations.--The statute of limitations for filing a 
claim under the SAFE Act is 2 years, even though it is only 300 days 
maximum for discrimination under the Civil Rights Act, the ADEA, and 
the ADA. This could suggest that discrimination based on domestic 
violence is given more weight than discrimination based on sex, race, 
national origin, religion, age, and disability.
    Leave as an Accommodation.--In light of the fact that the 
reasonable accommodation provisions require that a leave of absence be 
considered as an accommodation, there is no reason to mandate 6 weeks 
of leave. This creates an incredible inconsistency and could also be 
interpreted to mean that more than 6 weeks of leave might be a 
reasonable accommodation.
    Unemployment Provisions.--The proof of domestic violence required 
for unemployment purposes is inconsistent with the proof required for 
the leave and discrimination portions of the proposal. Interestingly, a 
State would not be required to merely accept a sworn statement by the 
victim, whereas an employer would be required to do so. There appears 
to be no legitimate reason why two different standards should be used.
    While the purpose of the SAFE Act is a laudable one, the unintended 
consequences of this legislation suggest that it is not the best 
approach for helping victims of domestic violence. Another approach 
that would be far less disruptive to employers and employees would be 
for Congress to provide Federal grants, tax incentives/credits, or 
training program initiatives for employers. Under such initiatives, 
employers would be encouraged to employ and train victims of domestic 
violence and collaborate with shelters for victims of domestic violence 
to provide employment and other resources. Such programs would be 
particularly attractive to larger employers, who are in a better 
position to employ, provide resources and assistance to, and protect 
victims. Large employers might very well view such an initiative as an 
attractive opportunity for contributing to the community on a social 
issue of great importance. In addition, they could lead the way for 
developing best practices and evaluating the success and challenges of 
such initiatives so that other employers could learn and benefit from 
their experiences.
    Again, thank you for the opportunity to provide my perspective on 
an issue that is important to me both personally and professionally. 
SHRM is committed to working with members of the subcommittee to 
formulate policies that will encourage employers to continue to offer 
reasonable leave benefits that support their employees as they respond 
to personal needs. I look forward to answering any questions you might 
have.

    Senator Murray. Thank you very much. I'm sorry about the 
time limit. We just want to make sure everybody has an 
opportunity to ask questions here as well. But we will submit 
all of your testimony for the record, as I said.
    As we sit here today, obviously all stunned by what 
happened on the campus yesterday, none of us know the facts and 
we shouldn't jump to conclusions and certainly, we'll all be 
watching and waiting to see what happens, to see what kind of 
appropriate response needs to occur. But we do know that in my 
home State, a University of Washington employee was recently 
murdered and as we said, an employee at CNN Atlanta hotel 
recently and I think the question that is so important, is do 
we still, in this country, do we see domestic violence as just 
domestic violence and don't see it as a community response. Is 
that still a challenge for us today and I'd like to ask each 
one of you.
    Kathy.
    Ms. Rodgers. Yes, Senator. I think that is very definitely 
still a problem. We've made great progress, as you said before 
and we have a national policy, which recognizes domestic 
violence as a crime but all of society has not come around to 
that point of view and I would just say, look at the numbers in 
terms of employers. Only 4 percent have some sort of voluntary 
policies that apply to these issues. Clearly, they need to be 
spending more time thinking about them and providing some kinds 
of solutions. I'll stop there on that question.
    Senator Murray. OK, thank you.
    Ms. Fortman.
    Ms. Fortman. Yes, I think we are still seeing that it is 
not integrated into how we're looking at all aspects of a 
person's life. I think the workplace is an area that even when 
we do have supportive employers--I think I would consider 
myself a supportive employer--and yet we did more after the 
governor gave us an Executive order. We created a voluntary 
poster. Our Department of Conservation came up with new 
strategies for helping victims of domestic violence and sexual 
assault in their parks. Having that added push really caused us 
to focus in a different way on this issue and the workplace is 
the area we need to be looking at now.
    Senator Murray. Ms. Cade.
    Ms. Cade. Could you repeat the question?
    Senator Murray. Do you think that we see domestic violence 
today still as too much of just a person's problem rather than 
as it can grow into something bigger and affect the entire 
community and needs a community response?
    Ms. Cade. Since my attack on October 10, I don't know if I 
paid very much attention before but it seems like my attack was 
like a highlight and I received national and international 
attention. So I believe, through my experience now, yes, that 
employers are more and more jumping on board and trying to 
learn about workplace safety. But they do need training to back 
up, just--even in my case, my manager was in the store but he 
didn't help me. He didn't call 911, to my knowledge.
    My co-worker--she called 911. She knew that I had a 
protective order but I felt it was my manager's place to 
contact authorities as well. I've been informed he had not and 
from my experience, I could have gotten off my job that day, if 
the law was put in place. He called me at 2:30 in the morning 
and said he was going to fry me like Crisco grease. I could 
have contacted my employer instead of me trying to keep my job, 
showing up to work at 8:30 to open the doors at 9:00, being set 
on fire at 9:30, instead of me having to choose my job, being 
fired or going to the courthouse that morning. I had no clue 
that Judge Richard Palumbo had dropped--I thought dismissed 
meant the current protective order was still in place. But this 
is a mark, in December 2005, the Violence Act Against Women, 
they are taking it seriously. Thank you.
    Senator Murray. Ms. Willman.
    Ms. Willman. Employers have made a great deal of progress 
in raising their awareness on domestic violence in the 
workplace as well as violence in the workplace and there is 
still more room for improvement. I am in favor of employers 
voluntarily adopting policies, conducting training, offering 
support groups in the workplace, making an environment where 
victims feel free to come to their employer for assistance 
because I do believe employers will be very supportive of that 
in the absence of legislation.
    But if we really want to attack this problem, we also have 
to look at it from another community angle and that is 
increasing the educational resources for children in school. 
This is one of the suggestions Ms. Cade makes in her written 
comments and I agree with it 100 percent. We have to start 
educating people about what normal families look like, what 
abuse is, where these children can go get resources because 
many of them are going to be the abusers of the future. So if 
we want to really attack the problem, we have to go to the 
source of why it's occurring in the first place and a 
multipronged approach at the school level, in work places, to 
increase everybody's awareness, is probably the route to go, in 
my opinion.
    Senator Murray. Thank you very much. I appreciate it.
    Senator Isakson.
    Senator Isakson. Thank you, Chairman Murray. Ms. Fortman, 
what are the enforcement provisions that you have in your 
department in Maine?
    Ms. Fortman. We have the authority to--it's damages and 
restoring wages if wages are lost. So there is not a huge 
incentive to--it's not a huge punishment. One of the things 
that we have seen is that we're getting very few complaints. So 
this may mean that people are voluntarily complying. We've 
looked at the numbers for the past 5 years and in 2003, there 
were no complaints and we found no violations of the law. In 
2004, again, there were no complaints. In 2005, there were only 
two complaints and one of those complaints, the employer was 
found to be in violation. So there seems to be fairly either 
high compliance with the law that is in place or fairly low 
knowledge that the law exists.
    Because that's the other issue, Senator, is that there is 
no mandatory outreach campaign so there is some concern that 
both victims and employers may not be aware that this law is in 
place and when it is brought to the employer's attention, it 
appears that there is compliance.
    Senator Isakson. But if I understand it right, you would--
in the case that you did make a determination on, you have the 
ability to force them to restore compensation, things of that 
nature if somebody was denied that.
    Ms. Fortman. That's correct, Senator.
    Senator Isakson. OK. Ms. Rodgers, in the testimony of Ms. 
Fortman, the printed testimony, she refers to a study that 
spikes my interest in asking you a question. They had 120 women 
who volunteered information regarding their story and 60 
percent of domestic violence victims or survivors lost their 
jobs. Forty-three percent were fired and 57 percent quit. That 
was in the study in your testimony.
    My question to you, in your recommendations regarding 
unemployment compensation, is someone eligible whether they 
quit or whether they are fired or if they quit, is there some 
substantiation they have to make in order to be eligible?
    Ms. Fortman. Well, many States do provide unemployment 
insurance to women who are forced to leave their jobs, which I 
think is different than quitting.
    Senator Isakson. I agree.
    Ms. Fortman. I think it's a big difference in the sense 
that they want those jobs and they are forced to leave them and 
they can get unemployment insurance and different States do 
things in different ways. Some kind of flexible certification 
requirements where a woman might have to provide a medical 
certificate or she may provide something from a service 
provider--her safety plan--some kind of a system that is 
flexible. That's fine. I mean, I don't believe that the system 
is abused because people want their jobs and they want to 
support their kids.
    And when they get fired, the case there is that they have 
plainly been fired because of the domestic violence and the 
employer knows that. Certification becomes a different issue 
there.
    Senator Isakson. So they become eligible if they're fired. 
They need substantiating evidence if they decide, if they elect 
to quit. But they would be eligible either way.
    Ms. Fortman. Either way, they would be eligible, 
absolutely. This is firing for cause. They should not be fired 
because of somebody else's crime.
    Senator Isakson. Correct. Ms. Willman, you made a statement 
regarding the--and I have not seen Chairman Murray's 
legislation either. You said you had some concern about 
protecting the individual at the risk of safety to others?
    Ms. Willman. Yes.
    Senator Isakson. Would you elaborate on that?
    Ms. Willman. Yes. Many times, domestic violence in the 
workplace affects other employees in the sense that their lives 
get threatened. They are brought into the dispute. Abusers are 
very controlling people and that is part of the issue and when 
they view anybody as assisting the victim, they look at it many 
times as a conspiracy.
    So another employee who may keep the victim's whereabouts 
private and won't tell the abuser when he or she calls in, will 
not let the abuser speak to the victim and even the employer 
who provides time off or other assistance to the victim, can 
become targets of the violence and that is not unusual in the 
workplace when it infiltrates to that level where other 
employees' safety is affected and that's a major concern for 
employers when they're dealing with any kind of violence in the 
workplace.
    Senator Isakson. Thank you. Thank you, Madam Chairman.
    Senator Murray. Senator Clinton.

                  Opening Statement of Senator Clinton

    Senator Clinton. Thank you very much, Chairman Murray and 
thank you to Senator Isakson for calling this hearing. I'm 
really pleased that the scourge of domestic violence is back on 
the agenda and certainly the impact of it in the workplace is 
being seen as a very significant problem for a lot of people.
    I want to thank the witnesses particularly for being here 
and Ms. Rodgers, thank you for all the great work that you do 
in New York and the results of that great work is that we do 
have more flexibility and more support for victims of domestic 
violence in the workplace.
    I want to just quickly ask Ms. Rodgers first, for the last 
couple of years, I have teamed up with Senator Crapo to 
increase awareness about Liz Claiborne's Love is not Abuse 
curriculum, which I think is something that Ms. Willman also 
mentioned. Try to get into the schools to convince young women 
and young men that just because they see it on TV or they hear 
about it in a song doesn't mean that they should do it.
    So we have a lot of work ahead of us and I'm very familiar 
with some of the work that you do. How could you sort of marry 
up some of the points we've made today, Ms. Rodgers? You know, 
we do need legal protections but we also need outreach and 
education. Those are not mutually exclusive. In fact, they go 
hand in hand and perhaps you could explain some of what Legal 
Momentum has done.
    Ms. Rodgers. Well, I agree they go hand in hand and I also 
agree with Ms. Cade that the sooner that we can start educating 
our young children that violence is not the solution to the 
problems that they perceive out there, the better off we all 
will be. We can also have education programs. There are a 
number--again, far too few, but companies like Harmon 
International, American Express, Liz Claiborne, with whom we 
have partnered, who are doing wonderful training programs with 
their peers and colleagues and other similar corporations, 
which is very helpful, although Federal legislation, which 
applied to these national employers, would set a common 
standard and it would not be so confusing for people, including 
employees. So those kinds of training programs are important 
and corporations that support both--teaching of colleagues and 
peers and students is wonderful.
    But there is another issue here, which is the violence is 
happening now. Lives are being affected now, today and every 
day. Sometimes lives are lost. But even if they are not lost, 
they are scarred and they are ruined in many, many ways. We 
can't use a voluntary program, we can't use educational 
programs to replace the need to put programs and policies in 
place now, which will protect those who are out of school, 
which will protect the employees who don't have the options 
about providing training or getting training.
    So the multipronged approach has to include these measures 
for the long-term and also imposing--giving a strong push to 
employers to do something now, for people who are at risk 
today.
    Senator Clinton. I agree with that because I think that the 
impact on the individual and on the workplace and productivity 
is certainly significant. I wanted to ask you, Ms. Fortman, is 
Maine one of the States that provides for unemployment 
insurance to be available in the event of domestic violence 
forcing someone to leave a job?
    Ms. Fortman. Yes, it is, Senator and I'd like to just 
follow up on that a little bit. Earlier it was mentioned about 
if someone has to voluntarily leave their job. When we were 
looking at that under other statutes--before we changed the 
statute, one of the things that would happen is that it would 
be considered a voluntary quit, if the person felt that they 
could no longer show up at that workplace because as Ms. Cade 
pointed out, that's where the abuser knows that you are. So if 
that person had called in, for example, if Ms. Cade had called 
in and said, I can't come back to work anymore. In our State, 
prior to expanding it to cover domestic violence, she would not 
have been eligible for unemployment.
    Now, if she called in, we would be looking at that, looking 
at whether or not there was a domestic abuse case involved 
there and she would be if she met the eligibility requirements, 
be able to collect unemployment in that situation. And again, I 
believe it was in Ms. Rodgers' written testimony, in the States 
that do have unemployment insurance for victims of domestic 
violence that is also not incredibly burdensome. In our State, 
it's a cost that is shared by all employers and again, it's a 
very low number. There were approximately 52 people who were 
eligible for that since approximately 1998.
    Senator Clinton. I think if Ms. Cade had been working in 
the District of Columbia when she was attacked, she would have 
been eligible for unemployment insurance compensation. And Ms. 
Cade, I want to really thank you for your being willing to 
become a spokesperson on behalf of so many women who are not 
going to have anybody speaking up for them unless someone like 
you does. And I think you have some family members here with 
you, don't you?
    Ms. Cade. Yes. My mother and father and two sisters.
    Senator Clinton. And I know how much that family support 
has meant to you in the last 2 years as well.
    Ms. Cade. Yes. I'd just like to make a comment. I know the 
committee is not focused on employment issues but I would like 
to say a word in support of anti-bullying programs at all 
levels of education. Train a child the way they should grow. I 
don't know if this is particularly a class but somehow they can 
intertwine the program in health and science classes throughout 
the year so these children will be able to identify appropriate 
and inappropriate behaviors.
    Senator Clinton. I think that's very important and if I 
could, just one final question for Ms. Willman. In your 
testimony that you just gave, you talked about perhaps some 
kind of incentives that would assist small employers to address 
domestic violence. What type of incentives would you suggest, 
Ms. Willman?
    Ms. Willman. Well, incentives--I probably had more in 
mind--would be ones targeted to the larger employers so that 
they would absorb more of the burden of being the trailblazers 
in this area. Some kind of incentives or training money where 
they would partner with shelters for battered women to get them 
employed, knowing full well what issues are going to come along 
with that and the potential safety threats in the workplace as 
well as to other employers.
    The larger employers have more facilities to place somebody 
to keep them safe. They can transfer them more easily. They can 
better absorb the time off from work when it's needed. And they 
would basically go with, let's give training money to them and 
let them bring a lot of these women into the workforce--and 
women are not the only victims of domestic violence, men are 
sometimes, too. Get them trained if they don't have the skills. 
Many times they don't have the skills. Let them have time off 
to get back to their shelters for some of the support group 
activities that they need.
    But very much like maybe the Job Training Partnership Act 
or the old CEDA and thinking along the lines of those kinds of 
initiatives that would give incentives to large employers to 
enthusiastically endorse these kinds of programs like they are 
leading the path on diversity initiatives.
    Senator Murray. Thank you very much, Senator Clinton. Ms. 
Willman, let me go back and ask you--you testified that there 
is no data that employers aren't giving time off for victims to 
get help but that seems in direct contrast to what Ms. Cade 
experienced and the cases that Ms. Rodgers has talked about.
    We've got all these anecdotes around the country and there 
is a saying that the plural of anecdotes is data. Don't the 
cases that have been mentioned today kind of give us the data 
that victims are, in fact, having trouble getting leave from 
work?
    Ms. Willman. No, I don't think the data----
    Senator Murray. Specifically to go to court or to go to the 
police.
    Ms. Willman. No, I don't think the data supports that at 
all and I think it's very important to carefully look at what 
the data is actually saying. Yes, there are some exceptions to 
the rule. I do believe, as a general rule, employers are not 
opposed to helping victims and in fact, do it more than any of 
us probably know. It is true that a fair number of victims have 
lost their jobs due, in part, to the domestic violence. That's 
a lot different than saying that the employer fired them 
because of the domestic violence.
    And I think it's important to make that distinction so we 
know what statistics we're really talking about. It is possible 
that in the State of Maine, there have been no employers or 
very few employers complaining about the mandated time off and 
there have been few employee or victim complaints under it 
because maybe it was working all right to begin with before the 
law was even passed. And maybe employers were providing the 
time off and that's why they don't complain about the bill and 
that's why not too many victims are having a problem getting 
their time off.
    But to my knowledge, there is no data that says this is how 
many employers are firing people simply because they have been 
victims of domestic violence. However, I acknowledge that there 
are going to be exceptions to that. I mean, I think there's 
only been a handful of cases cited in anybody's materials where 
there was some kind of a nexus between the domestic violence 
and the employer actually discriminating against the person 
because they were a victim.
    Senator Murray. Ms. Fortman, do you have any response to 
that or Ms. Rodgers?
    Ms. Fortman. I believe that what we did when we passed the 
law was heighten the awareness on the part of both employers 
and employees. It's true, very few people have complained about 
it but I think what it did was it allowed a concentrated focus 
on bringing this issue into the workplace. For the last 30 
years, people have been working on domestic abuse and I think 
it started out very much as women helping women and trying to 
get people to the emergency room. It moved into being an issue 
that was dealt with by having partnerships with law enforcement 
and medical personnel. It moved into being a health issue.
    I think at this point in time, we are moving into that area 
of looking at it in its greater context, which is both the 
victim and the abuser are frequently employed and as Ms. 
Willman pointed out, it is an issue that does come into the 
workplace and what the legislation that we introduced in 
Maine--as well as the unemployment benefit--did was, it allowed 
us to have a slightly different conversation and really involve 
employers in that conversation and it also let victims know 
that they could come forward.
    One of the things we do with the Department of Labor is 
we're responsible for occupational health and safety laws and 
as Ms. Willman also pointed out, this is an issue that goes 
underground. There is no way that we can come up with a safety 
plan that works in the workplace unless it is an issue that is 
elevated, is discussed and that that safety planning is done.
    Senator Murray. Ms. Rodgers.
    Ms. Rodgers. Yes, I'd like to make a couple of quick points 
on that. I think that just leaving this to voluntary programs 
cannot work. It just reinforces the old ``it's not my problem'' 
standard that we have had. It leaves the burden with the victim 
to always have to come forward. If you have a policy, all 
employees know that the policy is in place. Other employees can 
support the victim to use those policies. You can sometimes 
address the problem much earlier, at a much less dangerous 
phase than waiting until you get to the point where you are 
afraid somebody is going to come in and shoot an employee 
because of a domestic violence issue.
    The fact is and I go back to the data we do have. Four 
percent of employers have workplace violence programs and this 
is despite the fact that studies show that 65 percent or so of 
corporate leaders know that domestic violence is a social 
problem and it's one that comes into the workplace.
    People really close to it, 78 percent of human resources 
people know that this is a serious problem. Ninety-four percent 
of security directors in companies think this is a very serious 
problem. With all that knowledge, we're still not getting 
voluntarily policies. It's time to move.
    Senator Murray. My time is up but do your employers include 
the universities when you say employers, 4 percent of employers 
have policies?
    Ms. Rodgers. It includes State employers which would be all 
of the major State universities and I'm not sure about the 
private colleges. I believe this is primarily the corporate 
world.
    Senator Murray. All right. I'm going to turn to Senator 
Isakson for questions.
    Senator Isakson. Just two--well, one comment and then one 
question. In that last exchange, I found it very interesting. I 
hear--I think Ms. Cade's case absolutely demonstrates that 
there is a problem. I think what Ms. Willman said with regard 
to her first comment is, you don't want to pass legislation 
that assumes all employers are not addressing domestic 
violence. What you want to do is have legislation that 
addresses those who aren't. In other words, most American 
businesses--they wouldn't be in business were it not for their 
employers so they're not all the enemy. But there are some that 
obviously, and Ms. Cade's case is a perfect example that the 
consequences should be terrific for the fact that they have not 
paid any attention to the abuse of a specific individual.
    Ms. Rodgers, you said in your testimony at the beginning 
that 8 of the 13 States represented on this committee had 
unemployment compensation provisions in their State law, is 
that correct?
    Ms. Rodgers. Yes.
    Senator Isakson. Do you know what out of the 50 States--
well, 50 States and the District of Columbia--what is 
nationwide?
    Ms. Rodgers. Yes, in my testimony--my recollection in my 
written testimony is around 27 or 28.
    Senator Murray. Twenty-eight.
    Senator Isakson. A little over half.
    Ms. Rodgers. A little over half.
    Senator Isakson. And Ms. Fortman, that was the next--you 
gave a good explanation of the eligibility for that in Maine. I 
appreciate that. That was very helpful.
    Again, I want to start where I began. I want to commend the 
Chairman on calling this hearing. This is a very important 
issue and I want to once again thank in particular, Ms. Cade 
and Ms. Willman for their testimony and their personal courage, 
having been survivors of domestic violence, to come forward and 
help us at this time and thank all four of our panelists for 
the time they've given to the committee.
    Senator Murray. I think Ms. Cade wanted to make a final 
remark.
    Senator Isakson. Yes, ma'am.
    Ms. Cade. Yes, listening to their testimony, I wanted to 
point out that some employers think that it is just a textbook 
and the problem lies with the lower employee communicating with 
the manager. We had the manager communicating with the regional 
manager. I had purchased a recorder. The manager was aware. I 
was trying to get enough information so that they would 
understand so I wouldn't have to choose my financial stability 
versus safety and quit and this will alleviate the problem. But 
the problem I had was my manager not taking me serious enough 
and acknowledging that there was a problem. He didn't--managers 
are supposed to come in to fill your position and he had not. 
They don't step up to the plate enough and fill in that 
position so that we can. So I'm hoping that this unemployment 
insurance will recognize that. Thank you.
    Senator Isakson. Your personal testimony is going to make a 
tremendous difference and I again commend you on your courage 
to be here and thank you for coming.
    Ms. Cade. Thank you.
    Senator Murray. I want to thank all of our witnesses for 
being here today. I think that we have really seen that 
domestic violence is an issue that can impact an entire 
community and thousands of lives beyond just those two. We need 
to do a lot of work. Education, as Ms. Willman said, to 
hopefully looking at legislation like mine that will make it a 
community response and one that we can all work together and 
not have that person who is a victim feel like there is no one 
above them who has some responsibility to help them out and 
give them a way.
    But importantly for this legislation, this hearing is the 
nexus between the economic stability of someone who has been 
abused and assuring that they have that, will help us, I 
believe, in moving a long way toward helping solve this crisis 
in many homes in our communities.
    Senator Isakson, I appreciate your listening carefully and 
hope that we can work together to move some legislation on 
this. I again appreciate all of those who are here today to 
help us work our way through this. I ask unanimous consent for 
the record to remain open for 7 days to include additional 
materials and with that, I adjourn this hearing.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                Prepared Statement of Senator Tom Harkin

    I'd like to start by thanking our subcommittee Chair, 
Senator Murray, for her strong leadership on this issue. 
Unfortunately, I believe that as schools have been forced to 
take serious action to crack down on school shootings, 
workplaces now must acknowledge that domestic violence is not 
confined to the home. Just this year, such atrocities have 
occurred all over the Nation, from Chairman Murray's home State 
just this month, to Detroit, Philadelphia, and Salt Lake City. 
We need to put an immediate stop to this epidemic.
    More than 2.5 million women are victims of violence each 
year, and nearly one in every three women experience at least 
one physical assault by a partner during adulthood. It is not 
unreasonable to ask for a little compassion and understanding 
for victims of domestic violence from their employers. If not 
for altruistic reasons, then at least out of concern for their 
ability to be productive employees and to protect their fellow 
workers. Many of the health costs associated with domestic 
violence are chronic health problems.
    It is true that domestic violence costs employers. Victims 
of domestic violence are distracted at work and have to miss 
more days due to injury or fatigue. That's why we need to 
provide services and counseling to prevent this from happening, 
and to serve those who are affected.
    But employers can no longer keep their heads in the sand 
when it comes to workplace violence. If they want to have a 
high-functioning, safe, productive workplace, they are going to 
start facing the reality of domestic violence without blaming 
the victims. Giving women the time they need to take care of 
themselves will dramatically improve their health in the long 
run, saving the company time and money as well.
    That is why I will be cosponsoring Senator Murray's 
Survivors' Empowerment and Economic Security Act. It is well 
past time for employers to do their part to prevent the next 
Virginia Tech-level tragedy. Senator Murray's bill is simple 
and straight forward. It merely gives women the right to take 
30 days away from work to take care of themselves and their 
children if they find themselves in an abusive situation in 
their homes. It also says that employers and insurance 
companies cannot continue to take the blame for the violent, or 
potentially violent actions of others.
    It is past time that we work to prevent violence in the 
workplace. Congress must act to enact Senator Murray's 
legislation as soon as possible.
   Prepared Statement of Caroline Fredrickson, Director, Washington 
 Legislative Office; Lenora Lapidus, Director, Women's Rights Project; 
and Vania Leveille, Legislative Counsel, Washington Legislative Office, 

                 American Civil Liberties Union (ACLU)

                              INTRODUCTION

    The ACLU is a national, nonpartisan public interest organization of 
almost 600,000 members, dedicated to protecting the constitutional 
rights of individuals. Through its Women's Rights Project, founded in 
1972 by Ruth Bader Ginsburg, the ACLU has long been a leader in the 
legal battles to ensure women's full equality. This commitment includes 
fighting for equal employment opportunities for women and working to 
protect the civil rights of battered women. In recent years, the ACLU 
Women's Rights Project has taken an active role at the local, State, 
and national levels in advocating for the employment rights of 
survivors of domestic violence, sexual assault, and stalking. Through 
these and other activities, the ACLU has been at the forefront of 
efforts to establish that discrimination against domestic and sexual 
violence victims is a form of gender discrimination.
    Congress has recognized the destructive impact of domestic and 
sexual violence on the lives of women. Through passage of the Violence 
against Women Act of 1994 and its reauthorization in 2000 and 2005, 
Congress has taken important steps in providing legal remedies and 
services for survivors of intimate partner abuse, sexual assault, and 
stalking. However, victims need comprehensive Federal legislation to 
address the obstacles to employment and economic security caused by 
violence. Members of the House and Senate previously have introduced 
the Security and Financial Empowerment (``SAFE'') Act \1\ and the 
Victims' Economic Security and Safety Act \2\ to bolster the financial 
independence of survivors by reducing the likelihood that violence will 
force survivors out of their jobs and by providing a safety net for 
those who do lose employment as a result of domestic violence, sexual 
assault, or stalking.\3\ The ACLU urges Congress to enact legislation, 
such as the SAFE Act, that promotes the employment opportunities of 
survivors of domestic violence, sexual assault, and stalking, including 
but not limited to provisions for emergency leave, unemployment 
insurance eligibility, reasonable employment accommodations, and 
protection from employment and insurance discrimination.
---------------------------------------------------------------------------
    \1\ S .1796, H.R. 3185, 109th Cong. (2005); S. 1801, H.R. 3420, 
108th Cong. (2003).
    \2\ S. 1249, H.R. 2670, 107th Cong. (2001).
    \3\ Senator Patty Murray recently introduced the Survivors' 
Empowerment and Economic Security Act, S. 1136, 110th Cong. (2007), but 
a bill has not been introduced yet in the House.
---------------------------------------------------------------------------
             DOMESTIC AND SEXUAL VIOLENCE IN THE WORKPLACE

    Intimate partner violence continues to be a pervasive crime, 
committed primarily against women. A Department of Justice study 
estimated that intimate partners were responsible for 691,710 instances 
of rape, robbery and assault in 2001, with 588,490 crimes perpetrated 
against women and 103,220 against men.\4\ Twenty-two percent of 
nonfatal violent crimes experienced by women and 30 percent of 
homicides against them are committed by intimate partners.\5\ Half of 
those who experience nonfatal violence sustain physical injury as a 
result.\6\
---------------------------------------------------------------------------
    \4\ Callie Marie Rennison, U.S. Dep't of Justice, Bureau of Justice 
Statistics, Intimate Partner Violence 1993-2001 1 (2003).
    \5\ Shannan Catalano, U.S. Dep't of Justice, Bureau of Justice 
Statistics, Intimate Partner Violence in the United States (2006).
    \6\ Id.
---------------------------------------------------------------------------
    Domestic and sexual violence can significantly affect the 
workplace. On average, 1.7 million violent crimes occur at the job.\7\ 
Approximately 36,500 people each year are raped and sexually assaulted 
at work, 80 percent of whom are women.\8\ Homicide by an intimate 
partner constituted 3 percent of workplace murders.\9\
---------------------------------------------------------------------------
    \7\ Detis T. Duhart, U.S. Dep't of Justice, Bureau of Justice 
Statistics, Violence in the Workplace 1993-1999 2 (2001).
    \8\ Id. at 2-3.
    \9\ Id. at 10.
---------------------------------------------------------------------------
    Experiencing domestic or sexual violence is also a direct cause of 
workplace problems for the vast majority of victims who work. Batterers 
often exercise control over victims by preventing them from going to 
work or harassing them on the job.\10\ The work lives of survivors are 
also disrupted if they need to seek housing or medical or legal help in 
response to abuse. Three studies collected by the U.S. General 
Accounting Office found that between 24 and 52 percent of victims of 
domestic violence reported that they were either fired or had to quit 
their jobs as a result of abuse.\11\ Up to 96 percent of domestic 
violence victims have experienced employment difficulties because of 
abusers and violence.\12\ These statistics represent a troubling 
reality: thousands of employees who are suffering from intimate partner 
abuse are at great risk of losing their jobs.
---------------------------------------------------------------------------
    \10\ Richard M. Tolman & Jody Raphael, A Review of Research on 
Welfare and Domestic Violence, 56 J. Soc. Issues 655, 664-70 (2000).
    \11\ U.S. Gen. Acct. Office, Domestic Violence: Prevalence and 
Implications for Employment Among Welfare Recipients 19 (1998).
    \12\ U.S. Dep't of Labor, Women's Bureau, Domestic Violence: A 
Workplace Issue 1 (1996).
---------------------------------------------------------------------------
    Despite the prevalence of domestic and sexual violence, employers 
have done little in response. More than 70 percent of workplaces in the 
United States do not have a formal program or policy that addresses 
workplace violence, and only 4 percent train their employees on 
domestic violence and its impact on the workplace.\13\ In the absence 
of such policies and training, employers frequently demonstrate ``zero 
tolerance'' for victims of domestic violence, sexual assault, and 
stalking. They may rely on stereotypes about victims, concluding that 
survivors enjoy or encourage abuse and thus are mentally ill, will 
endanger others in the workplace, or are otherwise unfit to work. Many 
employers refuse to accommodate survivors' need for time off to attend 
court dates or doctors' appointments, making it all but impossible for 
survivors to address the violence in their lives while financially 
supporting themselves.
---------------------------------------------------------------------------
    \13\ U.S. Dep't of Labor, Bureau of Labor Statistics, Survey of 
Workplace Violence Prevention (2006).
---------------------------------------------------------------------------
    Domestic and sexual violence thus renders women economically 
vulnerable. When employers are free to discriminate against survivors, 
battered women are forced to make the difficult choice between 
suffering in silence and risking loss of their income. Such a choice 
will be especially stark for the many victims whose abusers have 
exercised complete control over their finances, a common abusive tactic 
in violent relationships; thus, many experiencing domestic violence 
will have little in the way of savings or other financial resources to 
draw upon. A legal system that tolerates such obstacles to safe 
employment discourages victims of these crimes from reporting their 
abuse or otherwise taking steps to protect themselves. And by forcing 
victims out of work when they need to seek safety, the current legal 
framework often has the effect of forcing women to turn to public 
assistance as their only means of sustenance and may cause them to 
become homeless. In fact, research has shown that a large percentage of 
Federal public assistance recipients and homeless women and families 
have experienced domestic violence.\14\ Addressing the impact of 
violence in the lives of employees serves the interest not only of the 
individual employees, but also of the larger public, by giving workers 
the tools necessary to remain self-supporting.
---------------------------------------------------------------------------
    \14\ See Tolman & Raphael, supra note 9; U.S. Conference of Mayors, 
Hunger and Homelessness Survey 64 (December 2005).
---------------------------------------------------------------------------
    Danielle Simmonds, a client of the ACLU, illustrates the compelling 
need for Federal legislation. Ms. Simmonds, a female corrections 
officer, was sexually assaulted by a co-worker with whom she had no 
previous personal interaction. When she reported the crime, her 
employer, the New York City Department of Correction (``DOC''), neither 
investigated nor took disciplinary action on her behalf against the 
perpetrator. Instead, DOC refused to provide her with information about 
her assailant's work schedule and his access to firearms--a minimal 
disclosure necessary for her safety planning--and refused to provide 
her with reasonable accommodations such as time off for medical 
treatment. DOC further retaliated against Ms. Simmonds when she 
inquired about how DOC was responding to her report by transferring her 
to a less desirable worksite, issuing unwarranted reprimands, and 
stripping her of the right to work overtime and to exchange shifts with 
other officers. As a result of these changes to her schedule, Ms. 
Simmonds was forced to quit her university coursework and to send her 
children out of State to live with their grandfather. Federal 
legislation aimed at defending the employment rights of victims of 
domestic and sexual violence and stalking would assist women like Ms. 
Simmonds in avoiding financial devastation when they are subjected to 
violence.
    The ACLU strongly supports introduction and passage of legislation 
enhancing economic security for survivors of domestic violence, sexual 
violence, and stalking. New legal protections are vital for survivors 
both to escape violence and to achieve independence from abusers. At a 
minimum, Federal law should provide for emergency leave and benefits, 
unemployment insurance compensation, and reasonable employment 
accommodations for victims of domestic violence or sexual assault, and 
prohibit employment and insurance discrimination against individuals on 
the basis of their status as victims of domestic violence or sexual 
assault.

                      EMERGENCY LEAVE AND BENEFITS

    Survivors of domestic violence, sexual assault, and stalking must 
be provided with emergency leave to allow them to pursue measures to 
safeguard themselves and their children. They may need to take off 
short periods of time from work in order to relocate themselves and 
their families, obtain an order of protection, meet with law 
enforcement officials, or receive medical treatment or counseling. 
Without the option of emergency leave, many victims may decide to 
endure abuse in order to hold on to their jobs. At present, only eight 
States provide some form of leave specifically to domestic violence 
victims, but even in some of those States, leave is restricted to a 
particular purpose, such as court appearances; thus, a victim who needs 
time off to address other compelling health and safety issues may be 
left without protection.\15\ Congress must step in to ensure that 
emergency leave is available to all survivors who seek safety for their 
families.
---------------------------------------------------------------------------
    \15\ See Cal. Lab. Code Sec. Sec. 230, 230.1; Colo. Rev. Stat. 
Sec. 24-34-402.7; Haw. Rev. Stat. Sec. 378-72; 820 Ill. Comp. Stat. 
180/1-180/45; K.S.A. Sec. Sec. 44-1131, 44-1132; 26 Me. Rev. Stat. 
Sec. 850; N.Y. Penal L. Sec. 215.14; N.C. Gen. Stat. Sec. Sec. 50B-5.5, 
95-270(a).
---------------------------------------------------------------------------
    The previously introduced SAFE Act contained a provision allowing 
States to use Temporary Assistance to Needy Families (TANF) dollars to 
provide short-term emergency benefits to an individual for the duration 
of any emergency leave. Emergency benefits are necessary in order to 
lessen the economic burden placed on a victim and her family during a 
leave, especially if it is unpaid. This is particularly essential for 
survivors who work in low-wage jobs, and who thus have the fewest 
financial resources, for they are least likely to have access to paid 
leave through their employers to address these emergencies.

                       UNEMPLOYMENT COMPENSATION

    In many situations, batterers pursue victims at work, forcing them 
to leave their jobs altogether in order to escape. Other survivors may 
be fired when violence interferes with their work if, for example, they 
must search for a new home and do not have the opportunity to take 
emergency leave in order to do so. These survivors of domestic 
violence, sexual assault, and stalking need access to unemployment 
compensation in order to support themselves between jobs. In most 
States, eligibility for unemployment benefits turns on whether the 
former employee left work voluntarily without ``good cause'' or if she 
was discharged for ``misconduct.'' Twenty-eight States and the District 
of Columbia have enacted laws that guarantee unemployment compensation 
to domestic violence victims, but in varying and sometimes limited 
circumstances.\16\ In States without these protections, victims may be 
deemed as having left employment voluntarily, without good cause, when 
they needed to leave their jobs for safety reasons; victims may also be 
denied benefits if they were fired for taking off time to go to court 
or otherwise address the violence in their lives. A Federal law is 
necessary to ensure eligibility for unemployment benefits to all 
victims of domestic violence, sexual assault, and stalking who must 
leave their jobs because of abuse.
---------------------------------------------------------------------------
    \16\ See A.R.S. Sec. 23-771; Ca. U.I. Code Sec. Sec. 1030, 1032, 
1256; Colo. Rev. Stat. Ann. Sec. Sec. 8-73-107(1)(g), 8-73-108(4)(r); 
Conn. Gen. Stat. Sec. 31-236(a)(2)(A); Del. Code Ann. tit. 19, 
Sec. 3314(1); D.C. Code Sec. 51-131; 820 Ill. Comp. Stat. 405/601; Ind. 
Code Sec. Sec. 22-4-15-1(1)(C)(8), 22-4-15-1(1)(E), 22-4-15-2(E), 5-
26.5-2-2; Kan. Stat. Aim. Sec. 44-706(A)(12); Me. Rev. Stat. Ann. Tit. 
26 Sec. Sec. 1193(A)(4), 1043(23)(B)(3); Mass. Gen. L. Ann. ch. 151A 
Sec. Sec. 1, 14, 25, 30; Minn. Stat. Sec. Sec. 268.095(1)(8), 
268.095(6)(a)(c); Mont. Code Ann. Sec. 39-51-2111; Neb. Rev. Stat. Ann. 
Sec. 48-628(1)(a); N.H. Rev. Stat. Ann. tit. 23 Sec. 282-A:32(I)(a)(3); 
N.J. Rev. Stat. Sec. 43:21-5(j); N.M. Stat. Ann. Sec. 51-1-7(A); N.Y. 
Lab. Law Sec. 593(1)(a); N.C. Gen. Stat. Sec. 96-14(lf); Okla. Stat. 
Title 40 Sec. Sec. 40-2-405(5), 40-3-106(G)(8); Or. Rev. Stat. 
Sec. 657.176(12); R.I. Gen. Laws Sec. 28-44-17.1; S.C. Cod. Ann. 
Sec. Sec. 41-35-125, 41-35-130; S.D. Codified Laws Sec. 61-6-13.1; 
Texas Lab. Code Ann. Sec. Sec. 207.045, 207.046; 21 Vt. Stat. Ann. ch. 
16A Sec. 1251; Wash. Rev. Code Sec. Sec. 50.20.050, 50.20.100, 
50.20.240, 50.29.020; Wis. Stat. Sec. 108.04(7)(s); Wyo. Stat. 27-3-
311.
---------------------------------------------------------------------------
               REASONABLE ACCOMMODATIONS IN THE WORKPLACE

    Survivors of domestic violence, sexual assault, and stalking should 
be entitled to obtain reasonable accommodations that permit them to 
continue to work safely. Because batterers frequently seek to harass 
victims at work, survivors may need basic accommodations from their 
employers to ensure their safety, such as a change in telephone number 
or seating assignment, installation of a lock, a schedule modification, 
emergency leave, or job reassignment. These accommodations allow 
survivors to continue to financially support themselves while imposing 
a minimal burden on their employers. One State, Illinois, requires 
employers to make reasonable accommodations, beyond providing leave, 
related to violence.\17\ New York City and Westchester County in New 
York State also require such accommodations.\18\ However, this 
protection should be extended to all victims who struggle to remain 
employed while escaping violence.
---------------------------------------------------------------------------
    \17\ 820 Ill. Comp. Stat. 180/30.
    \18\ N.Y.C. Admin. Code Sec. 8-107.1; Westchester County Code 
Sec. Sec. 700.02, 700.03.
---------------------------------------------------------------------------
      ANTI-DISCRIMINATION PROTECTIONS IN EMPLOYMENT AND INSURANCE

    Federal legislation is needed to prohibit employment and insurance 
discrimination against survivors of domestic violence, sexual violence, 
and stalking. Currently, a victim is vulnerable to being rejected for 
or fired from a position when an employer learns that she may have been 
subjected to abuse. An employer may act on outdated, but commonly held, 
notions about a victim--that she must enjoy being abused because she 
stayed in a relationship, or that she invited sexual assault by her 
attire or behavior. Very few jurisdictions currently deal with this 
issue. Only the State of Illinois, as well as New York City and 
Westchester County in New York State, ban discrimination against a 
victim of domestic violence, sexual assault, or stalking.\19\ 
Connecticut and Rhode Island bar employers from penalizing victims who 
have attended court or obtained restraining orders.\20\ Federal anti-
discrimination law must intervene to combat these stereotypes about 
victims of domestic violence, sexual assault, and stalking.\21\
---------------------------------------------------------------------------
    \19\ 820 Ill. Comp. Stat. 180/30; N.Y.C. Admin. Code Sec. 8-107.1; 
Westchester County Code Sec. Sec. 700.02, 700.03.
    \20\ Conn. Gen. Stat. Sec. 54-85b; R.I. Gen. Laws Sec. 12-28-10.
    \21\ State legislatures have acted to prohibit discrimination on 
the basis of one's status as a victim of domestic violence, sexual 
assault, and stalking in other contexts, notably housing. N.C. Gen. 
Stat. Sec. Sec. 42-40, -42.2, -42.3, -45.1; R.I. Gen. Laws 
Sec. Sec. 34-37-1, -2, -2.4, -3, -4; Wash. Rev. Code Ann. 
Sec. 59.18.130(8)(b)(ii). The 2005 reauthorization of the Violence 
Against Women Act also prohibited discrimination against these 
survivors in public and Section 8 housing. See 42 U.S.C. 
Sec. Sec. 1437d, 1437f.
---------------------------------------------------------------------------
    Survivors of domestic violence, sexual assault, and stalking also 
need protection against insurance discrimination. The ability to obtain 
and maintain insurance is a fundamental economic issue for all people, 
but is particularly significant for victims of violence, who often need 
medical and psychological treatment because of the crimes that have 
been committed against them. Insurance companies frequently choose to 
deny, refuse to renew, or cancel a survivor's policy or benefits plan, 
particularly when originally issued in the name of the abuser. While 41 
States have anti-discrimination laws on the books, they vary widely and 
do not apply to the 36 percent of all employees who receive health 
insurance coverage through self-funded plans that are governed by the 
Federal Employee Retirement Income Security Act, and are therefore 
exempt from State law protections.\22\ Without confidence that they 
will not lose their insurance, victims may be reluctant to seek 
desperately needed medical treatment.
---------------------------------------------------------------------------
    \22\ Women's Law Project, F.Y.I. Insurance Discrimination Against 
Victims of Domestic Violence: 2002 Supplement (2002), available at 
http://www.womenslawproject.org/brochures/InsuranceSup--DV2002.pdf; 
Women's Law Project, Insurance, http://www.womenslaw 
project.org/pages/issue_insurance.htm (last visited April 18, 2007).
    \23\ N.Y.C. Admin. Code Sec. 8-107.1.
    \24\A pseudonym has been used to protect ``Kathleen's'' identity.
---------------------------------------------------------------------------

                SUCCESS OF LEGISLATION LIKE THE SAFE ACT

    Laws containing provisions such as those embodied in the previously 
introduced SAFE Act already have proven effective in guaranteeing the 
rights of survivors on the local level. In 2001, New York City amended 
its Human Rights Law to prohibit employment discrimination against 
victims of domestic violence--the first jurisdiction in the country to 
do so.\23\ The city extended these protections in 2003 to require 
employers to make reasonable accommodations--such as allowing time off 
from work or shifts in schedule--to employees who are experiencing 
domestic and sexual violence or stalking.
    The ACLU relied on these provisions of the Human Rights Law when 
representing ``Kathleen,'' \24\ a long-time employee of the New York 
City public schools. After her intimate partner assaulted her, Kathleen 
obtained an order of protection. She needed to take off several days of 
work in order to attend court proceedings and seek medical attention. 
When her employer reprimanded her for excessive absences, she disclosed 
her partner's violence and requested to be transferred to another 
school for safety reasons. Shortly after this conversation, she was 
fired. The same day, another woman at the school where Kathleen worked 
who had also experienced domestic violence was terminated under similar 
circumstances. Because she lost her job and was unable to find 
comparable employment, Kathleen was forced to move to substandard 
housing and send her son to live with a relative.
    The ACLU brought suit against the New York City Department of 
Education on Kathleen's behalf, invoking the anti-discrimination 
mandate of the city Human Rights Law. Ultimately, the Department of 
Education agreed to settle the case and to void Kathleen's termination 
and pay her retroactive compensation and damages. It also agreed to 
undertake systemic changes, including amending its Equal Employment 
Opportunity policy to cover victims of domestic violence, sexual 
assault, and stalking as protected classes, acknowledging that 
reasonable accommodations must be offered to these survivors, and 
publicizing its new policies throughout the school system. Had the New 
York City Human Rights Law not existed, Kathleen may have been out of 
work with no recourse, as a result of the violent conduct of her 
partner. Had Kathleen lived almost anywhere else in the country, 
financial ruin likely would have been her fate.
    Enacting Federal protection for the employment rights of victims of 
domestic violence, sexual assault, and stalking is crucial to building 
on local progress and ensuring economic security to survivors 
nationwide. Federal legislation, such as the previously introduced SAFE 
Act, would enable battered women to seek safety while working towards 
financial independence.
    The ACLU therefore calls on the 110th Congress to pass legislation 
that would transform the current State-by-State patchwork of laws 
governing the employment rights of victims of domestic violence, sexual 
assault, and stalking and allow these survivors to pursue both physical 
security and economic independence.

                           Letters of Support
               Eugene A. Rugala and Associates LLC,
                                       Beaufort, SC. 29902.

    Hello Crystal, my name is Gene Rugala and I am a retired FBI Agent 
and a national advisory board member of the corporate Alliance to End 
Partner Violence. I was formerly assigned to the FBI'S National Center 
for the Analysis of Violent Crime where I spent much time studying 
workplace violence issues. I have been involved in the area since the 
late 1980's and am now working with a number of corporate clients on 
prevention issues and still lecture around the United States. I am also 
the Vice President of the Board of Directors of our local domestic 
violence shelter in Beaufort, SC. and we have just initiated a new 
program targeting businesses in our county to discuss workplace 
violence to include domestic violence in the workplace.
    I am very supportive of Senator Murray's bill and would like to 
offer any testimony and/or other support on this important issue. I 
have previously testified before the House Education and Workforce 
Committee in September 2002 on workplace violence. I have also authored 
a number of articles to include an FBI publication, Workplace Violence: 
Issues in Response which can be downloaded from the fbi.gov Web site 
and specifically includes a chapter on Domestic Violence and Stalking 
in the Workplace and what businesses need to do. Please feel free to 
``google'' my name as to some of the work I have done in this area.
    I have included a bio, and my previous testimony. I look forward to 
working with you on this important issue. Thank You,

                                               Gene Rugala.
Previous Testimony of Eugene Rugala, Supervising Special Agent, Federal 
  Bureau of Investigation (FBI) to the Subcommittee on Education and 
                               Workforce

    It is an honor to testify before you today about the problem of 
workplace violence and the scope of the problem in America's 
workplaces.
    Before I speak to the issue of workplace violence, it may be 
helpful if I briefly explain the roles of the FBI's Critical Incident 
Response Group (CIRG) and that of the National Center For the Analysis 
of Violent Crime (NCAVC). The CIRG is an FBI field entity located at 
the FBI Academy in Quantico, Virginia. Established in May 1994, the 
CIRG was designed to provide rapid assistance to incidents of a crisis 
nature. It furnishes emergency response to terrorist activities, 
hostage situations, barricaded subjects, and other critical incidents.
    The CIRG is composed of diverse units that provide operational 
support and training and conduct research in related areas. Expertise 
is furnished in cases involving abduction or mysterious disappearance 
of children; crime scene analysis; profiling; crisis management; 
hostage negotiations; and, special weapons and tactics.
    The NCAVC, is comprised of FBI Special Agents and Professional 
Support staff who provide advice and support in the general areas of 
Crimes Against Children; Crimes Against Adults; and, Threat Assessment, 
Corruption, and Property Crimes. Typical cases received for services 
include: child abductions or mysterious disappearance of children; 
serial murder; single homicides; serial rapes; threats and assessment 
of dangerousness in workplace violence; school violence; domestic 
violence; and, stalking. Other matters that NCAVC personnel respond to 
include: extortion; kidnapping; product tampering; arson and bombings; 
weapons of mass destruction; public corruption; and, domestic and 
international terrorism. Annually, NCAVC personnel respond to over 
1,500 requests for assistance from law enforcement all over the world.
    The NCAVC reviews crimes from both a behavioral and investigative 
perspective. This criminal investigative analysis process serves as a 
tool for client law enforcement agencies by providing them with an 
analysis of the crime, as well as, an understanding of criminal 
motivation and behavioral descriptions of the likely offender. Also, 
the NCAVC conducts research into violent crime from a law enforcement 
perspective in an effort to gain insight into criminal thought 
processes, motivations, and behavior. Results of the research are 
shared with the law enforcement and academic world through 
publications, presentations and training, as well as, through 
application of knowledge to the investigative and operational functions 
of the center.
    The NCAVC, specifically gets involved in matters of workplace 
violence when contacted by a law enforcement agency, which, when 
responding to a request by an employer about a potentially dangerous 
employee, contacts our unit to conduct a threat assessment and render 
an opinion as to the potential for dangerousness. Once this assessment 
is done, NCAVC members will recommend intervention strategies to lower 
the level of threat.
    In June of this year, the NCAVC, held a Violence in the Workplace 
Symposium in Leesburg, Virginia. Approximately 150 recognized experts 
in workplace violence and violent behavior from law enforcement, 
private industry, government, law, labor, professional organizations, 
victim services, the military, academia, and mental health looked at 
this issue from a multi-disciplinary perspective. Issues discussed 
included workplace violence prevention, threat assessment and 
management, crisis management, critical incident response, research, 
and legislative recommendations. It is through this symposium and the 
issues discussed that a written monograph will be produced detailing 
findings and recommendations. This monograph will be available to 
anyone who has a need, and will be furnished to this committee for 
review.
    For our purposes today at this hearing, workplace violence can be 
defined as any action that may threaten the safety of an employee, 
impact the employee's physical and/or psychological well-being, or 
cause damage to company property. Workplace violence is now recognized 
as a specific category of violent crime which calls for distinct and 
specific responses from employers, law enforcement, and the community. 
However, this recognition is relatively recent. Before the mid-1980's, 
the few research and preventative efforts that existed were focused on 
particular issues like patient assaults on healthcare workers, or the 
high robbery and murder risks facing certain occupations such as taxi 
drivers or late-night convenience store clerks. It was a number of 
shootings at U.S. Postal facilities around the country in the mid-
1980's, where employees killed other employees, that raised public 
awareness of the kind of incident that is most commonly associated with 
the phrase ``workplace violence.'' In fact, the phrase ``going postal'' 
has been accepted as part of the public lexicon for this type of 
activity.
    Once workplace killings by unstable employees came to be seen as a 
trend, incidents tended to attract wider news coverage. Thus, the 
apparent rise in such cases may have been, in part, an impression 
created by more media attention. In subsequent years, other mass 
workplace shootings have occurred with the most recent being seven co-
workers slain by a software engineer at the Edgewater Technology 
company in Wakefield, Massachusetts in December 2000. Four workers were 
killed at a Navistar plant outside of Chicago in February 2001. There 
were multiple shootings that occurred at an aircraft parts plant in 
Indiana earlier this year.
    However, sensational multiple homicides represent only a tiny 
fraction of violent workplace incidents. The vast majority are lesser 
cases of assaults, threats, harassment and physical or emotional abuse 
that makes no headlines and, in many cases, are not even reported to 
company managers or law enforcement. While data on homicides and other 
assaultive behavior may be captured, specific data as to threats and 
intimidating behavior are lacking.
    In a December 2001, Bureau of Justice Statistics, National Crime 
Victimization Survey on Violence in the Workplace from 1993-1999, it 
was found that an average of 1.7 million violent victimizations were 
committed during that period. The most common being simple assault. 
This number does not include an average of 900 homicides which occurred 
in the workplace during that period. Also, this study showed, that 
along with all violent crime occurring in the United States, there was 
a decrease in workplace violent crime. Since approximately 1993, 
workplace homicides have been on the decline. Dropping from a peak of 
over a 1,000 in the early 1990s to approximately 677 in 2000. It should 
be noted that the majority of workplace homicides, about 77 percent, 
are the result of robberies and related crimes. Part of the decline in 
homicides may be the result of better security programs implemented by 
companies impacted by this type of crime (i.e., better lighting, bullet 
proof glass, video cameras, etc.). The remaining homicides are the 
result of disgruntled employees, clients and customers, domestic 
violence and stalking situations which spillover in the workplace.
    Analysts and other occupational safety specialists have broadly 
agreed that responding to workplace violence requires attention to more 
than just an actual physical attack. Direct physical assault is on a 
spectrum that also includes threats, harassment, bullying, emotional 
abuse, intimidation, and other forms of conduct that create hurt and 
fear. All are part of the workplace violence problem; and, workplace 
violence prevention policies that do not consider threats and 
harassment, are unlikely to be effective.
    Workplace violence falls into four broad categories: (1) violent 
acts committed by criminals who have no connection with the workplace, 
but enter to commit robbery or another crime; (2) violence directed at 
employees by customers, clients, patients, or any others for whom an 
organization provides service; (3) violence against co-workers, 
supervisors or managers by a present or former employee; and, (4) 
violence committed in the workplace by someone who doesn't work there, 
but has a personal relationship with an employee, an abusive spouse, 
domestic partner, boyfriend or girlfriend, etc.
    While much has been done by the retail industry to lower the risk 
of violent crime associated with category one type crime, additional 
efforts should be focused to identify, prevent and/or manage workplace 
violence that involve the remaining categories.
    The impact of violence in the workplace from lost work time and 
wages, reduced productivity, medical costs, worker compensation 
payments, legal, and security expenses, is estimated to be in the many 
millions of dollars. However, the impact of this type of crime goes 
beyond the workplace. By impacting society as a whole, it damages 
trust, harms the community, and threatens the sense of security every 
worker has a right to feel while on the job. In that sense, everyone 
loses when a violent act takes place within the work environment. 
Everyone has a stake in efforts to stop violence from happening where 
they work.
    There is no one-size-fits-all strategy. Discussions with the multi-
disciplinary group of experts in workplace violence and violent 
behavior, who attended the NCVACs violence in the workplace symposium 
in June 2002, suggest that success will depend on several factors. 
First, employers have a legal and ethical obligation to provide a safe 
environment for workers; and, as a result, can face economic loss as a 
result of violence. Second, employees have a right to expect to work in 
a safe environment, free from violence, threats or harassment. However, 
employees also have a stake in workplace violence prevention and have 
to be an integral partner in any such effort. Third, law enforcement, 
through the community-oriented policing concept, have placed greater 
emphasis on prevention and responding to threats and violent incidents, 
rather than the traditional view that law enforcement should be called 
as a last resort or to effect an arrest.
    Fourth, unions should regard workplace safety from violence as an 
employee's right just as worthy of union defense as wages or any other 
contractual right. Fifth, occupational, safety, and criminal justice 
agencies at the Federal and State level have an important role in 
developing model policies, improving recordkeeping as to number and 
type of incidents, and reaching out to employers. Especially, those in 
small companies. Sixth, medical, mental health, and social service 
communities have a role in assessment of threats and recommending 
intervention strategies and additional research regarding this issue. 
Finally, legislators, policymakers and the legal community can review 
legal questions that have an impact on workplace violence and on 
preventative efforts such as identifying potentially violent employees.
    A multi-disciplinary, broad-based and proactive approach, at all 
levels, is what is needed to quantify, understand, and prevent and/or 
manage the potential for violence in the workplace.
    I am grateful for the opportunity to contribute to this hearing, 
and hope that what we do here today helps in dealing with an issue that 
potentially impacts us all. I am willing to answer any questions that 
you may have at this time.
                                 ______
                                 
Senator Patty Murray, Chair,
Senator Johnny Isakson, Ranking Member,
HELP Committee, Employment and Workplace Subcommittee,
428 Senate Dirksen Office Building,
Washington, DC. 20510.

Re:  Domestic Violence in the Workplace Hearing of the Subcommittee on 
Employment and Workplace Safety

    Dear Senators Murray and Isakson: I am writing to urge you to pass 
legislation, such as the Security and Financial Empowerment Act, that 
would promote the economic security of the victims by ensuring that 
victims do not lose their jobs because of the violence against them or 
their efforts to take steps to address the violence and that victims 
who must leave their jobs because of the violence can receive 
unemployment insurance benefits.
    I often work with victims of domestic violence. Some victims have 
had to leave work only to be taken to a shelter for their safety and 
the safety of their children. As you know once in the shelter their 
protection is paramount. Their employment is at risk the moment they 
enter the shelter as no one can know where they are. Fortunately, I am 
able to speak on their behalf with our employer and at least reassure 
them.
    In 2001, New York City was the first jurisdiction in the country to 
adopt legislation explicitly prohibiting employment discrimination 
against victims of domestic violence. (Local Law 1 of 2001). In 2003, 
the city expanded these protections to require employers to make 
reasonable accommodations, such as permitting time off or a flexible 
schedule for victims of domestic and sexual violence (Local Law 75 of 
2003.
    The Violence Against Women Act and other legislation that Congress 
has passed has made an enormous difference for victims by creating 
emergency shelter service and improving the response of the criminal 
and civil systems for domestic violence victims. It takes great courage 
from the victims to admit they are a victim and the added fear is, if 
they miss work they will lose their jobs. Please pass legislation that 
ensures that victims can take steps to protect themselves without 
jeopardizing their employment.
    Thank you for allowing me to share my thoughts with you. If you 
have any questions, please do not hesitate to contact me.
            Sincerely,
                                          Diane L. Stangle,
                                         Executive Vice President, 
                                              CWA1118 518 862 0095.
                                 ______
                                 
               Newton Becker Bouwkamp Pendoski, PC,
                                    Indianapolis, IN 46240.

    As a practitioner of family law for more than 30 years and as one 
who provides pro bono legal services for domestic abuse victims, I am 
convinced that victims of domestic violence need additional protection. 
At a minimum, they need to be free from negative repercussions from 
their employers when they need time off to go to court and otherwise 
take action to protect themselves and their family members.
    Please support legislation to insulate victims from negative 
actions taken by employers arising from conduct designed to obtain 
protection from further domestic violence.
    Thank you.
                                            M. Kent Newton.
                                 ______
                                 
  Law Offices of Christina M. Thomas, Attorneys at 
                                               Law,
                              Bloomfield, New Jersey 07003,
                                                    April 10, 2007.
Senator Patty Murray, Chair,
Senator Johnny Isakson, Ranking Member,
HELP Committee, Employment and Workplace Subcommittee,
428 Senate Dirksen Office Building,
Washington, DC. 20510.

Re:  ``Too Much, Too Long? Domestic Violence in the Workplace'' Hearing 
of the Senate Subcommittee on Employment and Workplace Safety

    Dear Senators Murray and Isakson: I am an attorney in the States of 
New Jersey and New York, a former victim of Domestic Violence, and a 
former White House staff person, and formerly employed with Corporation 
Counsel, NYC, under Mayor Guiliani. I am writing to urge you to pass 
legislation that would promote the economic security of victims by 
ensuring that victims do not lose their jobs because of the violence 
against them or their efforts to take steps to address the violence and 
that victims who must leave their jobs because of the violence can 
receive unemployment insurance benefits, including the Security and 
Financial Empowerment Act.
    As the pro bono attorney of the year in Essex County, New Jersey, I 
have come across innumerable victims who have needed this type of help. 
Having to advise them that ``there is nothing in the law to protect 
them'' is truly a heartbreaking experience, particularly because so 
many of these women and men are the sole support for their children. 
Once the litigants learn that there is nothing that I can do to help 
protect their rights against their employers, they often become 
unwilling (or unable) to come to Court, and if the victim is not in 
Court, the charges are dropped, plain and simple. The LACK OF 
LEGISLATION HELPS THE CYCLE OF VIOLENCE TO CONTINUE, AND THAT SHOULD 
CAUSE EVERY AMERICAN TO BE ASHAMED.
    National studies confirm that economic security is one of the most 
important factors in whether victims are able to separate effectively 
from an abuser and that many victims lose their jobs because of the 
violence against them. One victim losing their job because of domestic 
violence is one too many. The General Accounting Office has found that 
between \1/4\ and \1/2\ of domestic violence victims report that they 
have lost a job due, at least in part, to domestic violence. In 
addition, almost half of sexual assault survivors lost their jobs or 
are forced to quit in aftermath of the crime. Victims of intimate 
partner violence lose 8,000,000 days of paid work each year--the 
equivalent of 32,000 full-time jobs and 5,600,000 days of household 
productivity. Such violence has a devastating impact on women's 
physical health, mental health, and financial security.
    New Jersey is already on the forefront of victim's rights, and has 
been making certain that there are some basic controls in place, for 
example, N.J.S.A. 43:21-5(j) states that an individual who is otherwise 
eligible for unemployment will not be denied benefits because the 
individual left work or was discharged due to circumstances resulting 
from domestic violence. The employer's account will not be charged, but 
the individual must provide supporting documentation. Although this is 
a good start, it is still far from where we should be in this area. We 
need to understand that domestic violence is ugly, it is embarrassing, 
and it is something that victims will keep secret for as long as they 
can, so telling people who are already ``at the edge'' that they will 
need documentation of their wounds is often not as easy as we might 
like to believe. Should a person who told doctors that bruising is from 
``falling down stairs'' or that a black eye was ``from a softball 
game'' be turned down just because the medical records don't clearly 
indicate ``domestic violence? '' Sometimes, it just takes the right 
people to get the job done, but one person being ``re-victimized'' is 
one too many.
    New York City, too, has long recognized domestic violence as a 
workplace issue and it has been a leader in ensuring that victims of 
domestic and sexual violence can maintain stable employment while they 
take steps to end the violence in their lives. In 2001, New York City 
was the first jurisdiction in the country to adopt legislation 
explicitly prohibiting employment discrimination against victims of 
domestic violence (Local Law 1 of 2001). In 2003, the city expanded 
these protections to require employers to make reasonable 
accommodations--such as permitting time off or a flexible schedule--for 
victims of domestic or sexual violence (Local Law 75 of 2003). Our 
office has received no complaints from employers alleging employee 
misuse of this law, and we know that it has helped working women (and 
men) take essential steps to separate from an abusive or violent 
relationship.
    The Violence Against Women Act and other legislation that Congress 
has passed has made an enormous difference for victims by creating 
emergency shelter services and improving the response of the criminal 
and civil justice systems to domestic and sexual violence. However, too 
many victims are afraid to access those services because they are 
worried that if they miss work, they will lose their jobs. Please pass 
legislation that ensures that victims can take steps to protect 
themselves without jeopardizing their employment and economic security.
    Thank you for allowing me to share my thoughts with you on this 
topic. If you have any questions, please do not hesitate to contact me 
at 201-988-6797.
            Respectfully submitted,
                                       Christina M. Thomas.
                                 ______
                                 
                                            April 12, 2007.
Senator Patty Murray, Chair,
Senator Johnny Isakson, Ranking Member,
HELP Committee, Employment and Workplace Subcommittee,
428 Senate Dirksen Office Building,
Washington, DC. 20510.

Re:  ``Too Much, Too Long? Domestic Violence in the Workplace? Hearing 
of the Senate Subcommittee on Employment and Workplace Safety

    Dear Senators Murray and Isakson: I am writing to urge you to pass 
legislation, such as the Victims Employment and Economic Security Act, 
that would promote the economic security of victims by ensuring that 
victims do not lose their jobs because of the violence against them or 
their efforts to take steps to address the violence and that victims 
who must leave their jobs because of the violence can receive 
unemployment insurance benefits.
    I am an employee of Tri-County Council on Domestic Violence and 
Sexual Assault in Rhinelander, Wisconsin where I work as a victim 
advocate. This entails giving personal support, making referrals, 
interacting with other agencies to prevent violence, and educating the 
public about the nature of domestic abuse. In the course of starting 
over after an abusive relationship, I see women who, after starting a 
new job, need to take time off for court proceedings related to past 
abuse. It is many times intimidating to request the necessary time off 
from work in these instances. Legislation to aid victims in these 
matters is needed so that time away from work does not become a 
deterrent to safety planning measures.
    National studies confirm that economic security is one of the most 
important factors in whether victims are able to separate effectively 
from an abuser--and that unfortunately, many victims lose their jobs 
because of the violence against them. The General Accounting Office has 
found that between \1/4\ and \1/2\ of domestic violence victims report 
that they have lost a job due, at least in part, to domestic violence. 
In addition, almost half of sexual assault survivors lost their jobs or 
are forced to quit in the aftermath of the crime. Victims of intimate 
partner violence lose 8,000,000 days of paid work each year--the 
equivalent of 32,000 full-time jobs and 5,600,000 days of household 
productivity. Such violence has a devastating impact on women's 
physical health, mental health, and financial security.
    The Violence Against Women Act and other legislation that Congress 
has passed has made an enormous difference for victims by creating 
emergency shelter services and improving the response of the criminal 
and civil justice systems to domestic and sexual violence. However, too 
many victims are afraid to access those services because they are 
worried that if they miss work, they will lose their jobs. Please pass 
legislation that ensures that victims can take steps to protect 
themselves without jeopardizing their employment and economic security.
    Thank you for allowing me to share my thoughts with you on this 
topic. If you have any questions, please do not hesitate to contact me 
at 715-362-6841.
            Sincerely,
                                              Lynn Feldman,
                        Oneida County Advocate, Tri-County Council.
                                 ______
                                 
                         HELP of Door County, Inc.,
                                            April 12, 2007.
Senator Patty Murray, Chair,
Senator Johnny Isakson, Ranking Member,
HELP Committee, Employment and Workplace Subcommittee,
428 Senate Dirksen Office Building,
Washington, DC. 20510.

Re:  ``Too Much, Too Long? Domestic Violence in the Workplace'' Hearing 
of the Senate Subcommittee on Employment and Workplace Safety

    Dear Senators Murray and Isakson: I am writing to urge you to pass 
legislation, such as the VEESA-Victims Employment and Economic Security 
Act, that would promote the economic security of victims by ensuring 
that victims do not lose their jobs because of the violence against 
them or their efforts to take steps to address the violence and that 
victims who must leave their jobs because of the violence can receive 
unemployment insurance benefits.
    I work for a small rural domestic violence program in Door County, 
WI. HELP of Door County, Inc. provides the following services to our 
community: individual and group support for adult and child victims, 
older adult services, safe home placements, visitation & exchange 
program, transitional living program, legal advocacy, information & 
referral, and a 24-hour hotline.
    I have had numerous victims in my office that are in need of a safe 
home placement, but due to our rules of not leaving the safe home while 
there for her own protection, she may not have a job to return to. I've 
also had victims unable to leave work in order to go to court for 
orders of protection or just to come in during office hours to plan for 
their safety. This intense fear of losing their job is a huge barrier 
to her leaving the abusive relationship, especially in a small 
community where good paying jobs and affordable housing are hard to 
come by.
    National studies confirm that economic security is one of the most 
important factors in whether victims are able to separate effectively 
from an abuser--and that unfortunately, many victims lose their jobs 
because of the violence against them. The General Accounting Office has 
found that between \1/4\ and \1/2\ of domestic violence victims report 
that they have lost a job due, at least in part, to domestic violence. 
In addition, almost half of sexual assault survivors lost their jobs or 
are forced to quit in the aftermath of the crime. Victims of intimate 
partner violence lose 8,000,000 days of paid work each year--the 
equivalent of 32,000 full-time jobs and 5,600,000 days of household 
productivity. Such violence has a devastating impact on women's 
physical health, mental health, and financial security.
    The Violence Against Women Act and other legislation that Congress 
has passed has made an enormous difference for victims by creating 
emergency shelter services and improving the response of the criminal 
and civil justice systems to domestic and sexual violence. However, too 
many victims are afraid to access those services because they are 
worried that if they miss work, they will lose their jobs. Please pass 
legislation that ensures that victims can take steps to protect 
themselves without jeopardizing their employment and economic security.
    Thank you for allowing me to share my thoughts with you on this 
topic. If you have any questions, please do not hesitate to contact me 
at 920-743-8785.
            Sincerely,
                                             Amy L. Jahnke,
                               Domestic Abuse Services Coordinator.
                                 ______
                                 
                                            April 13, 2007.
Senator Patty Murray, Chair,
Senator Johnny Isakson, Ranking Member,
HELP Committee, Employment and Workplace Subcommittee,
428 Senate Dirksen Office Building,
Washington, DC. 20510.

Re:  ``Too Much, Too Long? Domestic Violence in the Workplace'' Hearing 
of the Senate Subcommittee on Employment and Workplace Safety

    Dear Senators Murray and Isakson: I am writing to urge you to pass 
legislation, such as the Security and Financial Empowerment Act, that 
would promote the economic security of victims by ensuring that victims 
do not lose their jobs because of the violence against them or their 
efforts to take steps to address the violence and that victims who must 
leave their jobs because of the violence can receive unemployment 
insurance benefits.
    Brighter Tomorrows provides services to thousands of women each 
year. Once they leave the abusive situation, not only are they their 
sole support, but they have to miss work in order to file protective 
orders and attend court on numerous occasions because of the abuse. 
Often it is unsafe for them to return to their work because the abuser 
knows where she is and may come to her place of work, or harass her at 
work and get her terminated. The need for unemployment insurance 
benefits is vital so that they have the economic independence they need 
to stay out of the abusive situation.
    National studies confirm that economic security is one of the most 
important factors in whether victims are able to separate effectively 
from an abuser--and that unfortunately, many victims lose their jobs 
because of the violence against them. The General Accounting Office has 
found that between \1/4\ and \1/2\ of domestic violence victims report 
that they have lost a job due, at least in part, to domestic violence. 
In addition, almost half of sexual assault survivors lost their jobs or 
are forced to quit in the aftermath of the crime. Victims of intimate 
partner violence lose 8,000,000 days of paid work each year--the 
equivalent of 32,000 full-time jobs and 5,600,000 days of household 
productivity. Such violence has a devastating impact on women's 
physical health, mental health, and financial security.
    The Violence Against Women Act and other legislation that Congress 
has passed has made an enormous difference for victims by creating 
emergency shelter services and improving the response of the criminal 
and civil justice systems to domestic and sexual violence. However, too 
many victims are afraid to access those services because they are 
worried that if they miss work, they will lose their jobs. Please pass 
legislation that ensures that victims can take steps to protect 
themselves without jeopardizing their employment and economic security.
    Thank you for allowing me to share my thoughts with you on this 
topic. If you have any questions, please do not hesitate to contact me 
at 972-263-0506.
            Sincerely,
                                         Jana Barker, LBSW.
                                 ______
                                 
                                            April 15, 2007.
Senator Patty Murray, Chair,
Senator Johnny Isakson, Ranking Member,
Senator Bernie Sanders,
HELP Committee, Employment and Workplace Subcommittee,
428 Senate Dirksen Office Building,
Washington, DC. 20510.

Re:  ``Too Much, Too Long? Domestic Violence in the Workplace'' Hearing 
of the Senate Subcommittee on Employment and Workplace Safety

    Dear Senators Murray, Isakson, and Sanders: I am writing to urge 
you to pass legislation, such as the Security and Financial Empowerment 
Act, that would promote the economic security of victims by ensuring 
that victims do not lose their jobs because of the violence against 
them or their efforts to take steps to address the violence and that 
victims who must leave their jobs because of the violence can receive 
unemployment insurance benefits.
    First and foremost, I am a survivor of a sexual assault and 
attempted murder that took place in Warren, Vermont in 1992. Due to the 
injuries I sustained (communicated decompressed skull fracture) and the 
time it took to recover (over 6 months), I was unable to work and lost 
my job. In addition, during the decade that I worked as a victim 
advocate for the following Vermont domestic and sexual assault 
programs; Battered Women Services and Shelter (Barre, VT) and WomenSafe 
(Middlebury, VT), I recall several cases in which the woman was fired 
due to her husband harassing her at work. I also recall working with 
woman who had to quit their job due to safety concerns. Many of these 
women were unable to obtain unemployment insurance. Some of these women 
chose to return to the abuser because of economic needs and the need to 
provide for their children. In some of these cases the woman was the 
sole bread winner and her family depended on her wages to make ends 
meet.
    National studies confirm that economic security is one of the most 
important factors in whether victims are able to separate effectively 
from an abuser--and that unfortunately, many victims lose their jobs 
because of the violence against them. The General Accounting Office has 
found that between \1/2\ and \1/2\ of domestic violence victims report 
that they have lost a job due, at least in part, to domestic violence. 
In addition, almost half of sexual assault survivors lost their jobs or 
are forced to quit in the aftermath of the crime. Victims of intimate 
partner violence lose 8,000,000 days of paid work each year--the 
equivalent of 32,000 full-time jobs and 5,600,000 days of household 
productivity. Such violence has a devastating impact on women's 
physical health, mental health, and financial security.
    Vermont in 2005 passed the Domestic and Sexual Violence Survivors 
Employment Transition Fund, which provides temporary economic support 
for survivors who are forced to leave work as a result of the violence 
they are experiencing. That initiative has been vitally important for 
the few survivors who have needed it, and has not had a significant 
financial impact on the State's general fund. Supports such as this one 
can be an important component of survivors' efforts to seek physical 
and economic safety.
    The Violence Against Women Act and other legislation that Congress 
has passed has made an enormous difference for victims by creating 
emergency shelter services and improving the response of the criminal 
and civil justice systems to domestic and sexual violence. However, too 
many victims are afraid to access those services because they are 
worried that if they miss work, they will lose their jobs. Please pass 
legislation that ensures that victims can take steps to protect 
themselves without jeopardizing their employment and economic security.
    Thank you for allowing me to share my thoughts with you on this 
topic. If you have any questions, please do not hesitate to contact me 
at 802-476-2669 (w).
            Sincerely,
                                     Susan S. Russell, M.A.
                                 ______
                                 
                                            April 16, 2007.
Senator Patty Murray, Chair,
Senator Johnny Isakson, Ranking Member,
HELP Committee, Employment and Workplace Subcommittee,
428 Senate Dirksen Office Building,
Washington, DC. 20510.

Re:  ``Too Much, Too Long? Domestic Violence in the Workplace'' Hearing 
of the Senate Subcommittee on Employment and Workplace Safety--Letter 
Submitted for the Record

    Dear Senators Murray and Isakson: I am writing to urge you to pass 
legislation, such as the Survivors Empowerment and Economic Security 
Act, that would promote the economic security of victims by ensuring 
that victims do not lose their jobs because of the violence against 
them or their efforts to take steps to address the violence and that 
victims who must leave their jobs because of the violence can receive 
unemployment insurance benefits.
    National studies confirm that economic security is one of the most 
important factors in whether victims are able to separate effectively 
from an abuser--and that unfortunately, many victims lose their jobs 
because of the violence against them. The General Accounting Office has 
found that between \1/4\ and \1/2\ of domestic violence victims report 
that they have lost a job due, at least in part, to domestic violence. 
In addition, almost half of sexual assault survivors lost their jobs or 
are forced to quit in the aftermath of the crime. Victims of intimate 
partner violence lose 8,000,000 days of paid work each year--the 
equivalent of 32,000 full-time jobs and 5,600,000 days of household 
productivity. Such violence has a devastating impact on women's 
physical health, mental health, and financial security.
    The Violence Against Women Act and other legislation that Congress 
has passed has made an enormous difference for victims by creating 
emergency shelter services and improving the response of the criminal 
and civil justice systems to domestic and sexual violence. However, too 
many victims are afraid to access those services because they are 
worried that if they miss work, they will lose their jobs. Please pass 
legislation that ensures that victims can take steps to protect 
themselves without jeopardizing their employment and economic security.
    Thank you for allowing me to share my thoughts with you on this 
topic.
            Sincerely,
                                      Jenny Rowh Fairchild.
                                 ______
                                 
                 Family Violence Prevention Center,
                                         Orange County, NC,
                                                    April 16, 2007.
Senator Patty Murray, Chair,
Senator Johnny Isakson, Ranking Member,
HELP Committee, Employment and Workplace Subcommittee,
428 Senate Dirksen Office Building,
Washington, DC. 20510.

Re:  ``Too Much, Too Long? Domestic Violence in the Workplace'' Hearing 
of the Senate Subcommittee on Employment and Workplace Safety

    Dear Senators Murray and Isakson: The staff of the Family Violence 
Prevention Center of Orange County is writing to urge you to pass 
legislation, such as the Security and Financial Empowerment Act, that 
would promote the economic security of victims by ensuring that victims 
do not lose their jobs because of the violence against them or their 
efforts to take steps to address the violence and that victims who must 
leave their jobs because of the violence can receive unemployment 
insurance benefits.
    We frequently work with victims of domestic violence who are 
extremely concerned about losing their jobs due to domestic violence. 
Some of our victims are forced to drop protective orders and/or miss 
criminal court dates because they fear they will lose their jobs. Many 
victims we work with are terrified to go to work because they are 
afraid that their abuser will assault and harass them at their work 
place. These victims need to know that unemployment benefits are 
available so that they have the economic independence they need to stay 
separated from their abusers.
    National studies confirm that economic security is one of the most 
important factors in whether victims are able to separate effectively 
from an abuser--and that unfortunately, many victims lose their jobs 
because of the violence against them. The General Accounting Office has 
found that between \1/4\ and \1/2\ of domestic violence victims report 
that they have lost a job due, at least in part, to domestic violence. 
In addition, almost half of sexual assault survivors lost their jobs or 
are forced to quit in the aftermath of the crime. Victims of intimate 
partner violence lose 8,000,000 days of paid work each year--the 
equivalent of 32,000 full-time jobs and 5,600,000 days of household 
productivity. Such violence has a devastating impact on women's 
physical health, mental health, and financial security.
    The Violence Against Women Act and other legislation that Congress 
has passed has made an enormous difference for victims by creating 
emergency shelter services and improving the response of the criminal 
and civil justice systems to domestic and sexual violence. However, too 
many victims are afraid to access those services because they are 
worried that if they miss work, they will lose their jobs. Please pass 
legislation that ensures that victims can take steps to protect 
themselves without jeopardizing their employment and economic security.
    Thank you for allowing us to share our thoughts with you on this 
topic. If you have any questions, please do not hesitate to contact us 
at 919-929-3872
            Sincerely,
                                            Genevieve King,
                                        Court Services Coordinator,

                                          Christine Rafter,
                                    Volunteer Services Coordinator,

                                           Donna Kay Smith,
                                        Interim Executive Director,

                                      Caroline Wells Pence,
                                         Support Group Facilitator.
                                 ______
                                 
                                            April 16, 2007.
Senator Patty Murray, Chair,
Senator Johnny Isakson, Ranking Member,
Senator Bernie Sanders,
HELP Committee, Employment and Workplace Subcommittee,
428 Senate Dirksen Office Building,
Washington, DC. 20510.

Re: ``Too Much, Too Long? Domestic Violence in the Workplace'' Hearing 
of the Senate Subcommittee on Employment and Workplace Safety

    Dear Senators Murray, Isakson, and Sanders: I am writing to urge 
you to pass legislation, such as the Security and Financial Empowerment 
Act, that would promote the economic security of victims by ensuring 
that victims do not lose their jobs because of the violence against 
them or their efforts to take steps to address the violence and that 
victims who must leave their jobs because of the violence can receive 
unemployment insurance benefits.
    National studies confirm that economic security is one of the most 
important factors in whether victims are able to separate effectively 
from an abuser--and that unfortunately, many victims lose their jobs 
because of the violence against them. The General Accounting Office has 
found that between \1/4\ and \1/2\ of domestic violence victims report 
that they have lost a job due, at least in part, to domestic violence. 
In addition, almost half of sexual assault survivors lost their jobs or 
are forced to quit in the aftermath of the crime. Victims of intimate 
partner violence lose 8,000,000 days of paid work each year--the 
equivalent of 32,000 full-time jobs and 5,600,000 days of household 
productivity. Such violence has a devastating impact on women's 
physical health, mental health, and financial security.
    Vermont in 2005 passed the Domestic and Sexual Violence Survivors 
Employment Transition Fund, which provides temporary economic support 
for survivors who are forced to leave work as a result of the violence 
they are experiencing. That initiative has been vitally important for 
the few survivors who have needed it, and has not had a significant 
financial impact on the State's general fund. Supporters such as this 
one can be an important component of survivors' efforts to seek 
physical and economic safety.
    The Violence Against Women Act and other legislation that Congress 
has passed has made an enormous difference for victims by creating 
emergency shelter services and improving the response of the criminal 
and civil justice systems to domestic and sexual violence. However, too 
many victims are afraid to access those services because they are 
worried that if they miss work, they will lose their jobs. Please pass 
legislation that ensures that victims can take steps to protect 
themselves without jeopardizing their employment and economic security.
    Thank you for allowing me to share my thoughts with you on this 
topic. If you have any questions, please do not hesitate to contact me 
at 802-388-1318.
            Sincerely,
                                                Sarah Nash.
                                 ______
                                 
                                            April 17, 2007.
Senator Patty Murray, Chair,
Senator Johnny Isakson, Ranking Member,
HELP Committee, Employment and Workplace Subcommittee,
428 Senate Dirksen Office Building,
Washington, DC. 20510.

Re:  ``Too Much, Too Long? Domestic Violence in the Workplace'' Hearing 
of the Senate Subcommittee on Employment and Workplace Safety

    Dear Senators Murray and Isakson: I am writing to urge you to pass 
legislation such as the Security and Financial Empowerment Act that 
would promote the economic security of victims by ensuring that victims 
do not lose their jobs because of the violence against them or their 
efforts to take steps to address the violence. Any such legislation 
should further ensure that victims who must leave their jobs because of 
the violence can receive unemployment insurance benefits, a measure in 
effect in more than 26 States and the District of Columbia.
    The D.C. Employment Justice Center (EJC) is a nonprofit 
organization with a mission to protect, secure, and promote workplace 
justice in the District of Columbia. Since opening its doors in 2000, 
the EJC has strived to ensure the rights of frequently unprotected and 
vulnerable populations, in particular working with minority workers, 
domestic violence victims, immigrant workers, and other similarly 
vulnerable populations through our legal services, advocacy, and 
education work. In just 6 years, the EJC has assisted nearly 6,000 
workers, recovered over $3 million in back wages and damages for EJC 
clients, achieved many legislative victories, educated thousands of 
workers about their rights on the job, and built a vibrant community 
organizing program. Several of our legislative reforms have focused on 
the intersection of domestic violence and employment, including a law 
that went into effect in 2004 that requires the District to allow 
domestic violence victims to access unemployment compensation if they 
lose their jobs as a result of the violence.
    The EJC provides a weekly Workers Rights Clinic where individuals 
who meet the income guidelines can go to gain free legal advice from 
volunteer attorneys. Often, we meet women who have been terminated from 
their job because they needed to take a day off to get necessary 
medical help, to go to a court hearing, or to change their place of 
residence to ensure their safety. If legislation such as the Security 
and Financial Empowerment Act became law, these women would not have to 
choose between their safety and their job.
    National studies confirm that economic security is one of the most 
important factors in whether victims are able to separate effectively 
from an abuser--and that unfortunately, many victims lose their jobs 
because of the violence against them. The General Accounting Office has 
found that between \1/4\ and \1/2\ of domestic violence victims report 
that they have lost a job due, at least in part, to domestic violence. 
In addition, almost half of sexual assault survivors lost their jobs or 
were forced to quit in the aftermath of the crime. Victims of intimate 
partner violence lose 8,000,000 days of paid work each year--the 
equivalent of 32,000 full-time jobs--and 5,600,000 days of household 
productivity. Such violence has a devastating impact on women's 
physical health, mental health, and financial security. It also clearly 
affects the greater community as well.
    New York City has long recognized domestic violence as a workplace 
issue. It has been a leader in ensuring that victims of domestic and 
sexual violence can maintain stable employment while they take steps to 
end the violence in their lives. In 2001, New York City was the first 
jurisdiction in the country to adopt legislation explicitly prohibiting 
employment discrimination against victims of domestic violence (Local 
Law 1 of 2001). In 2003, the city expanded these protections to require 
employers to make reasonable accommodations--such as permitting time 
off or a flexible schedule--for victims of domestic or sexual violence 
(Local Law 75 of 2003). We are not aware of any complaints from 
employers alleging employee misuse of this law, and we know that it has 
helped working women (and men) take essential steps to separate from an 
abusive or violent relationship.
    The Violence Against Women Act and other legislation that Congress 
has passed have made an enormous difference for victims by creating 
emergency shelter services and improving the response of the criminal 
and civil justice systems to domestic and sexual violence. However, too 
many victims are afraid to access those services because they are 
worried that if they miss work, they will lose their jobs. Please pass 
legislation that ensures that victims can take steps to protect 
themselves without jeopardizing their employment and economic security.
    Thank you for allowing me to share my thoughts with you on this 
topic. If you have any questions, please do not hesitate to contact me 
at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ddb7bab2aeb5b2aa9db9beb8b7bef3b2afbaf3">[email&#160;protected]</a>
            Sincerely,
                                            Jessica Goshow,
                                        Legal and Policy Associate,
                                      DC Employment Justice Center.
                                 ______
                                 
                                            April 19, 2007.
Senator Patty Murray, Chair,
Senator Johnny Isakson, Ranking Member,
HELP Committee, Employment and Workplace Subcommittee,
428 Senate Dirksen Office Building,
Washington, DC. 20510.

Re:  ``Too Much, Too Long? Domestic Violence in the Workplace'' Hearing 
of the Senate Subcommittee on Employment and Workplace Safety--Letter 
Submitted for the Record

    Dear Senators: I am writing to urge you to pass legislation, such 
as the Security and Financial Empowerment Act, that would promote the 
economic security of victims by ensuring that victims do not lose their 
jobs because of the violence against them or their efforts to take 
steps to address the violence and that victims who must leave their 
jobs because of the violence can receive unemployment insurance 
benefits.
    All too often, we receive calls from victims who are worried that 
they will lose their jobs if they miss work to go to court for a 
protective order or whose ex-boyfriend/ex-spouse kept harassing her at 
work location. There has also been occasion where the victim has had to 
quit their job to escape the violence. They need unemployment insurance 
benefits so that they have the economic independence they need to stay 
separated from their abusers.
    National studies confirm that economic security is one of the most 
important factors in whether victims are able to separate effectively 
from an abuser--and that unfortunately, many victims lose their jobs 
because of the violence against them. The General Accounting Office has 
found that between \1/4\ and \1/2\ of domestic violence victims report 
that they have lost a job due, at least in part, to domestic violence. 
In addition, almost half of the sexual assault survivors lost their 
jobs or were forced to quit in the aftermath of the crime. Victims of 
intimate partner violence lose 8,000,000 days of paid work each year--
the equivalent of 32,000 full-time jobs and 5,600,000 days of household 
productivity. Such violence has a devastating impact on women's 
physical health, mental health, and financial security.
    New York City has long recognized domestic violence as a workplace 
issue and it has been a leader in ensuring that victims of domestic and 
sexual violence can maintain stable employment while they take steps to 
end the violence in their lives. In 2001, New York City was the first 
jurisdiction in the country to adopt legislation explicitly prohibiting 
employment discrimination against victims of domestic violence (Local 
Law 1 of 2001). In 2003, the city expanded these protections to require 
employers to make reasonable accommodations--such as permitting time 
off or a flexible schedule--for victims of domestic or sexual violence 
(Local Law 75 of 2003). Our office has received no complaints from 
employers alleging employee misuse of this law, and we know that it has 
helped working women (and men) take essential steps to separate from an 
abusive or violent relationship.
    The Violence Against Women Act and other legislation that Congress 
has passed has made an enormous difference for victims by creating 
emergency shelter services and improving the response of the criminal 
and civil justice systems to domestic and sexual violence. However, too 
many victims are afraid to access those services because they are 
worried that if they miss work, they will lose their jobs. Please pass 
legislation that ensures that victims can take steps to protect 
themselves without jeopardizing their employment and economic security.
    Thank you for allowing me to share my thoughts with you on this 
topic. If you have any questions, please do not hesitate to contact me 
at 718-479-1106 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec8183828995848380808d8288ac8d8380c28f8381c2">[email&#160;protected]</a>
            Sincerely,
                                     Anne Holland-McCauley,
                               Secretary-Treasurer, CWA Local 1106.
                                 ______
                                 
                                Liz Claiborne Inc.,
                                            April 20, 2007.
Senator Patty Murray, Chair,
Senator Johnny Isakson, Ranking Member,
Senator Hillary Rodham Clinton, Member,
HELP Committee, Employment and Workplace Subcommittee,
428 Senate Dirksen Office Building,
Washington, DC. 20510.

Re:  ``Too Much, Too Long? Domestic Violence in the Workplace'' Hearing 
of the Senate Subcommittee on Employment and Workplace Safety

    Dear Senators Murray, Isakson, and Clinton: I wanted to commend you 
for addressing the issue of domestic violence in the workplace. As 
proven by the tragic shootings earlier this month at The University of 
Washington in Seattle and at the Omni Hotel in Atlanta, this is a 
critical issue that needs immediate attention.
    All too often, victims are entirely dependent on their abuser for 
food and shelter for themselves and their families. I therefore urge 
Congress to pass the Survivors' Empowerment and Economic Security Act. 
Victims of domestic violence need to take time off from work to appear 
in court, seek legal assistance, and get help with safety planning, 
without the threat of losing their job.
    This legislation from Congress is crucial but very little will be 
accomplished without the support of the private sector. Unfortunately, 
many companies do not consider domestic violence to be a workplace 
problem and are reluctant to interfere in what they consider a personal 
issue. There are nearly 100 corporations and non-profit organizations, 
which are implementing domestic violence policies, including such 
diverse companies as Verizon Wireless, American Express, Target, 
Eastman Kodak and Allstate. But obviously much more action needs to be 
taken.
    Liz Claiborne Inc. has developed a comprehensive program that could 
easily be replicated and used as a model for other businesses.
    Our domestic violence workplace agenda includes a Domestic Violence 
Response Team that operates on a corporate level to initiate policies 
and on an operations level to handle specific threat assessments and 
procedures. Our human resources, security and legal departments work 
together with managers and employees to introduce policies to help 
victims and prevent abuse. When a victim requires help, human resources 
and security are contacted, a security assessment is conducted and the 
team provides a safety plan which can include screening telephone 
calls, relocating an employee's work place to a more secure area, and 
allowing time off so that the employee can seek counseling, housing or 
legal action.
    We have implemented internal training programs for employees, 
managers and executives so they know what to do if they suspect an 
employee is in danger from an intimate partner. These trainings never 
include a counseling role, rather we always suggest reaching out to the 
National Domestic Violence Hotline, local resources or an Employee 
Assistance Program to provide adequate assistance and support.
    Internal communications focusing on the issue is also an important 
part of our policy. We know that new employees need to be informed and 
policies need to be communicated on an ongoing basis to reinforce and 
remind them that the support, safety procedures and outside counseling 
services are always available.
    Domestic violence is not a personal issue or a workplace issue, it 
is really a national issue. These recent tragedies should be a catalyst 
for Congress and employers across the country to act now.
    Thank you for allowing me to share my thoughts with you on this 
topic.
            Sincerely,
                                               Jane Randel,
                          Vice President, Corporate Communications.
                                 ______
                                 
    Office for the Prevention of Domestic Violence,
                                    Albany, New York 12205,
                                                    April 23, 2007.
Senator Patty Murray, Chair,
Senator Johnny Isakson, Ranking Member,
HELP Committee, Employment and Workplace Subcommittee,
428 Senate Dirksen Office Building,
Washington, DC. 20510.

Re:  SEES Act/Hearing of the Senate Subcommittee on Employment and 
Workplace Safety

    Employees are at significant risk from intimate partner abuse and 
homicide in the workplace. A recent article in the American Journal of 
Industrial Medicine found that although occupational homicides had 
declined approximately 6 percent per year from 1993-2002, homicides 
involving a personal relationship between the worker and the offender 
actually declined significantly less than overall workplace homicides, 
and declined the least of the four homicide types studied.\1\ New York 
and other States have taken steps to address this problem, but Federal 
legislation is needed to ensure consistent and significant protection 
to all victims in all workplaces. As the recent incident in the CNN 
Mall in Atlanta demonstrates, when domestic violence spills over into 
the workplace, it affects us all.
---------------------------------------------------------------------------
    \1\ ``Trends in Workplace Homicides in the U.S., 1993-2002: A 
Decade of Decline'' Scott A. Hendricks, E. Lynn Jenkins, Kristi R. 
Anderson; American Journal of Industrial Medicine, March 2007.
---------------------------------------------------------------------------
    In 1995, over a decade ago, the NYS Legislature noted that a 
growing number of studies were identifying a ``myriad of issues'' that 
domestic violence victims encountered in the workplace. In response, 
the Legislature and Governor directed the NYS Department of Labor to 
issue a report on the impact of domestic violence on the workplace, 
with particular attention to individuals who lost employment due to 
domestic violence.\2\
---------------------------------------------------------------------------
    \2\ Chapter 527 of the laws of 1995.
---------------------------------------------------------------------------
    ``Report to the Legislature on Employees Separated from Employment 
Due to Domestic Violence,'' released in 1996, cited a survey by the NYS 
Department of Social Services, which found that ``of clients receiving 
domestic violence services, 59.9 percent were found to have left a job 
at some time in their lives due to battering.'' The report also 
outlined concerns of both victims and employers that still ring true 
today. The victims' concerns included worries about the ramifications 
of disclosing their victimization to their employer; lack of 
confidentiality and safety; absence of job site or employee services; 
lack of flexible work/leave options, fear of job loss and, at times, 
actual termination. Employers worried about victims' diminished 
productivity, lost work time, turnover and increased health care costs. 
The report recommended solutions that encouraged collaboration among 
unions, employers, employees, government and advocates. After this 
report was issued, New York State enacted legislation that established 
unemployment insurance eligibility for domestic violence victims who 
voluntarily separated from employment as a result of domestic abuse.\3\
---------------------------------------------------------------------------
    \3\ Chapter of 268 of the Laws of 1998.
---------------------------------------------------------------------------
    The DOL report's recommendations still make sense: employees and 
employers should partner on this issue, because their interests are in 
fact aligned. The solution to both sets of concerns is responsive and 
appropriate economic security for victims: if victims can safely 
disclose their situation to their employers, they can obtain the 
services they need to stay safe, preventing future harm and the need 
for medical attention, and ensuring their continued ability to perform 
their jobs.
    In 1997, NYS enacted legislation directing the NYS Office for the 
Prevention of Domestic Violence (OPDV) to develop a model policy for 
employers.\4\ OPDV collaborated with the NYS Department of Labor to 
develop the policy and alert employers to the availability of policy 
information and resource materials (posters, tent cards and employer 
handbooks). Almost 500,000 letters were mailed out, generating over 
20,000 responses from businesses requesting materials. Employer 
handbooks and materials were also mailed to all Chambers of Commerce in 
the State. In 2006, New York added to its package of protections 
legislation to address safety in the workplace.\5\
---------------------------------------------------------------------------
    \4\ Chapter 368 of the Laws of 1997.
    \5\ Chapter 82 of the Laws of 2006.
---------------------------------------------------------------------------
    In a 2005 survey of 1,200 employees, the Corporate Alliance to End 
Partner Violence found that 21 percent of respondents identified 
themselves as victims of intimate partner violence (research conducted 
by Group SJR). Of the self-identified victims, 21 percent had lost 
their jobs. In addition, while victims generally reported modest 
availability of services (12-23 percent for information and referral, 
counseling, security, etc.), only 8 percent indicated their employers 
provided ``flexible leave and other benefits.'' \6\
---------------------------------------------------------------------------
    \6\ CAEPV Special Edition Newsletter 2006.
---------------------------------------------------------------------------
    For many victims, their ability to separate from an abusive 
relationship is inextricable from their own economic independence. No 
employee should have to choose between their job and their personal 
safety. There are many resources available to assist employers in 
developing policies and services that support victims and increase 
their physical safety--such as OPDV's model policy and technical 
assistance. However, without concrete protections, such as leave, 
protection from job termination and access to unemployment benefits, 
victims may not feel they have any realistic opportunity to get safe.
    Though OPDV is not a direct service agency, we receive inquiries 
from distraught victims searching for help, trying to find out what 
options they have when they fear that their jobs might be at risk. In 
one current case, our staff is working with a victim who has had to 
appear in court twice a week for the past 3 weeks. Her court 
appearances involved violations of an order of protection, as well as a 
custody battle with her abuser (level 2 sex offender). This victim 
should not have to worry about losing her job while she takes care of 
these essential issues. Similar scenarios, and countless others, are 
repeated in courts and communities across the State.
    The NYS Coalition Against Domestic Violence, a coalition of the 
State's licensed domestic violence programs and shelters, has 
identified employment protection issues as their top priority. Numerous 
national domestic violence policy and advocacy organizations have 
called for immediate action on these issues. The Survivors' Empowerment 
and Economic Security Act, critical to the survival of victims and 
their families, will also result in long-term benefits for employers.
    Thank you for the opportunity to comment on the proposed Survivors' 
Empowerment and Economic Security Act.
            Sincerely,
                                         Amy Barasch, Esq.,
                                                Executive Director.
                                 ______
                                 
                                            April 23, 2007.
Senator Edward Kennedy, Chair,
Senator Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions,

Senator Patty Murray, Chair,
Senator Johnny Isakson, Ranking Member,
HELP Committee, Employment and Workplace Safety Subcommittee,
428 Senate Dirksen Office Building,
Washington DC., 20510.

Re:  Domestic Violence In the Workplace--Senate HELP Subcommittee 
Hearing April 17, 2007

    Dear Senators: I am writing to help give you an understanding as to 
how legislation, such as the Survivors' Empowerment and Economic 
Security Act (S. 1136), would greatly assist victims of domestic 
violence with respect to the workplace. I have been a practicing family 
law attorney for 15 years. I have spent the last 7 years working on a 
VAWA grant through the Wyoming Coalition Against Domestic Violence.
    Although Wyoming does not have a great population, unfortunately, 
we do have many victims of domestic violence. Data from the National 
Violence Center, based upon FBI data received from our State's Division 
of Criminal Investigation, shows that Wyoming is tied with New Mexico 
as the highest number of women killed by someone they knew. In 2007, we 
have had two men murdered in Natrona County each related to family 
violence.
    I average helping approximately two victims per week with 
protection orders. At least one victim a month is worried about losing 
their job because they have to take off work to file the petition and 
then, usually in the same week, take another day off to attend the 
hearing. Additionally, abusers will call victims at their workplace and 
violate court orders. The employers then retaliate against the worker. 
I personally have known several victims who have lost their jobs due to 
abusive actions by their spouse or intimate partner. I see this happen 
several times a year in my county.
    There is already a huge economic disparity between female workers 
and male workers. Again, Wyoming was the highest in the Nation in the 
wage gap disparity. We are booming in our economy now and bringing in 
workers from other States. With that boom has been an increase in 
domestic violence in the counties experiencing the boom.
    We desperately need laws that assist victims to becoming 
economically stable. Wyoming lacks State laws that prohibit the abuser 
from having a firearm while the protection order is in effect. That is 
a big issue in our State (the right to have guns) and thankfully, we 
have the Federal laws that protect our victims. Our State is one of six 
States that does not fund any civil legal assistance to victims, and 
again Federal VAWA is the only way victims of domestic violence receive 
help. Without the Federal laws, victims in Wyoming would be forced to 
stay with their abusers for economic reasons.
    The Wyoming Supreme Court has specifically ruled that alimony is 
not to be given, but rather the spouse should receive a greater portion 
of the marital estate. Unfortunately, our State child support 
enforcement office has taken a position that orders for child support 
issued in protection orders by our circuit courts cannot be enforced 
through their agency!!!! Thus, if the abuser does not pay child 
support, they will not seek to force him to pay. Nor are they willing 
to issue Income Withholding Orders.
    Having a Federal law that employers in this State would have to 
follow that would allow the victims to keep their jobs if they go to 
court to seek a protection order, protect them from being fired due to 
the domestic violence, and ensure that they are able to receive 
unemployment compensation would be a wonderful step in giving them the 
economic security and safeguards they need to escape this abuse. As I 
previously stated, I see at least one victim a month who loses a job 
due to the acts of domestic violence. Ironically, it is the bigger 
employers (rather than the mom & pop operations) who are the worst.
    Thank you for your time and attention to these matters.
            Sincerely,
                                       Jacqueline K. Brown,
                                     Attorney and Counselor at Law.
                                 ______
                                 
                  Texas Council on Family Violence,
                                            April 24, 2007.
Senator Patty Murray, Chair,
Senator Johnny Isakson, Ranking Member,
HELP Committee, Employment and Workplace Subcommittee,
428 Senate Dirksen Office Building,
Washington, DC. 20510.

Re:  ``Too Much, Too Long? Domestic Violence in the Workplace'' Hearing 
of the Senate Subcommittee on Employment and Workplace Safety--Letter 
Submitted for the Record

    Dear Senators Murray and Isakson: I am writing to urge you to pass 
legislation, such as the Survivors' Empowerment and Economic Security 
Act, that would promote the economic security of victims by ensuring 
that victims do not lose their jobs because of the violence against 
them or their efforts to take steps to address the violence and that 
victims who must leave their jobs because of the violence can receive 
unemployment insurance benefits.
    The Texas Council on Family Violence (TCFV) is a statewide 
coalition working to end family violence through partnerships, advocacy 
and direct services for women, children and men. TCFV has over 650 
members. Membership is composed of family violence service providers, 
supportive organizations, survivors of domestic violence, businesses 
and professionals, communities of faith and other concerned 
individuals.
    Texas currently offers no job protected leave for victims of family 
violence who need to address the immediate safety concerns of their 
families. If a victim must miss a day of work to answer to a subpoena 
as part of a criminal prosecution or to apply for a protective order to 
keep an abuser away from home and work, she risks termination. Without 
job protected leave, victims are forced to choose between their safety 
and their family's economic stability.
    National studies confirm that economic security is one of the most 
important factors in whether victims are able to separate effectively 
from an abuser--and that unfortunately, many victims lose their jobs 
because of the violence against them. The General Accounting Office has 
found that between \1/4\ and \1/2\ of domestic violence victims report 
that they have lost a job due, at least in part, to domestic violence. 
In addition, almost half of sexual assault survivors lost their jobs or 
are forced to quit in the aftermath of the crime. Victims of intimate 
partner violence lose 8,000,000 days of paid work each year--the 
equivalent of 32,000 full-time jobs and 5,600,000 days of household 
productivity. Such violence has a devastating impact on women's 
physical health, mental health, and financial security.
    The Violence Against Women Act and other legislation that Congress 
has passed has made an enormous difference for victims by creating 
emergency shelter services and improving the response of the criminal 
and civil justice systems to domestic and sexual violence. However, too 
many victims are afraid to access those services because they are 
worried that if they miss work, they will lose their jobs. Please pass 
legislation that ensures that victims can take steps to protect 
themselves without jeopardizing their employment and economic security.
    Thank you for allowing me to share my thoughts with you on this 
topic. If you have any questions, please do not hesitate to contact me 
at (512) 794-1133.
            Sincerely,
                                              Sheryl Cates,
                                           Chief Executive Officer,
                                 Texas Council on Family Violence, 
                                National Domestic Violence Hotline.
                                 ______
                                 
New Hampshire Coalition Against Domestic and Sexual 
                                          Violence,
                                    Concord, NH 03302-0353,
                                                    April 24, 2007.
Senator Patty Murray, Chair,
Senator Johnny Isakson, Ranking Member,
HELP Committee, Employment and Workplace Subcommittee,
428 Senate Dirksen Office Building,
Washington, DC. 20510.

Re:  ``Too Much, Too Long? Domestic Violence in the Workplace? Hearing 
of the Senate Subcommittee on Employment and Workplace Safety

    Dear Senators Murray and Isakson: I am writing to urge you to pass 
legislation, such as the Survivors Empowerment and Economic Security 
Act, that would promote the economic security of victims by ensuring 
that victims do not lose their jobs because of the violence against 
them or their efforts to take steps to address the violence and that 
victims who must leave their jobs because of the violence can receive 
unemployment insurance benefits.
    The New Hampshire Coalition Against Domestic and Sexual Violence is 
a coalition of independent crisis centers across the State working to 
support victims/survivors of sexual violence, domestic violence, and 
stalking in their local communities. Each individual center is 
committed to providing appropriate, quality services that meet the 
needs of victims/survivors in their own communities. As a group, the 
independent crisis centers across the State are committed to providing 
direct services within a victim-based model of advocacy, which honors 
victims'/survivors' experiences as a basis of constructing appropriate 
services. This model includes working with victims/survivors to provide 
information and support that empowers them to make decisions that are 
in their own best interests. These services and the service provision 
model have developed from grassroots movements born from the idea that 
violence against women is a systemic and pervasive problem. Sexual 
violence, domestic violence and stalking include a range of behaviors, 
some of which are illegal, but all of which degrade and dehumanize 
victims/survivors. All services provided by each local crisis center 
are confidential and free of charge.
    NHCADSV recognizes that violence and oppression are connected, and 
promotes social change by holding societal systems accountable for 
their responses to domestic and sexual violence, and through the 
empowerment of victims.
    The Coalition supports its member programs by providing community 
education, coordination, training, resources sharing, and advocacy for 
legislative changes that affect victim/survivors of sexual violence, 
domestic violence and stalking.
    New Hampshire has long been a national leader in our response to 
domestic violence. In May 2000, New Hampshire recognized these concerns 
and accepted an invitation by the Family Violence Prevention Fund to 
join the Corporate Citizenship Initiative (CCI), a nationwide effort 
designed to address domestic violence in the workplace. To spread 
awareness of the Initiative, a newly established CCI Steering 
Committee, along with Governor Jeanne Shaheen, hosted a kickoff meeting 
for 100 business and community leaders from around the State. The 
Initiative's momentum propelled significant social change for New 
Hampshire's public business sector; a Domestic Violence in the 
Workplace Policy was drafted and implemented, and hundreds of State 
employees, including managers, employee assistance professionals, and 
human resource professionals, received training on successful 
strategies to help assist affected employees.
    Today, the Corporate Citizenship Initiative has emerged as the 
Domestic Violence in the Workplace Initiative, part of the Governor's 
Commission on Domestic and Sexual Violence and is reforming in order to 
share its message with the private business sector. In 2004, one of our 
area crisis centers for domestic and sexual violence, New Beginnings, 
served 1,138 individuals. The New Hampshire Initiative aims to increase 
employers' awareness of domestic violence as a serious workplace issue 
and to give them the tools they need to address it. Through this 
project we can build upon existing successes by linking business, 
governmental, labor, and victim advocate leadership throughout the 
State and country.
    National studies confirm that economic security is one of the most 
important factors in whether victims are able to separate effectively 
from an abuser--and that unfortunately, many victims lose their jobs 
because of the violence against them. The General Accounting Office has 
found that between \1/4\ and \1/2\ of domestic violence victims report 
that they have lost a job due, at least in part, to domestic violence. 
In addition, almost half of sexual assault survivors lost their jobs or 
are forced to quit in the aftermath of the crime. Victims of intimate 
partner violence lose 8,000,000 days of paid work each year--the 
equivalent of 32,000 full-time jobs and 5,600,000 days of household 
productivity. Such violence has a devastating impact on women's 
physical health, mental health, and financial security.
    The Violence Against Women Act and other legislation that Congress 
has passed has made an enormous difference for victims by creating 
emergency shelter services and improving the response of the criminal 
and civil justice systems to domestic and sexual violence. However, too 
many victims are afraid to access those services because they are 
worried that if they miss work, they will lose their jobs. Please pass 
legislation that ensures that victims can take steps to protect 
themselves without jeopardizing their employment and economic security.
    Thank you for allowing me to share my thoughts with you on this 
topic. If you have any questions, please do not hesitate to contact me 
at (603) 224-8893 ext. 309 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aacfc6c3d0cbc8cfdec2eac4c2c9cbced9dc84c5d8cd84">[email&#160;protected]</a>
            Sincerely,
                                          Elizabeth Gruber,
                                   Technical Assistance Specialist.
                                 ______
                                 
                      Northwest Women's Law Center,
                            Seattle, Washington 98101-1818,
                                                    April 24, 2007.
Senator Patty Murray, Chair,
Senator Johnny Isakson, Ranking Member,
HELP Committee, Employment and Workplace Subcommittee,
428 Senate Dirksen Office Building,
Washington, DC. 20510.

Re:  ``Too Much, Too Long? Domestic Violence in the Workplace'' Hearing 
of the Senate Subcommittee on Employment and Workplace Safety

    Dear Senators Murray and Isakson: I am writing to urge you to pass 
legislation, such as the Survivors' Empowerment and Economic Security 
Act, that would promote the economic security of victims by ensuring 
that victims do not lose their jobs because of the violence against 
them or their efforts to take steps to address the violence, and that 
victims who must leave their jobs because of the violence can receive 
unemployment insurance benefits.
    The Northwest Women's Law Center, founded in 1978 to advance 
women's legal rights, conducts broad-based advocacy throughout the 
Pacific Northwest. Law Center staff and volunteers work on virtually 
any issue that affects women, recognizing that women's lives, issues 
and concerns are complicated and interrelated, and that we must 
consider issues that affect women of all ages, backgrounds, and 
perspectives to truly advance women's legal rights. The Law Center's 
core issues include economic justice; reproductive freedom; family law; 
health care and insurance; violence against women; lesbian and gay 
rights; civil rights; discrimination in employment, education and 
athletics; public benefits; affirmative action; criminal law and 
prisoners' rights; and issues of abuse. The Law Center's programs 
encompass one of the largest geographic areas in the country, working 
in Alaska, Idaho, Montana, Oregon and Washington. Our integrated 
approach to achieving our mission combines three key strategies: impact 
litigation, legislative advocacy and self help.
    We frequently receive calls from victims who have lost their jobs 
when they have taken time to protect themselves from domestic violence. 
We are currently litigating a case and awaiting a decision from the 
Washington Supreme Court on this very issue (Danny v. Laidlaw, 
Washington State Supreme Court Cause No. 78421-3). In this case, Ms. 
Danny had been employed by Laidlaw for more than 6 years, during which 
time she had worked her way up through the ranks to a supervisory 
position. Throughout her employment, she experienced ongoing domestic 
abuse from her husband. Initially, she did not disclose this abuse to 
Laidlaw, but in the fall of 2003 requested time off so that she could 
move herself and her five minor children to a shelter. Laidlaw declined 
her request. Soon thereafter, Ms. Danny's husband beat their 13-year-
old son so badly that he required hospitalization. Ms. Danny again 
requested a reasonable period of time off to move her family. Laidlaw 
reluctantly agreed. When Ms. Danny returned to work, however, she was 
promptly demoted and a few months later fired. We are hopeful that the 
Washington Supreme Court will positively address this issue for Ms. 
Danny and other Washingtonians. Survivors of domestic violence would 
also benefit from legislation such as the Survivors' Empowerment and 
Economic Security Act to ensure that they are not punished for trying 
to protect themselves and their families from the bad acts of their 
abusers.
    National studies confirm that economic security is one of the most 
important factors in whether victims are able to separate effectively 
from an abuser--and that unfortunately, many victims lose their jobs 
because of the violence against them. The General Accounting Office has 
found that between \1/4\ and \1/2\ of domestic violence victims report 
that they have lost a job due, at least in part, to domestic violence. 
In addition, almost half of sexual assault survivors lost their jobs or 
were forced to quit in the aftermath of the crime. Victims of intimate 
partner violence lose 8,000,000 days of paid work each year--the 
equivalent of 32,000 full-time jobs and 5,600,000 days of household 
productivity nationwide. Such violence has a devastating impact on 
women's physical health, mental health, and financial security.
    This year the Northwest Women's Law Center, together with several 
of its allies, proposed legislation to the Washington State Legislature 
that would allow victims of domestic violence, sexual assault and 
stalking to take a reasonable amount of time off from work to obtain 
social and medical services, appear in court, and deal with the 
traumatic effects of these crimes. Although this bill did not pass the 
Legislature this year, it will be considered again next year during the 
second half of Washington's 2007-2009 biennium.
    The Violence Against Women Act and other legislation that Congress 
has passed has made an enormous difference for victims by creating 
emergency shelter services and improving the response of the criminal 
and civil justice systems to domestic and sexual violence. However, too 
many victims are afraid to access those services because they are 
worried that if they miss work, they will lose their jobs. Please pass 
legislation that ensures that victims can take the necessary steps to 
protect themselves without jeopardizing their employment and economic 
security.
    Thank you for allowing me to share my thoughts with you on this 
topic. If you have any questions, please do not hesitate to contact me 
at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bdd0d1dccacfd8d3ded8fdd3cacad1de93d2cfda">[email&#160;protected]</a> or 206-682-9552, ext. 107.
            Sincerely,
                                            Molly Lawrence,
                               Interim Legal & Legislative Counsel.
                                 ______
                                 
                          American Bar Association,
                                     Washington, DC. 20005,
                                                    April 16, 2007.
Hon. Patty Murray, Chair,
Hon. Johnny Isakson, Ranking Member,
Subcommittee on Employment & Workplace Safety,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC. 20510.

    Dear Chair Murray and Senator Isakson: On behalf of the American 
Bar Association, I am submitting this written statement for tomorrow's 
hearing, ``Too Much, Too Long? Domestic Violence in the Workplace,'' 
that outlines the Association's views on this important issue. The ABA 
would appreciate inclusion of this statement in the hearing record.
            Sincerely,
                                         Denise A. Cardman,
                                                   Acting Director.
                                 ______
                                 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
